<html>
<title> - CHARTING THE COURSE FOR AMERICAN NUCLEAR TECHNOLOGY: EVALUATING THE DEPARTMENT OF ENERGY'S NUCLEAR ENERGY RESEARCH AND DEVELOPMENT ROADMAP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    CHARTING THE COURSE FOR AMERICAN 
                     NUCLEAR TECHNOLOGY: EVALUATING 
                       THE DEPARTMENT OF ENERGY'S 
                        NUCLEAR ENERGY RESEARCH 
                        AND DEVELOPMENT ROADMAP 

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2010

                               __________

                           Serial No. 111-94

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-172 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY



















                            C O N T E N T S

                              May 19, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     6
    Written Statement............................................     7

Statement by Representative Dana Rohrabacher, Acting Minority 
  Ranking Member, Committee on Science and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement by Representative Ralph M. Hall, Minority 
      Ranking Member, Committee on Science and Technology, U.S. 
      House of Representatives...................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

                                Panel I:

Dr. Warren P. Miller, Assistant Secretary, Office of Nuclear 
  Energy, U.S. Department of Energy
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    16

Discussion
  Cost Sharing...................................................    17
  Creating an Export Market......................................    17
  Yucca Mountain Nuclear Waste Repository........................    18
  Uranium and Thorium............................................    20
  Water-Cooled vs. Gas-Cooled Reactors...........................    22
  Specific Issues in the DOE Roadmap.............................    23
  More on Uranium Supply.........................................    25
  Information on Full Recycling..................................    26
  Small Modular Reactors.........................................    27
  Modeling and Simulation of Reactors............................    28
  General Comments...............................................    29
  Licensing for SMRs.............................................    29
  Cost Competitiveness...........................................    30

                               Panel II:

Mr. Christofer Mowry, President and CEO, Babcock & Wilcox Nuclear 
  Energy, Inc.
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    40

Dr. Charles Ferguson, President, Federation of American 
  Scientists
    Oral Statement...............................................    40
    Written Statement............................................    42
    Biography....................................................    48

Dr. Mark Peters, Deputy Director for Programs, Argonne National 
  Lab
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    60

Mr. Gary M. Krellenstein, Managing Director, Tax Exempt Capital 
  Markets, JP Morgan Chase & Co.
    Oral Statement...............................................    61
    Written Statement............................................    62
    Biography....................................................    64

Dr. Thomas L. Sanders, President, American Nuclear Society
    Oral Statement...............................................    64
    Written Statement............................................    66
    Biography....................................................    68

Discussion
  U.S. Manufacturing Needs.......................................    69
  New Reactor Permitting.........................................    71
  How DOE Can Support New Developments...........................    71
  Financing and Cost Competitiveness.............................    72
  A Skilled Workforce and Domestic Manufacturing.................    73
  Submarine Reactors and mPower..................................    74
  Fission vs. Fusion.............................................    75
  Expediting Technology Development..............................    76
  Maintaining Competition........................................    77

             Appendix 1: Answers to Post-Hearing Questions

Dr. Warren P. Miller, Assistant Secretary, Office of Nuclear 
  Energy, U.S. Department of Energy..............................    82

Mr. Christofer Mowry, President and CEO, Babcock & Wilcox Nuclear 
  Energy, Inc....................................................    86

Dr. Charles Ferguson, President, Federation of American 
  Scientists.....................................................    89

Dr. Mark Peters, Deputy Director for Programs, Argonne National 
  Lab............................................................    91

Mr. Gary M. Krellenstein, Managing Director, Tax Exempt Capital 
  Markets, JP Morgan Chase & Co..................................    92

Dr. Thomas L. Sanders, President, American Nuclear Society.......    94

             Appendix 2: Additional Material for the Record

Summary and Table of Contents, Department of Energy Nuclear 
  Research and Development Roadmap...............................    98

A Sustainable Energy Future: The Essential Role of Nuclear 
  Energy, from DOE Directors of National Laboratories............   106

Additional Testimony from Marvin S. Fertel, President and Chief 
  Executive Officer, Nuclear Energy Institute....................   114

Additional Testimony from Paul Lorenzini, Chief Executive 
  Officer, NuScale Power.........................................   121

Additional Testimony from Dr. Travis W. Knight, Assistant 
  Professor and Director, Nuclear Engineering Program, University 
  of South Carolina, submitted by Representative Bob Inglis......   124


  CHARTING THE COURSE FOR AMERICAN NUCLEAR TECHNOLOGY: EVALUATING THE 
 DEPARTMENT OF ENERGY'S NUCLEAR ENERGY RESEARCH AND DEVELOPMENT ROADMAP

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:02 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                Charting the Course for American Nuclear

                Technology: Evaluating the Department of

                  Energy's Nuclear Energy Research and

                          Development Roadmap

                        wednesday, may 19, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, May 19th, 2010 the House Committee on Science & 
Technology will hold a hearing entitled: ``Charting the Course for 
American Nuclear Technology: Evaluating the Department of Energy's 
Nuclear Energy Research and Development Roadmap.''
    The Committee's hearing will explore the Administration's strategy 
for research and development to advance clean and affordable nuclear 
technology. Amongst the issues to be considered will be how the Federal 
Government will enhance the safety and economic viability of nuclear 
power and what programs it recommends for managing nuclear waste, 
advancing reactor design, sustaining the existing nuclear fleet, and 
minimizing risk of proliferation of nuclear materials.

Witnesses

Panel I

        <bullet>  Dr. Warren P. Miller is the Assistant Secretary for 
        the Office of Nuclear Energy at the U.S. Department of Energy. 
        Dr. Miller will testify on the Department of Energy's recently 
        released Nuclear Energy Research and Development Roadmap and 
        provide additional guidance on the Office of Nuclear Energy's 
        technology and innovation initiatives.

Panel II

        <bullet>  Mr. Christofer Mowry is the President and CEO of 
        Babcock & Wilcox Nuclear Energy, Inc. Mr. Mowry will testify on 
        Small Modular Reactors and provide an overview of B&W's reactor 
        operations. He will provide information on the role Small 
        Modular Reactors can play in reducing capital costs and 
        improving the safety of nuclear power. Mr. Mowry will also 
        comment on DOE's Nuclear Energy Research and Development 
        Roadmap.

        <bullet>  Dr. Charles Ferguson is the President of the 
        Federation of American Scientists. The Federation of American 
        Scientists (FAS) is a public policy think-tank that was 
        originally founded by scientists from the Manhattan Project. 
        Currently FAS is conducting a project titled the Future of 
        Nuclear Energy in the United States to explore and analyze the 
        direction of nuclear energy technology innovation. Dr. Ferguson 
        will provide an overall analysis and critique of the Nuclear 
        Energy Research and Development Roadmap and Small Modular 
        Reactor technology.

        <bullet>  Dr. Mark Peters is the Deputy Director for Programs 
        at Argonne National Lab. Dr. Peters will testify on the Nuclear 
        Energy Research and Development Roadmap with particular 
        attention to the Administration's strategy for waste management 
        technology. He will also present a summary of new waste 
        management technologies currently under development at Argonne 
        National Lab.

        <bullet>  Mr. Gary M. Krellenstein is a Managing Director in 
        JPMorgan's Energy and Environmental Group and is a former 
        nuclear engineer at the Department of Energy and Nuclear 
        Regulatory Commission. Mr. Krellenstein's areas of focus are 
        municipal utilities, Rural Electric Cooperatives, alternative 
        energy technologies and project financing, and is also involved 
        in JPMorgan's ``carbon'' policies. Mr. Krellenstein will 
        testify on private capital interest in nuclear power including 
        how Small Modular Reactors and other new technologies may 
        attract private capital investment.

        <bullet>  Dr. Thomas L. Sanders is the President of American 
        Nuclear Society. The American Nuclear Society is a nuclear 
        professional society dedicated to promoting the awareness and 
        understanding of the application of nuclear science and 
        technology. Dr. Sanders will provide an overall evaluation of 
        the Nuclear Energy Research and Development Roadmap and provide 
        recommendations of policy areas to more fully develop or 
        explore.

Background

    According to the Department of Energy's Energy Information Agency 
(EIA), the nation's 104 commercial nuclear reactors currently provide 
70 percent of the emissions-free energy in the United States and 
approximately 20 percent of the country's electricity generation. 
However, nuclear power as it exists today relies on a ``once-through'' 
fuel cycle that produces high level radioactive waste from enriched 
uranium. In the United States there exists a stockpile of approximately 
63,000 metric tons of nuclear waste from reactors and generates roughly 
2,000 more tons per year. Furthermore, the capital costs of nuclear 
plants have risen steeply and present a high hurdle to deployment of 
new reactors. Some have argued that without a fully developed strategy 
to deal with these challenges, nuclear power will be unable to compete 
with other fuel sources.
    The Obama Administration recently proposed a substantial 
modification of Federal nuclear energy policy which may have widespread 
implications for the nation's energy portfolio and for the focus of the 
Department of Energy's nuclear energy research, development, 
demonstration and commercial application initiatives. The Waste Policy 
Act of 1982 requires the Federal Government to construct a nuclear 
waste repository, and Yucca Mountain was later designated as the site 
for a permanent waste repository in 1987. However, in its Fiscal Year 
2011 budget request, the Administration proposes to terminate funding 
for Yucca Mountain. To address the growing backlog of nuclear waste and 
the environmental concerns surrounding this issue, the President 
convened the bipartisan Blue Ribbon Commission on America's Nuclear 
Future. This Commission shall evaluate the best path forward for 
managing nuclear waste. Also reflected in the Fiscal Year 2011 budget 
request is a reorganization of the Office of Nuclear Energy to account 
for the cancellation of the Yucca project and a priority shift towards 
a ``goal-oriented, science-based approach'' that will include a larger 
focus on research & development in addressing post-generation nuclear 
waste. Furthermore, the Administration proposes to increase loan 
guarantees for nuclear power by $36 billion. This is intended to 
provide funding guarantees for construction of at least six new nuclear 
plants and will likely result in development of the first new U.S. 
commercial reactor in decades.

The Administration's Roadmap

    On April 15, 2010 the Department of Energy (DOE) published the 
Nuclear Energy Research and Development Roadmap (Roadmap) with the goal 
of providing a guide to the Office of Nuclear Energy's internal 
programmatic and strategic planning going forward. The report lays out 
four objectives: 1) establish solutions that can improve reliability 
and safety of the current fleet of reactors and extend their life; 2) 
advance reactor technology to both improve affordability and 
performance; 3) develop sustainable nuclear fuel cycles; and 4) 
understand and minimize the risks of proliferation and terrorism.

Objective 1: Safety and Life Extension
    While nuclear power today accounts for twenty percent of all 
electricity consumed in the United States, the plants supplying that 
energy are nearing retirement age. By 2035 most of the 104 operating 
reactors will have surpassed their 60 year life expectancy. Should new 
nuclear plants not be constructed in the interim, it is possible that 
retiring nuclear plants will be replaced by fossil fuel generation in 
order to meet rising demand. The Roadmap outlines a list of research 
initiatives that will explore how to extend reactor life and how to 
increase their safety and efficiency.

Objective 2: Improve Reactor Technology and Reduce Costs
    According to Moody's Investors Service, the current cost to 
construct a nuclear power plant is around $5000 to $7000 per kWe of 
capacity in comparison to the $1625 per kWe for a traditional 
pulverized coal plant. The Roadmap highlights a series of programs to 
reduce the capital cost of nuclear and create advanced, clean reactors. 
Among DOE's priorities is the creation of a dedicated Small Modular 
Reactor (SMR) program. SMRs by definition are smaller than conventional 
reactors, which can be as large as approximately 1500 mWe. Furthermore, 
certain SMR designs allow for in tandem or ``stackable'' use of 
multiple units to achieve large generation capacity. As envisioned by 
SMR supporters, this technology should reduce capital costs related to 
nuclear deployment as well as increase overall safety of nuclear 
generation. What is unclear is if the private capital and finance 
community will embrace SMRs as a worthwhile and acceptable risk 
investment.

Objective 3: Sustainable Nuclear Fuel Cycles
    In the Roadmap, DOE provides a broad outline of its strategy for 
nuclear waste management which focuses largely on the development of a 
suite of options that future decision makers may pursue. This approach 
reflects the uncertainty created by the pending Blue Ribbon Commission 
decision and its two year investigation. Until its resolution the 
Department will endeavor to establish the programs that will serve as 
the basis to implement the Commission's recommendations. The Roadmap 
provides three potential strategies for waste management: 1) advanced 
once-through; 2) modified-open; and 3) full recycle. Advanced once-
through cycle is similar in process to the fuel cycle used by 
commercial nuclear power today, but will develop fuels for use in 
current reactors that will increase efficiency and reduce waste output. 
A modified open cycle would use innovative fuel-forms and advanced 
reactors to increase the use of the energy content of fuel and reduce 
waste output. This approach would also employ some technologies to 
separate waste products from reusable isotopes. A full recycle approach 
endeavors to create a cost-effective and low proliferation risk process 
of repeatedly cycling fuel waste products to reduce radioactivity and 
decay heat and increase total energy consumption. All approaches will 
require some degree of waste storage.

Objective 4: Understanding and Addressing Proliferation
    To address the concern that civilian nuclear power resources could 
be used by foreign entities for weapons applications, DOE recommends a 
strategy to better account for and understand proliferation risks. The 
Roadmap advises that any technology innovation and development program 
must be informed by development of more advanced risk assessment tools 
to limit, mitigate and manage the risks of nation-state proliferation 
and lead to innovation of next generation physical security 
technologies.

Conclusion

    The Obama Administration's Roadmap is intended to demonstrate its 
commitment to encouraging wider use of current nuclear energy and to 
innovation of advanced nuclear technology. Specifically through Federal 
research and development, the Administration seeks to address the 
widely known risks and concerns that have hampered the industry since 
its inception, including waste management, capital cost reduction, and 
proliferation security.
    Chairman Gordon. Good morning, and welcome to today's 
hearing to review the Department of Energy's recently published 
Nuclear Energy Research and Development Roadmap. I look forward 
to learning from the witnesses how this policy framework will 
shape Federal R,D&D policy for nuclear technologies.
    I would like to welcome our expert panelists, who will 
discuss and evaluate the four main objectives highlighted in 
the Roadmap and help us to understand how innovation and 
nuclear energy can affect our national energy portfolio, our 
economic competitiveness, and our national security.
    As I have said before, I am a supporter of nuclear power, 
as I believe it is a part of the solution to challenges of our 
energy independence and climate change. Our 104 commercial 
reactors today produce 20 percent of our electricity and 70 
percent of our emissions-free energy.
    However, the decision by the Administration to cancel 
funding for the Yucca Mountain Repository has served to 
highlight a continuing question with nuclear power. How can we 
best manage the waste?
    Furthermore, as capital costs continue to rise for 
construction of new plants, the future of the U.S. domestic 
industry, that in the 1970s seemed so promising, now appears 
wholly dependent on loan guarantees, subsidies, and is losing 
pace to foreign powers pursuing advanced nuclear technology.
    The Roadmap at issue or the roadmap at issue in today's 
hearing proposes solutions to these and other problems 
affecting the nuclear power. It outlines four R&D objections.
    First, to establish solutions that can improve reliability 
and safety for the current fleet of reactors and extend their 
life expectancy, second, advance reactor technology to both 
improve affordability and performance, third, develop 
sustainable and efficient nuclear fuel cycles, and fourth, 
understand and minimize the risk of proliferation and 
terrorism.
    This hearing is a continuation in a series of discussions 
on nuclear power that will culminate in the Committee moving 
R&D legislation later this year. I am hopeful that today's 
panelists will shed some light on the past--best path forward 
for our research and development and strategy, and I want to, 
again, thank these very talented, multiple panels for being 
here today.
    Let me also give a quick apology. I am going to have to 
watch part of this on our award-winning website later on this 
afternoon. We have a suspension bill that is on the floor now. 
I need to go attend to that, and for my Republican Members that 
are here, it is the America COMPETES Act that we are bringing 
up on suspension. I got the message, and it is being reduced 
from a five-year to a three-year authorization. The funding 
authorization will also be reduced by 50 percent from what we 
voted for.
    So we have done that, and you will be pleased to know that 
those individuals that are watching pornography on Federal 
systems will be punished and that no child molesters will be 
eligible for any of these fundings. So hopefully we have 
covered the concerns.
    And so I am going to yield to my friend from California, 
Mr. Rohrabacher. I used to be his Ranking Member when he 
chaired and I was the Ranking Member of the Space and 
Aeronautics subcommittee, and he was a chairman that dealt with 
me very fairly. And I will ask Subcommittee Chairman Baird to 
take over. I hope to be back with you later.
    Please, witnesses, this is a very important issue. There is 
a lot going on this morning, and so the lack of attendance here 
and certainly my temporary lapse does not diminish the 
importance of this issue. Our staffs are here, this is going to 
be part of our record, and your testimony will play an 
important role in developing the basis for what I hope will be 
a really excellent R&D authorization that we will be able to 
get into law this year. Thank you.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning and welcome to today's hearing to review the 
Department of Energy's recently published ``Nuclear Energy Research and 
Development Roadmap.'' I look forward to learning from the witnesses 
how this policy framework will shape Federal RD&D programs for nuclear 
technologies.
    I would like to welcome our expert panelists who will discuss and 
evaluate the four main objectives highlighted in the Roadmap and help 
us understand how innovation in nuclear energy can affect our national 
energy portfolio, our economic competitiveness, and our national 
security.
    As I have said before, I am supportive of nuclear power as I 
believe it is a part of the solution to the challenges of energy 
independence and climate change. Our 104 commercial reactors today 
produce 20 percent of our electricity and 70 percent of our emissions 
free energy and have run with a strong record of safety and operating 
efficiency.
    However, the decision by the Administration to cancel funding for 
the Yucca Mountain repository has served to highlight a continuing 
question with nuclear power: how can we best manage the waste? 
Furthermore, as capital costs continue to rise for construction of new 
plants, the future of a U.S. domestic industry that in the 1970s seemed 
so promising, now appears wholly dependent on loan guarantees and 
subsidies, and is losing pace to foreign powers pursuing advanced 
nuclear technology.
    The Roadmap at issue in today hearing proposes solutions to these 
and other problems affecting nuclear power. It outlines four R&D 
objectives. First, establish solutions that can improve reliability and 
safety of the current fleet of reactors and extend their life 
expectancy. Second, advance reactor technology to both improve 
affordability and performance. Third, develop sustainable and efficient 
nuclear fuel cycles. And fourth, understand and minimize the risks of 
proliferation and terrorism.
    This hearing is a continuation in a series of discussions on 
nuclear power that will culminate in the Committee moving R&D 
legislation later this year. I am hopeful that today's panelists will 
shed some light on the best path forward for our research and 
development strategy and will highlight the challenges that must be 
addressed as we proceed towards once again becoming a global leader in 
nuclear energy.
    Again, I would like to thank the witnesses for their participation 
today and I look forward to your testimony.

    Chairman Gordon. And I recognize Mr. Rohrabacher.
    Mr. Rohrabacher. I thank you very much, Mr. Chairman. I 
would wish you good luck on the floor, but we will wait and 
see.
    This following statement is a statement by Ranking Member 
Ralph Hall, who is also on the floor right now to be involved 
with the debate on the COMPETES Act. I will be adding a few 
thoughts of my own, but this is basically Chairman Hall's 
opening statement and also would like to welcome Mr. Baird to 
the Chairman's seat. On this issue I know that he can do a 
great job because he is very well known and respected for his 
understanding of this particular issue, as well as others I 
might add.
    So Mr. Baird, thank you for holding this hearing, and thank 
you to our Chairman as well for holding this hearing today on 
nuclear energy R&D. After several decades of setbacks and 
inaction, a growing consensus is finally emerging in support of 
expanding the role of nuclear power in our Nation's energy 
portfolio. Electricity demand in the United States is expected 
to grow by 30 percent in the 25 years, and nuclear energy 
provides a safe, reliable, and cost-competitive source of base 
load power to meet this demand.
    While much of the nuclear revival revolves and involves 
around licensing and building more reactors, using existing 
light-water reactor technology, there are a host of longer-term 
activities that must also be pursued.
    First and foremost among those are dealing with the 
management of spent nuclear fuel, and number two, supporting 
R&D to facilitate advances and licensing of new reactor designs 
and to extend the life of the current reactors that we have in 
operation.
    With respect to waste management, I have been very clear, 
and I am speaking for Congressman Hall now but also for myself, 
about my objections to the Administration's attempt to shut 
down the Yucca Mountain Project, particularly given the 
cancellation was done without serious consideration of 
alternative options. You might say this--well, I will have my 
own comment later.
    The Federal Government is legally obligated to deal with 
this waste, and the current absence of a path forward threatens 
to jeopardize growing public support for expanding nuclear 
power while increasing taxpayer liabilities. This needs to be 
addressed as soon as possible.
    With respect to research and development, there are 
numerous advanced nuclear designs and technologies that hold 
promise to address the longer-term cost, safety, and security 
challenges facing the nuclear industry, and the 
Administration's R&D roadmap provides a useful outline of 
Federal efforts in this area.
    I support strengthening this R&D effort, and I am 
particularly interested in the potential of small modular 
reactors that are a focus of this hearing. I look forward--and 
this is Ranking Member Hall, I look forward to working with the 
Chairman, Mr. Gordon, as we consider crafting nuclear energy 
R&D legislation later this year, and I thank him for assembling 
this excellent panel of witnesses today. That is the statement 
from Mr. Hall.
    I would add a few thoughts of my own, and that is I believe 
that it has been an historic disservice to the American people 
that we have not used nuclear energy to the degree that we 
could have in these last few decades to provide the energy for 
the American people. By eliminating, by not moving forward on 
nuclear energy we have spent perhaps a trillion dollars 
overseas for oil and other energy sources that didn't need to 
be spent, and when one looks at the serious nature of our 
economy today, I think we can trace it back to this type of 
non-sensical policymaking in Washington. And let us remember 
that this is a result of a scare tactic that happened after 
Three Mile Island that frightened the American people away from 
this incredibly positive alternative that we had to sending all 
of our money overseas, and also it was not only--not only was 
it economically important to do that but it was also 
environmentally important.
    So I would like to make sure I am on the record as saying 
that, and also when we talk about Yucca Mountain and this type 
of activity, we have to be responsible rather than just do 
things by impulse. It appears to me, and it will be interesting 
to hear what our witnesses have to say, that Yucca Mountain, 
the closure of Yucca Mountain was on par with the closing of 
Guantanamo. No alternative, not well thought out, and perhaps 
with some consequences that were very negative in the long run.
    And finally, Mr. Hall, Ranking Member Hall, talked about 
the small modular nuclear plants. I would like to--I am anxious 
to hear from the witnesses what they have to say about the 
roadmap in the future; whether we are going to be relying on 
old technology. I mean, these water-cooled reactors seem to me 
to be things that are 50 years old, and I want to know why it 
is new technology even when especially we have alternatives 
like the gas turbine modular helium reactor, which--and the gas 
cool reactors, which do not rely on water, that are available 
to us today as an alternative. So I will be looking forward to 
hearing the witnesses who are going to give us their expert 
opinion, and thank you, Mr. Baird.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Mr. Chairman, thank you for holding this hearing today on nuclear 
energy R&D.
    After several decades of setbacks and inaction, a growing consensus 
is finally building in support of expanding the role of nuclear power 
in our Nation's energy portfolio. Electricity demand in the U.S. is 
expected to grow by 30 percent in the next 25 years, and nuclear energy 
provides a safe, reliable, and cost-competitive source of baseload 
power to meet this demand.
    While much of the ``nuclear revival'' involves licensing and 
building more reactors using existing light water reactor technology, 
there are a host of longer-term activities that must also be pursued. 
First and foremost among these are (1) dealing with the management of 
spent nuclear fuel, and (2) supporting R&D to facilitate advances and 
licensing of new reactor designs and to extend the life of the existing 
reactor fleet.
    With respect to waste management, I have been very clear about my 
objections to the Administration's attempts to shut down the Yucca 
Mountain Project, particularly given that the cancellation was done 
without serious consideration of alternative options. The Federal 
Government is legally obligated to deal with this waste, and the 
current absence of a path forward threatens to jeopardize growing 
public support for expanding nuclear power while increasing taxpayer 
liabilities. This needs to be addressed as soon as possible.
    With respect to research and development, there are numerous 
advanced nuclear designs and technologies that hold promise to address 
the longer-term cost, safety, and security challenges facing the 
nuclear industry, and the Administration's R&D Roadmap provides a 
useful outline of Federal efforts in this area. I support strengthening 
this R&D effort,
    and am particularly interested in advancing the potential of small, 
modular reactors that are a focus of this hearing.
    I look forward to working with the Chairman as we consider crafting 
nuclear energy R&D legislation later this year, and I thank him for 
assembling an excellent panel of witnesses today.
    I yield back the balance of my time.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Mr. Chairman, for holding today's hearing to assess the 
Department of Energy (DOE) Nuclear Energy Research and Development 
(R&D) Roadmap and the future of nuclear energy in the United States.
    Since coming to Congress, I have supported a sustainable energy 
policy that will provide American homes and businesses the power they 
need and reduce our dependence on foreign oil. Nuclear energy, which 
currently provides 20% of U.S. power and 49% of Illinois' power, will 
play a role in this policy as a domestic, clean energy source. However, 
DOE must first overcome a variety of R&D, safety, and investment 
barriers before nuclear plays a central role in our energy policy.
    President Obama's Fiscal Year 2011 budget requests $503 million for 
the Office of Nuclear Energy (NE), an increase of $37 million over FY 
10. This increased funding, in addition to $54.5 billion in loan 
guarantees for the construction of new reactors, demonstrates the 
administration's support for the expansion of nuclear power. However, 
the administration decided to eliminate funding for the Yucca Mountain 
nuclear waste storage facility while expanding R&D, leaving the U.S. 
without a central depository for nuclear waste. I would like to hear 
from our witnesses what steps are being taken to store nuclear waste 
now and what proposals are being considered for adapting our storage 
capability as more reactors come online.
    In addition, DOE's Nuclear Energy R&D Roadmap identifies roadblocks 
to an expansion of nuclear energy and develop means of overcoming them. 
I would like to hear from our witnesses what the timeline is for 
achieving these objectives and what role they see Congress playing in 
achieving those goals.
    If DOE achieves the objectives outlined in their roadmap, they may 
still face public opposition to the use of nuclear energy and, as we 
saw with Yucca Mountain, the storage of waste. I am interested if DOE 
or our witnesses have plans for overcoming this opposition and 
increasing the public's awareness and acceptance of nuclear energy.
    I welcome our witnesses, and I look forward to their testimony. 
Thank you, Mr. Chairman.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    I strongly believe that we must refocus our energy priorities to 
the production of alternative sources of energy, like solar power, that 
will not be harmful to our environment.
    Nuclear power generation also has the potential of generating 
electricity without increasing greenhouse gas emissions.
    Nuclear power is a critical electricity source in Arizona where we 
have the largest nuclear generation facility in the nation, the Palo 
Verde Nuclear Generating Station.
    Today we will discuss the Administration's strategy for research 
and development to advance clean and affordable nuclear technology.
    According to the Nuclear Regulatory Commission, there are 
commercial nuclear power reactors licensed to operate in 31 states. 
These reactors provide approximately 20 percent of our nation's 
electricity supply. Furthermore, according to the Department of 
Energy's Energy Information Agency (EIA) commercial nuclear reactors 
provide approximately 70 percent of the emissions-free energy in the 
U.S.
    However, as these nuclear power reactors continue to operate, spent 
nuclear fuel continues to accumulate without a clear strategy of how to 
store this waste.
    I look forward to hearing more from our witnesses on strategies for 
managing nuclear waste as well as how to enhance the safety and 
economic viability of nuclear power.
    At this time, I yield back.

    Mr. Baird. [Presiding] Thank you, Mr. Rohrabacher. I don't 
know if you have heard the rumor, but my understanding is they 
are moving the prisoners from Guantanamo into Yucca Mountain. 
So we are going to kill two birds with one stone.
    At this point I recognize Mr. Lujan, who will introduce our 
first witness.

                                Panel I:

    Mr. Lujan. Thank you very much, Mr. Chairman. It is my 
honor today to introduce Dr. Miller, who spent many years 
working in the district that I represent. A native of Chicago, 
Dr. Miller is a graduate of the U.S. Military Academy. He 
served in Vietnam, where he earned a U.S. Army Bronze Star, an 
accommodation medal. After his military service he received a 
Ph.D. in nuclear engineering from Northwestern University. 
After two years as a professor there, he began his career at 
Los Alamos National Laboratory in my district within New 
Mexico.
    Over the course of his 27-year career at Los Alamos, Dr. 
Miller held a variety of leadership positions, including 
Associate Laboratory Director for Energy Programs, as well as 
for Physics and Mathematics, where he supervised the work of 
over 2,000 scientists. Following his tenure at Los Alamos, Dr. 
Miller was a research professor in the Department of Nuclear 
Engineering and Associate Director of the Nuclear Security 
Science and Policy Institute at Texas A&M University. He was 
elected as a fellow of the American Nuclear Society in 1982, 
and to membership in the National Academy of Engineering in 
1986.
    Dr. Miller was nominated by President Barack Obama as the 
Assistant Secretary for Nuclear Energy in June of 2009, and 
confirmed by the Senate in August. As Assistant Secretary, Dr. 
Miller is responsible for all programs and activities of the 
Office of Nuclear Energy.
    Today he is here to discuss with us the DOE's Nuclear 
Energy R&D Roadmap. Thank you, Dr. Miller, for being here, and 
I look forward to your testimony.
    Thank you, again, Mr. Chairman.
    Mr. Baird. Thank you, Mr. Lujan. You have been a staunch, 
strong and effective advocate on behalf of Los Alamos and the 
labs there.
    Dr. Miller, we appreciate your presence and your service. 
It turns out my father actually went to Los Alamos Boys' 
School, and before he could graduate the government came in and 
said, kids, you are going to have to leave, we have got 
something else to do here. And so I know that beautiful 
country, and I appreciate your work.
    As you know, we have five minutes for your oral testimony. 
Your written testimony will be entered into the record as well, 
and that will be followed by questions. So thank you for your 
distinguished service and your presence today, and please 
begin.

STATEMENTS OF WARREN P. MILLER, ASSISTANT SECRETARY, OFFICE OF 
           NUCLEAR ENERGY, U.S. DEPARTMENT OF ENERGY

    Dr. Miller. Thank you very much. Thank you for the 
introduction, Congressman Lujan, and I do miss the Land of 
Enchantment, so say hello when you are back there.
    Chairman Baird, Ranking Member Rohrabacher, Members of the 
Committee, it is a pleasure to appear before you today to 
discuss the Office of Nuclear Energy's recently-released 
Nuclear Energy R&D Roadmap. Input from national laboratories, 
universities, and industry were used to develop this document, 
which we intend to guide the Department of Energy's nuclear 
energy activities in both the near term and the long term.
    Identifying the nuclear energy needs of the Nation and the 
appropriate roles for the Department of Energy, we developed 
four R&D objectives to guide our activities. One, develop 
technologies and other solutions that can improve the 
reliability, sustain the safety, and extend the life of the 
current fleet of reactors.
    Two, develop improvements in the affordability of new 
reactors to enable nuclear energy to help meet the Nation's 
energy security and climate change goals. Three, develop 
sustainable nuclear fuel cycles, and four understand and 
minimize the risks of nuclear proliferation and terrorism.
    In my written testimony I have described each of these R&D 
objectives in greater detail. Given my limited time this 
morning, I would like to focus on two new programs that we are 
proposing and their relation to the Roadmap; the Small Modular 
Reactor Program and the Modified Open Cycle Program.
    In the past few years there has been great interest in 
smaller modular reactors for several reasons. To identify just 
one, their lower capital costs makes them potentially 
attractive to smaller entities that have difficulty financing 
the larger reactors. Capacity could be added at a site unit by 
unit, allowing the income from early deployed units to help 
finance subsequent additions.
    For fiscal year 2011, we have proposed a new multiple year 
Small Modular Reactor Program that would include a cost-shared 
program element intended to accelerate the availability of 
SMRs. We intend to accomplish this by cost sharing design 
certifications for up to two LWR-based SMR designs. This 
directly supports our R&D objective number two, which is to 
improve the affordability of new reactors.
    We are holding a workshop on June 29 and 30, 2010, to 
inform stakeholders on the status of planning for this SMR 
Program and to engage the civil nuclear energy community in 
open discussions. What we hear from industry, academia, and the 
national labs will help us in developing criteria for program 
implementation.
    As I mentioned earlier R&D objective number three is to 
enable sustainable fuel cycles, which are defined to be those 
that improve uranium resource utilization, minimize waste 
generation, improve safety, and limit proliferation risks. The 
United States currently operates on a once-through strategy 
where used nuclear fuel is not recycled after leaving the 
reactors. There is still research to be done on the once-
through cycle to improve the efficient use of uranium resources 
and reduce the amount of used fuel produced, and we are 
pursuing this work.
    At the opposite end of the spectrum from once-through is 
the so-called ``full recycle'' or ``closed-cycle'' option, 
where the long-lived actinide elements in the used fuel would 
be repeatedly recycled. The intent is to dramatically increase 
uranium utilization to virtually 100 percent and greatly 
decrease the remaining long-lived radioactive waste burden.
    The federal government has pursued research in this 
direction in the past, and we will continue to do so. I think 
it is important to emphasize, however, that there is a whole 
range of potential options in between once-through and full 
recycle, and it is too early to settle on the optimum choice 
for the United States to pursue.
    Since dry-cask storage of used fuel has been deemed to be 
safe and secure for many decades, there is no need to rush the 
commercial scale deployment, and we have time to understand the 
options. In order to fully explore the options in between once-
through and full recycle, we have proposed a new R&D program 
called Modified Open Cycle. The research under this program 
will give future decision makers a full suite of options to 
select from when deciding the country's fuel cycle.
    Our research could yield game-changing approaches that will 
let us optimize reprocessing technologies in terms of resource 
utilization, proliferation resistance, waste management, and 
costs.
    For reasons of time I have singled out only two programs 
from our roadmap, but there are many other elements that 
together form a balanced R&D suite. Each research activity 
supports at least one R&D objective from the Roadmap. Both the 
strategic thinking in the Roadmap and the R&D programs we have 
proposed will guide the Office of Nuclear Energy for many years 
to come. They will help ensure that nuclear power remains a 
vital component of America's energy future.
    Thank you, Mr. Chairman, and I am pleased to take any 
questions.
    [The prepared statement of Dr. Miller follows:]
              Prepared Statement of Warren F. Miller, Jr.
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
thank you for the opportunity to appear before you today to discuss the 
Office of Nuclear Energy's R&D Roadmap. We have been working hard for a 
long time to produce a document that will guide the Department of 
Energy's nuclear energy activities for many years to come, and I think 
the resulting plan meets that criterion.
    Nuclear energy is a key component of a portfolio of technologies 
that can be used to help meet the nation's goals of energy security and 
greenhouse gas reductions. This roadmap will guide research, 
development, and demonstration activities to help ensure that nuclear 
energy remains a viable option for the United States.
    Our planning for developing the FY 2012 budget request will be 
informed by this report, and our proposed FY 2011 budget for the Office 
of Nuclear Energy is also consistent with the R&D objectives outlined 
in this roadmap. Earlier in the development process, we had been 
calling the objectives ``imperatives'', and in my December 15 testimony 
to the Senate Energy and Natural Resources Committee, I described five 
of them. We have since merged two of those areas of R&D into one (R&D 
Objective 2).
    There are several challenges to the increased use of nuclear 
energy:

        <bullet>  The capital cost of new large plants is high and can 
        challenge the ability of electric utilities to deploy new 
        nuclear power plants.

        <bullet>  The exemplary safety performance of the U.S. nuclear 
        industry over the past thirty years must be maintained by an 
        expanding reactor fleet.

        <bullet>  There is currently no integrated and permanent 
        solution to high-level nuclear waste management.

        <bullet>  International expansion of the use of nuclear energy 
        raises concerns about the proliferation of nuclear weapons 
        stemming from potential access to special nuclear materials and 
        technologies.

    The four R&D objectives outlined in the roadmap will address these 
challenges.

R&D OBJECTIVE 1: Develop technologies and other solutions that can 
                    improve the reliability, sustain the safety, and 
                    extend the life of current reactors

    The existing U.S. nuclear fleet has a remarkable safety and 
performance record, and today these reactors account for 70 percent of 
the low greenhouse gas (GHG)-emitting domestic electricity production. 
Extending the operating lifetimes of current plants beyond sixty years 
and, where possible, making further improvements in their productivity 
will generate near-term benefits. Industry has a significant financial 
incentive to extend the life of existing plants, and as such, R&D 
activities related to life extension of nuclear facilities will be cost 
shared. Federal R&D investments are appropriate to answer fundamental 
scientific questions and, where private investment is insufficient, to 
help make progress on broadly applicable technology issues that can 
generate public benefits. The DOE role in this R&D objective is to work 
in conjunction with industry and where appropriate the Nuclear 
Regulatory Commission (NRC) to support and conduct the long-term 
research needed to inform major component refurbishment and replacement 
strategies, performance enhancements, plant license extensions, and 
age-related regulatory oversight decisions. DOE will focus on aging 
phenomena and issues that require long-term research and are common to 
multiple reactor types.

R&D OBJECTIVE 2: Develop improvements in the affordability of new 
                    reactors to enable nuclear energy to help meet the 
                    Administration's energy security and climate change 
                    goals

    If nuclear energy is to be a strong component of the nation's 
future energy portfolio, barriers to the deployment of new nuclear 
plants must be overcome. Impediments to new plant deployment, even for 
those designs based on familiar light-water reactor (LWR) technology, 
include the substantial capital cost of new plants and the 
uncertainties in the time required to license and construct those 
plants. Although subject to their own barriers for deployment, more 
advanced plant designs, such as small modular reactors (SMRs) and high-
temperature reactors (HTRs), have characteristics that could make them 
more desirable than today's technology. SMRs, for example, have the 
potential to achieve lower proliferation risks and more simplified 
construction than other designs. The development of next-generation 
reactors could present lower capital costs and improved efficiencies. 
These reactors may be based upon new designs that take advantage of the 
advances in high performance computing while leveraging capabilities 
afforded by improved structural materials. Industry plays a substantial 
role in overcoming the barriers in this area. DOE provides support 
through R&D ranging from fundamental nuclear phenomena to the 
development of advanced fuels that could improve the economic and 
safety performance of these advanced reactors. Nuclear power can help 
reduce GHG emissions from electricity production and possibly in co-
generation by displacing fossil fuels in the generation of process heat 
for applications including refining and the production of fertilizers 
and other chemical products.

R&D OBJECTIVE 3: Develop Sustainable Nuclear Fuel Cycles

    Sustainable fuel cycle options are those that improve uranium 
resource utilization, maximize energy generation, minimize waste 
generation, improve safety, and limit proliferation risk. The key 
challenge is to develop a suite of options that will enable future 
decision makers to make informed choices about how best to manage the 
used fuel from reactors. The Administration has established the Blue 
Ribbon Commission on America's Nuclear Future to inform this waste-
management decision-making process. DOE will conduct R&D in this area 
to investigate technical challenges involved with three potential 
strategies for used fuel management:

        <bullet>  Once-Through--Develop fuels for use in reactors that 
        would increase the efficient use of uranium resources and 
        reduce the amount of used fuel requiring direct disposal for 
        each megawatt-hour (MWh) of electricity produced. Additionally, 
        evaluate the inclusion of non-uranium materials (e.g., thorium) 
        as reactor fuel options that may reduce the long-lived 
        radiotoxic elements in the used fuel that would go into a 
        repository.

        <bullet>  Modified Open Cycle--Investigate fuel forms and 
        reactors that would increase fuel resource utilization and 
        reduce the quantity of long-lived radiotoxic elements in the 
        used fuel to be disposed (per MWh), with limited separations 
        steps using technologies that substantially lower proliferation 
        risk.

        <bullet>  Full Recycling--Develop techniques that will enable 
        the long-lived actinide elements to be repeatedly recycled 
        rather than disposed. The ultimate goal is to develop a cost-
        effective and low proliferation risk approach that would 
        dramatically decrease the long-term danger posed by the waste, 
        reducing uncertainties associated with its disposal.

    DOE will work to develop the best approaches within each of these 
tracks to inform waste management strategies and decision making.

R&D OBJECTIVE 4: Understand and minimize the risks of nuclear 
                    proliferation and terrorism

    It is important to assure that the benefits of nuclear power can be 
obtained in a manner that limits nuclear proliferation and security 
risks. These risks include the related but distinctly separate 
possibilities that nations may attempt to use nuclear technologies in 
pursuit of a nuclear weapon and that terrorists might seek to steal 
material that could be used in a nuclear explosive device. Addressing 
these concerns requires an integrated approach that incorporates the 
simultaneous development of nuclear technologies, including safeguards 
and security technologies and systems, and the maintenance and 
strengthening of non-proliferation frameworks and protocols. 
Technological advances can only provide part of an effective response 
to proliferation risks, as institutional measures such as export 
controls and safeguards are also essential to addressing proliferation 
concerns. These activities must be informed by robust assessments 
developed for understanding, limiting, and managing the risks of 
nation-state proliferation and physical security for nuclear 
technologies. NE will focus on assessments required to inform choices 
for domestic fuel cycle technology. These analyses would complement 
those assessments performed by the National Nuclear Security 
Administration (NNSA) to evaluate nation state proliferation and the 
international nonproliferation regime. NE will work with other 
organizations including the NNSA, the Department of State, the NRC, and 
others in further defining, implementing and executing this integrated 
approach.

R&D Areas

    The Department expects to undertake R&D in a variety of areas to 
support its role in the objectives outlined above. Examples include:

        <bullet>  Structural materials

        <bullet>  Nuclear fuels

        <bullet>  Reactor systems

        <bullet>  Instrumentation and controls

        <bullet>  Power conversion systems

        <bullet>  Process heat transport systems

        <bullet>  Dry heat rejection

        <bullet>  Separations processes

        <bullet>  Waste forms

        <bullet>  Risk assessment methods

        <bullet>  Computational modeling and simulation

R&D Approach

    A goal-driven, science-based approach is essential to achieving the 
stated objectives while exploring new technologies and seeking 
transformational advances. This science-based approach combines theory, 
experimentation, and high-performance modeling and simulation to 
develop the fundamental understanding that will facilitate advancements 
in nuclear technologies. Advanced modeling and simulation tools will be 
used in conjunction with smaller-scale, phenomenon-specific experiments 
informed by theory to reduce the need for large, expensive integrated 
experiments. Insights gained by advanced modeling and simulation can 
lead to new theoretical understanding and, in turn, can improve models 
and experimental design. This R&D performed by NE must be informed by 
the basic research capabilities in the DOE Office of Science (SC).
    The Modeling and Simulation Hub led by NE, for which proposals are 
currently under review, will integrate existing nuclear energy modeling 
and simulation capabilities with relevant capabilities developed by the 
Office of Science, the NNSA, and others. Existing advanced modeling and 
simulation capabilities (e.g., computational fluid dynamics) will be 
applied through a new multi-physics computational capability to provide 
predictive capability for life extension and power uprates 
calculations. After five years, the Hub is intended to produce a multi-
physics computational environment that can be used by a wide range of 
practitioners to conduct predictive calculations of the performance of 
reactors in the future for both normal and off-normal conditions. The 
results will be used to communicate the potential role of science-based 
modeling and simulation to address technology issues concerning nuclear 
energy in the near, mid, and long terms.
    NE maintains access to a broad range of facilities to support its 
research activities. Hot cells and test reactors are at the top of the 
hierarchy, followed by smaller-scale radiological facilities, specialty 
engineering facilities, and small non-radiological laboratories. NE 
employs a multi-pronged approach to having these capabilities available 
when needed. The core capabilities rely on DOE-owned irradiation, 
examination, chemical processing and waste form development facilities. 
These are supplemented by university capabilities ranging from research 
reactors to materials science laboratories. In the course of conducting 
this science-based R&D, infrastructure needs will be evaluated and 
considered through the established planning and budget development 
processes.
    There is potential to leverage and amplify effective U.S. R&D 
through collaboration with other nations via multilateral and bilateral 
agreements, including the Generation IV International Forum. DOE is 
also a participant in Organization of Economic Cooperation and 
Development/Nuclear Energy Agency (OECD/NEA) and International Atomic 
Energy Agency (IAEA) initiatives that bear directly on the development 
and deployment of new reactor systems. In addition to these R&D 
activities, international interaction supported by NE and other 
government agencies will be essential in establishment of international 
norms and control regimes to address and mitigate proliferation 
concerns.

Conclusion

    Thank you, Mr. Chairman, that concludes my written testimony. I 
would be pleased to take any questions at this time.

                  Biography for Warren F. Miller, Jr.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Warren F. Miller was nominated by President Barack Obama as the 
Assistant Secretary for Nuclear Energy in June of 2009, and confirmed 
by the Senate in August. As Assistant Secretary, Dr. Miller is 
responsible for all programs and activities of the Office of Nuclear 
Energy.
    Before becoming Assistant Secretary, Dr. Miller was a Research 
Professor in the Department of Nuclear Engineering and Associate 
Director of the Nuclear Security Science and Policy Institute at Texas 
A&M University.
    A native of Chicago, Dr. Miller is a graduate of the U.S. Military 
Academy. He served in Vietnam where he earned a U.S. Army Bronze Star 
and a Commendation Medal.
    After his military service he received a Ph.D. in nuclear 
engineering from Northwestern University. After two years as an 
assistant professor there, he began his career at Los Alamos National 
Laboratory (LANL) in Los Alamos, New Mexico. His first research 
interest was in the area of Reactor and Transport Theory. Over the 
course of his 27-year career at LANL, Dr. Miller held a variety of 
leadership positions, including Associate Laboratory Director for 
Energy Programs, as well as for Physics and Mathematics. As Associate 
Lab Director, he supervised the work of 2000 scientists. He also served 
as Senior Research Advisor, with the responsibility of deciding which 
research projects to pursue, recruiting the talent to pursue them, and 
providing the facilities to enable success.
    Dr. Miller is the author of many research papers and journal 
articles, including, with a colleague, the book Computational Methods 
of Neutron Transport, published in 1984, which became a standard 
textbook for engineering students around the world.
    Dr. Miller was elected as a Fellow of the American Nuclear Society 
in 1982, and to membership in the National Academy of Engineering in 
1996.

                               Discussion

    Mr. Baird. Dr. Miller, thank you for your expert testimony, 
and again, for your service. I will now recognize myself for 
five minutes.

                              Cost Sharing

    In your testimony, Dr. Miller, you mentioned the cost 
sharing, and I am glad to hear that. I am very interested in 
SMRs. One of the questions I have, though, is it is my 
understanding, and I may be incorrect, that the cost sharing 
would be largely limited to NRC fees and might not be 
applicable to other parts of the design certification. Some of 
the folks I have contacted seem to believe that that is perhaps 
excessively restrictive, and they won't spend all that much 
money on the NRC fees, but there may be other things.
    Could you talk about that for a moment?
    Dr. Miller. Sure. Thank you for the question. So an example 
of a program that the Department of Energy did have in the last 
decade or so was the NP 2010 Program, which involved cost 
sharing much further than design certification. It went through 
engineering, it went through COLAs, Construction and Operating 
License Applications, and so it went further down the chain 
than is proposed in the President's budget for 2011.
    So there is a precedent for doing that. Let me say that the 
R&D Roadmap is, first, not just in the Nuclear Energy Office 
roadmap. It is an Administration roadmap. So it is coordinated 
through the interagencies, so it is our Administration's plan. 
Similarly as you know, that 2011 is the Administration's plan. 
And I am here to support the President's budget.
    Mr. Baird. Let me just for the record suggest that if the 
goal is to get these things underway a little faster than they 
might otherwise, and if we are setting aside I think it is 
roughly $38 million----
    Dr. Miller. Yes.
    Mr. Baird. --but only a small portion of that could be used 
for the fees, if we are prepared to spend the money and the 
goal is to accelerate development of these, maybe we ought to 
expand the possible uses for that money.

                       Creating an Export Market

    A second question. It is my understanding that our 
competitors, global competitors, are receiving substantial 
government subsidies for their efforts to expand nuclear power: 
France, Korea, Japan. That seems to tip the competitive market 
internationally against some of our producers, and I think one 
of our hopes would be that if we can produce a safe and 
effective and cost-effective system, especially in the SMRs, 
that might lead to export.
    But if we are on an unlevel competitive playing field 
financially, that could impede that development. Any thoughts 
about how we might address that, either by additional 
government support or WTO actions or other things to make sure 
that there is a fair playing field?
    Dr. Miller. Yes. This has been an issue related to nuclear 
energy almost from the beginning, that certain countries--in 
fact, I was in both countries that you mentioned, Japan and 
France, in the last few months--see a situation in which they 
view the world somewhat differently than we do in the sense 
that neither country has a large number of natural resources, 
energy resources, oil, coal, the rich things that the United 
States is blessed with. And so they see nuclear energy as a 
national security issue.
    And for those reasons the model they use is a model in 
which they invest, as you point out, government national 
resources in these entities to a much greater degree than we do 
in our country. Certainly we invest as well, and if they are 
more than willing to go much further down the chain of 
deployment, I think that it is certainly a debatable question 
of where in our system is the right place for government to end 
and industry to begin. I think it is debated a lot within the 
Administration. I am sure it will be debated a lot within the 
Congress, and other than that I can only say I support the 
President's budget.
    Mr. Baird. I think one of the issues there particularly as 
we look towards possible export, if we are going to compete 
globally, which would presumably give us some economies of 
scale, the whole premise I understand of SMRs is that you could 
not quite assembly line, but you could build them in a factory-
type setting, then transport them. If we are going to compete 
in that fashion, we may need more help both domestically and 
internationally just to try to level that playing field.
    So I would hope we would look at that.
    That will conclude my questions for the moment, and I will 
recognize Mr. Rohrabacher for five minutes.
    Mr. Rohrabacher. I am sorry. Mr. Chairman, with your 
permission we would like--Mr. Sensenbrenner actually has 
seniority to me.
    Mr. Baird. My apologies. Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. 
Welcome, Dr. Miller.
    Dr. Miller. Thank you, sir.

                Yucca Mountain Nuclear Waste Repository

    Mr. Sensenbrenner. I want to talk about Yucca Mountain. We 
have invested billions of dollars in Yucca Mountain, and it has 
been found to be safe, and now this Administration has taken 
that option off the table and wants to start from scratch.
    It has taken a long time to reach this point on Yucca 
Mountain, and the Department of Energy has given us no 
assurances that a new form of storage will be found within the 
next 30 years without more money being wasted.
    Now, I want to ask a question specifically about Secretary 
Chu's motion to withdraw the license application with 
prejudice, and does this mean that if this motion is granted, 
Yucca Mountain will never even be considered for the storage of 
nuclear waste?
    Dr. Miller. So----
    Mr. Sensenbrenner. All I need is a yes or no answer on 
that.
    Dr. Miller. Well, unfortunately, I don't know what the 
legal implication is with prejudice, but we can get back to 
you.
    Mr. Sensenbrenner. Legal--you know, I am a lawyer, you 
know. I haven't practiced recently, but the legal implication 
with prejudice means is that there can never be a license 
application submitted again----
    Dr. Miller. Uh-huh.
    Mr. Sensenbrenner. --for storing nuclear waste in Yucca 
Mountain. Now, you know, I want to know what justification 
there was made, file the application or dismiss the motion 
with--or the motion to dismiss the application with prejudice. 
So that means that we can never even consider Yucca Mountain in 
the future.
    Dr. Miller. Congressman, I understand the concern. Let me 
just say under advice from General Counsel, the Secretary made 
that decision. I can't--I don't have any other way to give 
you----
    Mr. Sensenbrenner. Okay.
    Dr. Miller. --anymore information on that.
    Mr. Sensenbrenner. Well, you know, a lawyer's ethical 
obligation is to attempt to minimize the financial exposure of 
his client, in this case the United States government to a 
decision that is made. Now, we have already spent about $10 
billion out of the $30 billion collected through the Nuclear 
Waste Fund, studying the site and preparing the application. 
And it is estimated that the Federal Government's liability is 
now about 12.3 billion and will grow annually by about a half a 
billion dollars.
    Aren't you a little concerned given that liability that 
your General Counsel isn't doing the right thing?
    Dr. Miller. Well, first of all, again, Congressman, I am 
going to have to give it to you the best I know. I am in NE, 
not in RW, so from the best I know, the liability is associated 
with taking title to the used fuel, not necessarily tied to the 
place that we place the used fuel. So it is not directly tied 
to Yucca Mountain. It is tied to taking title.
    Mr. Sensenbrenner. But if the Federal Government has no 
place to put it, you know, taking title means that we are going 
to have all this used fuel that the Federal Government owns and 
no place to put it, and that is where I see the liability is. 
And, you know, I have reached the conclusion that there is no 
economic justification to closing Yucca Mountain.
    Now, let me go into one other area. There was a letter that 
DOD sent on February 26 that directed that certain office 
civilian radioactive waste management activities, including 
data collection and performance confirmation activities at the 
Yucca Mountain site, will cease as of March 1. And 
specifically, the power communications system for all surface 
and sub-surface work and data processes will be shut down.
    Now, if the DOE rules against--or excuse me, the NRC rules 
against DOE's motion to dismiss with prejudice, does this 
hiatus in terms of collecting this data mean that even if you 
go and lose before the NRC, you can't put nuclear waste in 
Yucca Mountain because we don't have the data?
    Dr. Miller. I can't answer your question, Congressman. We 
will get back----
    Mr. Sensenbrenner. Well----
    Dr. Miller. --for the record.
    [Additional material submitted for the record follows:]
            Prepared Response of Assistant Secretary Miller
    No, as the Department explained in its April 23, 2010, response to 
the State of Washington's request to the United States Court of Appeals 
for the District of Columbia for a preliminary injunction, any hiatus 
in record collecting should not cause any harm if DOE were forced to 
continue the licensing process. First, large databases already exist 
for the three suspended data collection and performance confirmation 
activities (seismicity, precipitation, and tunnel deformation), and 
their suspension will not have a material effect on the understanding 
of the Yucca Mountain site. The National Academy of Sciences found that 
the period of geologic stability for Yucca Mountain is on the order of 
one million years, so one would not expect any sudden changes in 
seismicity, precipitation, or tunnel deformation. Second, even in the 
absence of active data collection by the Office of Civilian Radioactive 
Waste Management for seismicity and precipitation, other entities do 
monitor activities in the vicinity of Yucca Mountain and would indicate 
any change in seismicity or precipitation. For tunnel deformation, 
little to no change is expected; moreover, any deformation would be 
found only after the fact. In the past, the Office of Civilian 
Radioactive Waste Management has not done continuous data collection on 
tunnel deformation and, in fact, had periods of more than a year 
between successive measurements. Third, if ordered, restart of 
activities would be relatively simple with the resupplying of electric 
power.

    Mr. Sensenbrenner. --okay. Well, you know, let me say, sir, 
with all due respect, you know, this is an extremely arrogant 
motion on the part of the Department of Energy because it 
ignores the billions of dollars that Congress has appropriated, 
it does so unilaterally in a way that even if you lose before 
the Nuclear Regulatory Commission, the thing is so screwed up 
that you are not going to be able to deposit nuclear waste, and 
you have added, you know, a huge amount of liability, not to 
talk about the $10 billion that has been wasted simply because 
of something that was done by the Department of Energy.
    Now, the last question I have is did either the President 
or Secretary Chu promise Senator Reid that Yucca Mountain would 
be shut down?
    Dr. Miller. I do not know.
    Mr. Sensenbrenner. Okay. Well, maybe before making huge 
decisions like this that would end up costing the American 
taxpayer billions and billions of dollars, people who come and 
testify before Congress ought to know, and I thank the Chairman 
for the time.
    Mr. Baird. Mrs. Dahlkemper is recognized for five minutes.

                          Uranium and Thorium

    Mrs. Dahlkemper. Thank you, Mr. Chairman, and thank you, 
Dr. Miller. I appreciate you being here today.
    I want to ask you about the issue of the supply of uranium.
    Dr. Miller. Uh-huh.
    Mrs. Dahlkemper. There have been some issues raised in 
testimony before the Committee that the supply issue is 
something we need to discuss. So what are the most current 
estimates on how much uranium is available for nuclear 
reactors? And how long is it estimated that supply will 
reasonably be there for us to use?
    Dr. Miller. Uh-huh. So there are quite a few studies about 
the uranium resource, and most estimates would argue with 
reasonable projections of the growth nuclear energy throughout 
the world, that there is sufficient uranium resource at 
reasonable prices, meaning close to today's prices, that would 
last throughout the rest of this century.
    Now, there are lots of caveats on that. One is as resources 
become more difficult to extract, what tends to happen is 
technology develops to allow you to extract those, as the price 
goes up, and technology gets developed, and then you are able 
to extract from different types of mineral deposits, and the 
price starts going down, and so it is really hard to estimate 
these things.
    And one other thing I wanted to mention is the Japanese. 
While I was in Japan I got a chance to get a briefing on the 
Japanese research on uranium extraction from seawater, and 
their estimate is it is about three to five times more 
expensive than present extraction methodologies.
    If that could be reduced by quite a bit, then it is a whole 
new ballgame. Then you are really talking huge amounts of 
uranium. So it is a very difficult issue, but I don't think 
most of us believe uranium resources will stop the development 
of nuclear energy.
    Mrs. Dahlkemper. Can you maybe address--so you are saying 
there is really no concern with the supply, that the supply is 
there?
    Dr. Miller. I don't think----
    Mrs. Dahlkemper. --as the thirst for energy increases 
globally and we look at, obviously, more nuclear energy being 
produced not only here but across the globe?
    Dr. Miller. In addition, there is also the thorium 
possibility. Thorium is actually more prevalent in the crust 
than uranium is worldwide. There is also the possibility of 
breeder reactors that would use much more of the uranium as I 
mentioned before. It is--my personal opinion is that the 
uranium resource will not be a show-stopper for nuclear energy.
    Mrs. Dahlkemper. Thorium isn't currently used in any 
process.
    Dr. Miller. Thorium is only used in an experimental and a 
research way, but in theory it could be used for reactors, and 
I think the country that is leading the research effort is 
India actually, which has large amounts of thorium, and so they 
are very interested in it.
    Mrs. Dahlkemper. Can maybe you address the link with the 
supply issue, if there is none, or if there is, with the need 
to reprocess, and where you see that as maybe extending even 
further the life of using uranium?
    Dr. Miller. Yes.
    Mrs. Dahlkemper. With the current, available technology 
obviously.
    Dr. Miller. Yes. Presently the once-through fuel cycle that 
is used largely, well, it is not used exclusively worldwide, 
the uranium utilization is only .6 percent. So that means of 
the uranium that is mined, we actually fission about .6 percent 
because in the enrichment process we have all these tails left 
in the enrichment process, and then the used fuel has all this 
uranium left in the used fuel.
    And so maybe the price of uranium or the resource isn't a 
driver that much, but what is, is there is a certain 
environmental stewardship responsibility that if we have a 
natural resource and we are using .6 percent, throwing the rest 
of it away, that doesn't fit well in our own view of what is 
responsible. So increasing uranium utilization makes a lot of 
sense from that point of view.
    The second point of view that makes a lot of sense is the 
backend of the fuel cycle. The amount of energy we can get out 
of a per unit of waste created, you know, has an impact on how 
many repositories we need to how much repository capacity we 
need as a country over the next 50 to 100 years.
    So it makes a lot of sense to increase uranium utilization, 
even if the price of uranium is low.
    Mrs. Dahlkemper. Thank you. My time is up. I yield back.
    Mr. Baird. Mr. Rohrabacher.

                  Water-Cooled vs. Gas-Cooled Reactors

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Just 
one or two thoughts before I ask the witness some questions.
    Let us just again note that it was hysteria that was 
created over an incident at Three Mile Island decades ago that 
caused great harm to our country's economy, and let me not that 
from my reading that the only people who lost their lives due 
to Three Mile Island were coalminers who now we had to rely on 
coal rather than safer nuclear energy and those people who 
perhaps have contracted diseases from air pollution using coal 
as a means of energy production rather than nuclear energy, 
which would have given us clean skies and clean air.
    So it is important when we start making policy not to be 
basing it on hysteria and to be very steely-eyed about these 
decisions that we have to make.
    I might ask you this, but we do know that technology has 
made great leaps, and the potential technology since Three Mile 
Island, Three Mile Island was a water-cooled reactor, and 
almost all--I believe all the reactors we have in the United 
States currently are water-cooled reactors.
    Now, what you have in mind and what we are trying to move 
forward, would water-cooled reactors be, still be the focus, or 
are we moving onto gas-cooled reactors?
    Dr. Miller. Some of the small modular reactor ideas don't 
require water cooling, which would be excellent in many ways, 
not the least of which that it helps with siting if you don't 
have to worry about water cooling.
    In addition, the High-Temperature Gas Reactor Program, the 
flagship of which would be NGNP, is a helium-gas-cooled 
reactor. That allows you to go to much higher temperature and 
therefore, a higher efficiency for electricity production as 
well as potentially using that heat as a heat source for 
industrial processes.
    So----
    Mr. Rohrabacher. Uh-huh.
    Dr. Miller. --and then some of the advanced small modular 
reactors look at liquid-metal cooling, sodium cooling. So, yes, 
the business is moving in other directions.
    Mr. Rohrabacher. I think it is vitally important that 
leaders like yourself insist that we move forward with new 
technology, newer concepts like the one you are outlining right 
now. There is a weakness in our system, and the weakness in our 
system is that people who make money make money from what they 
have right now.
    Dr. Miller. Yeah. Right.
    Mr. Rohrabacher. And they will fight change in order to 
make money from what they already have in their hands. So it is 
up to us to overcome that flaw in the capitalist system.
    And I think your point about only utilizing .6 percent of 
the actual power that you can get from uranium, our current 
systems only get--so it is less than one percent effectiveness, 
and I do understand that the new helium reactors that you are 
referring to actually have the potential of bringing that way 
up, if not making it almost 100 percent effective in terms of 
utilizing that potential.
    Dr. Miller. Well, that would require changing the fuel 
cycle, not just the reactor design. You would have to do 
something with the used fuel to get that much uranium 
utilization out. You would have to reprocess or recycle----
    Mr. Rohrabacher. Uh-huh.
    Dr. Miller. --to increase it much beyond .6 even if you 
change the reactor design.
    Mr. Rohrabacher. Have you seen at all the General Atomics? 
They are, by the way, they are not in my district just for the 
record. General Atomics has this gas turbine modular helium 
reactor, which they believe will be very cost effective and be 
accomplishing the things you are talking about.
    Dr. Miller. General Atomic has discussed with us their 
advanced reactor called EM2, but I have not talked with them 
about the reactor design you are referring to.
    Mr. Rohrabacher. Uh-huh. I would suggest that that would be 
something that would be very beneficial to take a look at their 
option.
    Dr. Miller. Uh-huh.
    Mr. Rohrabacher. I believe--does this mean my time----
    Mr. Baird. The clock has blacked out.
    Mr. Rohrabacher. The clock has blacked--does that mean I 
have unlimited time?
    Mr. Baird. Heaven forbid.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Mr. Baird. Thank you, Mr. Rohrabacher.
    Mr. Lujan is recognized.

                   Specific Issues in the DOE Roadmap

    Mr. Lujan. Thank you very much, Mr. Chairman, and Dr. 
Miller, I am just going to jump right into it as well. I think 
that there has been a lot of conversation in some areas of 
interest to myself as well, namely around the reprocessing and 
recycling aspect of what we are talking about, and the report 
outlines it in a few areas. I will just point to the page 
numbers quickly.
    Page 22 is where it talks about R&D topics for enabling new 
builds. My question along that line, Dr. Miller, and I am just 
going to put a few out there and that way you can touch on 
them, is we talk about new builds. Shouldn't we be talking 
about the closed cycle associated with new builds incorporating 
the aspects of the recycling so that it is on location in the 
same position, eliminating the need for even transportation of 
any of the spent fuel so that way it is able to be integrated 
into the system there? It is something we should consider, 
including on page 30 of the report as we talk about the major 
challenges associated with fuel cycle options.
    The bottom of page 30, top of page 31 talks about the fuel 
cycle and the end of that reads, ``In order for a fuel cycle 
strategy to be considered, the waste benefits and improved 
resource utilization produced by such a system must outweigh 
the complication, expense, and potential proliferation concerns 
associated with it.''
    And I would pose, isn't that true already today with what 
other nations are doing as a result of the accords put forth 
under President Carter, with what we have seen with other 
nations move forward with recycling and reprocessing?
    On page 31 we continue to talk about the R&D for 
sustainable fuel cycle options, ending with the transportation 
systems, which is reprocessing, recycling, and that ends with 
``R&D would focus on broadly-applicable issues, including areas 
such as materials and energy conversion. In addition, studies 
may be conducted to review the technical and economic aspects 
of external neutron, source-driven transportation systems to 
inform whether future investigation on this approach is 
warranted.''
    So, again, do you have the budget you need for R&D to move 
forward with recycling programs under the conditions you have? 
You know, with the billions spent on Yucca, had that been used 
for recycling, would we already have the answer today? I think 
that is a fair question that needs to be asked.
    Lastly, on page 34, under the R&D objective ``understanding 
and minimizing the risks of nuclear proliferation and 
terrorism,'' it says, ``The final R&D objective,'' and I hope 
that they are not ranked in priority. I would hope that this 
would be the primary objective of what we are talking about 
here, which talks about, ``achieving economic public health and 
safety and environmental goals which are critically 
important.''
    And lastly, Dr. Miller, I am only going to give you about 
two minutes to respond. I apologize, but anything that we might 
be able to get submitted into the record for review later would 
be important. I would hope as I looked through the report, one 
thing that I did not see is the importance of uranium legacy 
abandon mine cleanup that we have around the country. I know 
there is this whole discussion as to whether it was for weapons 
or if it was for energy. Whatever the uranium was mined for 
originally, there are still problems across the country, namely 
in New Mexico with the Navajo Nation, of some areas that need 
to be cleaned up, and I would hope that that could be part of 
the order and some serious consideration that we could have 
going forward, because there are some serious health issues 
that need to be addressed and people have been impacted.
    So any of that, Dr. Miller, in a minute and a half, 
whatever you can give us I would appreciate it. Then we will 
yield back to the Chairman as time expires.
    Dr. Miller. Thank you very much, Congressman. Thank you for 
your attention to detail as you read our report.
    So, first, let me say that security and proliferation risk 
is not meant to be the last, you know, the least important 
thing. They are just listed in no particular ranked order. So 
that is that question.
    The budget. In I think fiscal year 1999, the nuclear energy 
R&D budget was zero in DOE, and it has gradually over the last 
20 years or so, well, ten years, 1999, yeah, ten years or so, 
it has come up to a reasonable level and counting the 
infrastructure support for Idaho National Laboratory and other 
places, it is $900 million.
    Now, I feel that we are going to have to make choices. We 
are going to have to establish priorities as we move forward, 
and so part of our plan is to do down selects, and we are going 
to have to explore a wide range and then say, look, these are 
the most promising. We can't pursue those. We have to make 
choices of what we are going to be able to do within that 
framework of that budget.
    Mr. Lujan. Thank you, Dr. Miller, and as time has expired, 
I look forward to further conversations on this.
    Mr. Chairman, I would just close with saying that I think 
it is important that as we look at what is being talked about 
with energy generation, that there is a waste issue that needs 
to be addressed as well, and I certainly hope that we can use 
the brightest minds that we have in the world right here in 
this great Nation of ours to solve this problem. When the 
Manhattan Project was moving forward, they did this in a short 
period of time at the direction of Congress, support from the 
President, and they made something happen, some things that 
still are a concern to many of us, but nonetheless, made 
something happen. I think this is an area as well with the 
direction and support from Congress that we could see some 
action in this area.
    Thank you.
    Mr. Baird. Living down river from Hanford Nuclear 
Reservation I share that concern.
    Mr. Smith.

                         More on Uranium Supply

    Mr. Smith of Nebraska. Thank you, Mr. Chairman, and thank 
you, Dr. Miller.
    I was wondering if you could help paint a picture of our 
uranium supply, some numbers, import, export, how we are doing 
in that area.
    Dr. Miller. Okay. So uranium supply from everything I have 
read about estimates of resources are sufficient to supply 
nuclear power in the world, especially if one assumes uranium 
is a commodity to be bought and sold in the free market. I only 
say that, as I mentioned earlier, there are some countries that 
view uranium as a national security issue, that if we don't 
have uranium in our borders, then we have to do something about 
that.
    And that is certainly true, well, I won't mention the 
particular countries, but that is true of some countries. In 
our country we view it as a commodity to be bought and sold on 
the free market.
    And right now uranium is selling reasonably, for reasonably 
low level, about $40 per pound of U308. I think that what 
happens is when easily-mined uranium starts getting scarce, the 
price goes up, and then we develop new technologies to look at 
new ore bodies and then the price starts to come down again.
    So I don't believe uranium supply is an issue.
    Mr. Smith of Nebraska. What percent do we import?
    Dr. Miller. I don't have that number with me. I will have 
to get it to you. I don't know.
    [Additional material submitted for the record follows:]
            Prepared Response of Assistant Secretary Miller
    According to the most recent edition of the Energy Information 
Administration's ``Uranium Annual Marketing Report,'' which was 
published in 2008, the United States imported 92 percent of its 
commercial uranium requirements in 2007 and 86 percent in 2008.

    Mr. Smith of Nebraska. Do you have any concerns about how 
reliant we are perhaps on importing uranium?
    Dr. Miller. It is my understanding that the uranium that we 
import comes from countries like Canada and Australia, which 
are countries that we generally don't have national security or 
supply security problems with, and we also have our own uranium 
resource here in the United States. And we have a lot of 
uranium in reserve. As a matter of fact, in the form of 
depleted uranium.
    So I guess I don't feel concerned about uranium supply.
    Mr. Smith of Nebraska. Okay. Thank you. I do want to just 
add that I am encouraged by some of the advancements 
politically, unfortunately, of nuclear power and the advocacy. 
I am still concerned, though, that there are too many politics 
involved with some of these issues. So I hope that you can work 
with us to move forward on nuclear power and the opportunity to 
build our energy supply so we can create jobs and more 
opportunity for Americans.
    Thank you, Mr. Chairman.
    Dr. Miller. Thank you.
    Mr. Baird. Ms. Kosmas.

                     Information on Full Recycling

    Ms. Kosmas. Thank you very much, and thank you for being 
here.
    Like the others, I have mixed feelings obviously, but 
mostly I look forward to what I know we can do well in this 
country, which is to take advantage of the scientific knowledge 
that we have to produce energy through nuclear opportunities.
    What my concern is, with my limited amount of scientific 
knowledge, of course, relates back to the sustainable fuel 
cycles that you referred to, and specifically you talked about 
the options that range between once-through and full recycling 
and how many different ways you might be able to accomplish the 
goal.
    I guess my questions would go to the full recycling 
specifically. Is it being done anywhere in the world, and if 
so, do we have access to that knowledge, and if not, how far 
along would you say we are in the development of an opportunity 
to repeatedly recycle, rather than dispose of the product?
    Dr. Miller. So the first question is anyone actually 
implementing full recycle. I think it is fair to say that there 
are two major countries that have decided full recycle is part 
of their policy, but they haven't fully implemented it because 
they don't have a commercial fast reactor yet, which is key to 
having and implementing a full recycle. But those countries, 
which are Japan and France, hope to and plan to implement 
commercial scale fast reactors. So I would say that no country 
has implemented it, but several countries have planned to 
implement it and are on the way to implementing it.
    So then the second question is would we have access. I 
think for sure if--and I should have mentioned earlier that 
part of our plan is clearly to take into consideration and look 
very carefully at the recommendations of the Blue Ribbon 
Commission that is going to help us decide what to do with the 
back-into-the-fuel cycle. But if this country decided that its 
direct or its path forward is full recycle, I don't think there 
is any question we know how to rebuild a reprocessing plant 
using the PUREX approach used by France and Japan.
    The problem is we have not accepted that approach based 
upon the principle of proliferation because it has a step in 
which plutonium is bare and could be diverted. So we could do 
it in our country if we so decided to do it. I don't see any 
question about that.
    Ms. Kosmas. So there is a risk involved then in making the 
decision to move forward and the Blue Ribbon Commission is 
expected to weigh that risk against the gain and make some 
recommendations, policy recommendations in that regard?
    Dr. Miller. Yes. I can't speak for precisely how the Blue 
Ribbon Commission is going to take its charter and what it is 
going to say, but I will say from our point of view in DOE a 
realistic R&D plan includes trying to reduce proliferation risk 
of the full recycle and reduce costs and reduce environmental 
burden of that approach, but we have not rejected an option of 
doing full recycle.
    Ms. Kosmas. Okay. If it were decided to move in that 
direction, would you have any projection of either time or 
resources necessary to make that happen?
    Dr. Miller. So in our plan what we would attempt to do is 
to go beyond the PUREX approach, look at other approaches, one 
of which has made a lot of progress called pyroprocessing, but 
there are other kinds of approaches that we would look at. And 
we would attempt again to come up with ways that are improved, 
and I would say that we could implement it certainly over the 
next, let us say, 20 to 30 years. We could certainly implement 
full recycle if we decided to do it now.
    Ms. Kosmas. And the costs generally?
    Dr. Miller. Most cost estimates would say that full recycle 
is considerably more expensive than once-through. Having said 
that, it is hard to take into account how many repositories we 
would need and what the cost of repositories would be. If you 
implemented full recycle, the hope would be you would need many 
fewer geologic repositories.
    So there needs to be system studies that we are carrying 
out that compare these things with what we call modified open 
cycle that tries to take into account the cost, the waste 
burden, the proliferation risk, all of these things to make 
suggestions as to what the Nation ought to do in its future 
decisions.
    Ms. Kosmas. Okay. Thank you very much.
    I yield back.
    Mr. Baird. Ms. Biggert.

                         Small Modular Reactors

    Ms. Biggert. Thank you, Mr. Chairman, Dr. Miller.
    When I first came to Congress, we were looking at the 
electrometal allergical process and it was at Argonne National 
Lab, and the first year that I was here the program was cut by 
$20 million, so I felt like I had the 800-pound gorilla on my 
back and got the funding back. And we have been moving since 
then. We have had--in 2005, I think we wanted the systems 
analysis, the reprocessing. We have six reprocessing plants in 
this country that were shut down before they even opened, and, 
you know, they are now used for storage in the most part.
    It is very frustrating that we haven't moved with the 
recycling as fast as I think we should, and you are talking 
about another 20, 30 years. I mean, that really is 
discouraging. Maybe with some of the modeling and things we 
will be able to move a lot faster and at lesser expense. I am 
sorry I can't be here for all of this because I have a markup, 
but I did want to ask you about small modulars and as we heard 
from you, or as I was told in your exchange with Mr. 
Rohrabacher, there are several types of small modular 
technologies out there in the market, and all of them different 
designs, and each have various production capacities outside 
the range defined in the Atomic Energy Act either because some 
designs are smaller than the 100 megawatts and--or larger than 
300 megawatts.
    At this early stage of development do you believe that more 
study should be given to the production capacity of smaller 
modular reactors and if that capacity limit needs to be 
adjusted to reflect the diversity of technology in the market?
    Dr. Miller. Certainly I believe we ought to look at what 
the market penetration could be for small modular reactors, and 
I am sure my colleagues in the private sector who are 
advocating certain designs have looked very carefully at the 
business case associated with it. Now, they haven't shared--
some of that is probably proprietary information, they haven't 
shared it with us, but I think it is certainly appropriate as 
we begin our SMR Program. Hopefully if it gets funded in fiscal 
year 2011, that we also with our systems people within the 
national laboratories will take a look at what the issues are 
related to market penetration.

                  Modeling and Simulation of Reactors

    Ms. Biggert. Well, you have noted in your testimony that 
the Department is increasingly using modeling and simulation to 
predict reactor performance and assess new technologies. How 
will this effort leverage or complement actual experimentation, 
and how might it reduce or eliminate the need for expensive 
demonstration or otherwise assist the NRC's licensing process?
    Dr. Miller. Uh-huh. So there are a couple of comments I 
could make. We have the most progress I think in fuels designs, 
in modeling the performance of fuels, and I think we have the 
promise of being able to significantly accelerate the amount of 
time it takes to develop a new fuel.
    I mean, new fuels are really important. If you get more 
burn-up for existing reactors, for fresh fuel, the more burn-up 
you get, the better off you are from the point of view of the 
uranium utilization efficiency. A whole bunch of reasons this 
is a good thing to do.
    And I think we have done a really good job of understanding 
with high performance computing how these fuels operate, and I 
think it is going to really help us in the future. And there 
are other examples that relate to the Modeling and Simulation 
Hub that was funded in fiscal year '10, that we hope to soon 
announce a winner for. There we would do a full reactor design 
with advanced modeling tools that would be validated with 
experiment.
    So I think we are really moving out in the computational 
arena, and it is quite heartening to me to see it happen.
    Ms. Biggert. All right. Thank you. I yield back.
    Mr. Baird. Mr. Davis.

                            General Comments

    Mr. Davis. Mr. Chairman, thank you very much and certainly, 
Dr. Miller, thank you for being here today as well and giving 
the testimony you have and taking questions from those of us 
who serve unique Congressional districts, very similar yet 
somewhat very different in the different areas of the country 
that we serve. And I live in an area that--Tennessee Valley 
Authority, the TVA was established in the '30s, so provides the 
generation of electricity so that folks who live in my district 
are able to flip a switch and have a certainty that that light 
bulb is going to come on, unless the filament is shot and so 
they have to replace that from time to time.
    The Atomic Energy Commission from the '40s and '50s and 
'60s, '70s basically was the agency that oversaw the 
development of nuclear energy. Obviously weapons was the main 
thrust of the Manhattan Project, and then we started moving 
more and more toward energy from nuclear sources.
    Through the '70s we actually licensed close to 100 nuclear 
reactors that were built from '75, basically to '85, that 
provides today roughly 20 percent of the energy that is 
produced, electricity produced in this country.
    Three Mile Island did change things in the minds, in our 
commitment and our focus to becoming more and more energy 
independent. I think nuclear energy took the brunt of that, and 
it suddenly became Chernobyl in the minds of a lot of folks. 
That never happened at Three Mile Island. The reactor acted as 
it should, it shut down. The other reactor that was onsite, I 
understand, continued to produce electricity for folks to use.
    And so we have had 30 years, 25 to 30 years of a flare of 
nuclear energy. We suddenly realized that when you drive by 
places like Kingston, Tennessee, and you see in Ashville that 
there are difficulties with other types of generating 
electricity as well. I am excited about this Administration and 
the commitment that has been focused on again looking at 
nuclear energy as a viable source for us to become more energy 
independent, and for me that does two things. It gives us 
economic security, and it gives us national security that we 
don't have today as a result of our dependence on foreign 
sources, and in many cases, foreign sources for carbon-based 
fuels.
    So I encourage you and this Administration and others and 
Members of Congress to take a serious look at nuclear energy as 
being that bridge that puts us into the area of economic 
security and a stronger national security.

                           Licensing for SMRs

    The question I have to you: I am hearing a lot about the 
small nuclear reactors that might be 1,200 megawatts, 125 
megawatts. They will be easy to located, they can be basically 
the size of a box car. They can be moved from the place where 
they are being built, but it also does something else. It 
creates jobs in America. I don't think there is any country in 
the world that if they are talking about a nuclear reactor, if 
they had the choice to buy it from America, they wouldn't buy 
it from us.
    So we have to move more rapidly in that direction. I hear 
folks say it might take 15 or 20 years to get a small nuclear 
reactor approved and licensed. We can't wait that long. So how 
do we expedite the licensing requirements to be sure that we 
have a safe small nuclear reactor that we can use in our Nation 
and export to other countries throughout the world? How do we 
expedite that?
    Dr. Miller. Okay. Thank you, Congressman. So let me begin 
by saying I sure hope it doesn't take 15 or 20 years. So we in 
our fiscal year 2011 budget have a program, half of which, $20 
million, is directed toward LWR SMRs, and there the approach we 
have taken is to do a cost share with industry up to two plants 
and up to design certification.
    Now, as I said in my opening comments, we are going to have 
a workshop in June at which we are going to hear from our 
industry colleagues, and I am sure if I would guess correctly, 
I am sure they will tell me that that is not enough, that we 
should do more.
    Certainly we will listen to that. We will certainly take it 
back, but at this point as I have had to say several times, I 
support the President's budget.
    Mr. Davis. We have national labs all across this Nation; 
one is in Oak Ridge. Wouldn't it be a responsible move for this 
Nation on the facilities that we occupy today to actually build 
a small nuclear reactor and let that be the source of energy 
that we use at our national labs or our reservations?
    Dr. Miller. There are several exciting ideas, Congressman, 
out there of how one might--or ideas of bringing together the 
right companies like, for example, TVA and B&W, to bring a 
consortium together to do just as you have described. There are 
ideas of doing a similar thing in Washington near the Hanford 
Reservation. There are ideas within the Department of Defense 
of using small modular reactors for base power.
    So I think all of these are interesting ideas. We encourage 
this discussion, we encourage--they have actually been in to 
see us. We have been encouraging. In fact, Secretary Chu, I 
think, was briefed on the ideas in Tennessee when he was there.
    So I think we should move forward with these ideas. It is 
not clear yet to us what is the government role, what the 
Federal Government role is, but certainly we are encouraging.
    Mr. Davis. I think it is time to fish. We have been cutting 
bait long enough. Let us move forward with it.
    Mr. Baird. Thank you. I have just one--we want to make sure 
we have time for the next panel. I have just one question, and 
that has to do with the economics of nuclear power.

                          Cost Competitiveness

    There has been a lot said about it was Three Mile Island or 
Chernobyl that caused the decline in nuclear power. Coming from 
a state that had the public power supply system----
    Dr. Miller. Uh-huh.
    Mr. Baird. --it did not fail because of those accidents. It 
failed because of the financing and the largest public bond 
default in history of the country at that time, because nuclear 
power simply was not cost competitive.
    Dr. Miller. Yeah.
    Mr. Baird. My understanding is even now, even as we look at 
the light water reactors, their cost competitiveness relative 
to say coal depends fairly significantly on a price on carbon. 
Is that your understanding, Dr. Miller?
    Dr. Miller. So first of all, let me say that we are 
proposing $54 billion worth of loan guarantees to try to help 
the first movers get going and get them out there, but 
eventually they have got to stand on their own. The Federal 
Government can't loan guarantee forever.
    So if, in fact, we are competing in an environment in which 
there is not a level playing field. If we are doing standards, 
renewable standards, we are doing things that are encouraging 
the application and the commercialization of certain resources, 
and there is no price on carbon, and we can't get to the point 
of coming up with a business model like small modular reactors, 
and gas is $4 a million BTU, I think it is going to be a tough 
sled for these reactors to make it.
    Mr. Baird. I appreciate that. I raise it because it is 
fairly common on this committee and maybe in the public 
discourse that the greatest proponents of nuclear power are 
also opponents of a carbon tax, and my understanding from the 
MacKenzie curves and elsewhere is that map doesn't pencil out. 
If you have a carbon tax, it makes nuclear power much more 
attractive, and I think that is a reasonable approach because 
there is a cost of carbon, and nuclear power may actually 
reduce that.
    Any other colleagues, further questions before we move to 
our next panel?
    Mr. Rohrabacher. I will refrain from refuting that last 
statement.
    Mr. Baird. I appreciate that, Mr. Rohrabacher.
    With that, Dr. Miller, thank you, again, for your service 
and your testimony. We will proceed immediately to seat the 
next panel, take just a brief moment for the staff to set up 
their name tags, et cetera, and we will move with alacrity 
here.

                               Panel II:

    I want to welcome our second panel of witnesses. I will 
briefly introduce them, and I understand Mr. Lipinski will 
introduce our final witness.
    It is my pleasure to introduce Christofer Mowry, President 
and CEO of Babcock & Wilcox Nuclear Energy Incorporated, Dr. 
Charles Ferguson, President of the Federation of American 
Scientists, Dr. Mark Peters, Deputy Director for Programs at 
Argonne Lab, Mr. Gary Krellenstein is a Managing Director of 
Tax Exempt Capital Markets of JP Morgan and Chase, and I will 
yield to my colleague from Illinois, Dr. Lipinski, to introduce 
our last witness.
    Mr. Lipinski. Thank you, Chairman Baird.
    Dr. Thomas Sanders is the current President of American 
Nuclear Society, which is headquartered in La Grange, which is 
in my district. The ANS is a preeminent nuclear professional 
society representing about 11,000 members from the private 
sector, national labs, and universities. Dr. Sanders has a 
Ph.D. in nuclear engineering, is a licensed reactor operator, 
and a qualified electrician. He knows just about every aspect 
of the industry from personal experience, having served in the 
Navy on two nuclear submarines and as a researcher at the 
University of Texas and Sandia National Lab. In his role as ANS 
President, as Chairman of the Trade Promotion Coordinating 
Committee, of the Civil Nuclear Trade Advisory Committee, Dr. 
Thomas has been a leading advocate of rebuilding our domestic 
nuclear manufacturing base and has been an outspoken critic of 
our current dependence on imports.
    I am delighted to welcome him to this hearing and look 
forward to his testimony.
    Mr. Baird. Thank you, Dr. Lipinski. As we mentioned in the 
prior testimony, you will have five minutes for your spoken 
testimony, however, we are not operating atomic clocks here and 
our digital system seems to be going on the fritz. So if we get 
around five minutes, I will let you know, but you should have--
somewhere up there you have got some red light, green light, et 
cetera. When the yellow light comes on, you are running out of 
time. When the red light comes on, a trap door appears below 
you, you disappear, and we move to the next witness.
    So at this point, Mr. Mowry, please begin and thanks to all 
of you for your expertise and your presence here.

 STATEMENTS OF CHRISTOFER MOWRY, PRESIDENT AND CEO, BABCOCK & 
                  WILCOX NUCLEAR ENERGY, INC.

    Mr. Mowry. Well, Mr. Chairman and Members of Congress, my 
name is Chris Mowry, and I am the President of B&W Nuclear 
Energy, Division of the Babcock & Wilcox Company. I ask that my 
written statement be entered into the Committee record.
    I am honored to be part of this hearing to discuss modular 
reactors, and I applaud the DOE for supporting SMR development 
in their Nuclear Energy R&D Roadmap.
    The Babcock & Wilcox Company has a rich legacy of 
innovating energy solutions. We have more than 50 years of 
continuous nuclear engineering and manufacturing expertise. 
Today B&W provides both industry and government customers with 
nuclear manufacturing and services from more than 17 locations 
across North America. We employ directly and through our joint 
venture companies approximately 12,000 nuclear professionals.
    The DOE's Roadmap stresses the need to deploy clean, 
affordable, domestic energy quickly to achieve energy security 
and reduce emissions and cites capital costs as a significant 
challenge to deploying new nuclear plants. These issues are 
central to industry's motivation to develop SMRs as a 
compliment to large gigawatt-sized reactors. Industry sees 
values in a more incremental approach to project financing and 
low growth.
    Our utilities want a smaller reactor that uses proven 
technology, existing nuclear infrastructure, and conventional 
nuclear fuel, and they want this option near-term.
    The B&W mPower reactor is a scalable modular light water 
reactor which can be deployed within today's regulatory 
framework, domestic supply chain, and utility infrastructure. 
It provides capacity in 125 megawatt increments. It has a four 
and a half year operating cycle between refueling. It will be 
manufactured in North American at B&W facilities, and it has a 
secure underground containment with a spent fuel pool to 
securely store spent fuel for the life of the reactor. The 
plant is also air cooled to address water resource concerns.
    The B&W mPower reactor is intended to be a competitive 
source of power generation. Our current analysis of the 
levelized cost of electricity indicates that the economics 
range from 47 to $95 a megawatt hour. This range is competitive 
with new fossil generation and renewable power alternatives, 
even without a carbon tax.
    We plan to submit our design for certification to the NRC 
in 2012 and have joined in an industry consortium, including 
among others, the Tennessee Valley Authority, First Energy, and 
Oglethorpe Power. The stated goal of this consortium is to 
deploy one or more demonstration plants before 2020.
    The B&W mPower reactor will be fully supported by a North 
American supply chain and has the potential to create thousands 
of jobs across North America. When used to repower aging coal 
facilities, the B&W mPower reactor creates a net increase in 
high-quality jobs at the plant site. Nuclear power plants trade 
lower, very stable fuel costs for more high-quality jobs. We 
believe this is a great tradeoff for our country's economy and 
its employment challenges.
    B&W is not alone in the emerging SMR industry. There are 
several other companies pursuing small modular reactors based 
on a range of technologies. The DOE's Roadmap properly 
recognizes that research needs for light water technology are 
minimal and focuses instead on identifying priorities that 
enable their near-term development and demonstration. 
Simultaneously, the DOE plans to support a range of R&D 
activities for longer-term technologies.
    It is my view that the Roadmap strikes a good balance 
between near-term and long-term efforts and creates a broad 
foundation for supporting SMR technologies.
    B&W believes that SMRs such as the B&W mPower reactor offer 
America a practical and affordable near-term, domestically-
produced, clean energy source. Delivering on the promise of 
these reactors, that these reactors hold will depend on 
leadership and foresight from both the industry and government. 
Public-private partnership is, therefore, critical to help 
reduce risk and accelerate deployment of a promising new SMR 
technology.
    A successful cost-sharing program stemming from such a 
partnership should encompass all important development 
activities, including design and licensing necessary to 
programmatically address the first-mover risks inherent in 
technology demonstration programs.
    In 1957, the first commercial nuclear power plant at 
Shippingport, Pennsylvania, achieved full power operation. It 
was the result of a partnership between the Atomic Energy 
Commission and Duquesne Light Company. This cooperation between 
industry and government set in motion the development of the 
U.S. commercial nuclear industry, which for 50 years provided 
technology leadership to the world and today supplies 20 
percent of our electricity. Our government's investment in this 
first-of-a-kind technology provided lasting and significant 
value to the Nation.
    Today we have a new opportunity, an opportunity to 
reestablish America's leadership role in the commercial nuclear 
industry that we first launched in 1957. A new public-private 
partnership will enable the U.S. to demonstrate the promise 
which SMR technology holds for our industry by the end of this 
decade.
    The DOE's Roadmap has created a strong foundation from 
which to pursue this goal, and I look forward to working with 
the Committee on legislation to implement it. Thank you for the 
privilege of testifying before the Committee. I am happy to 
answer questions.
    [The prepared statement of Mr. Mowry follows:]
               Prepared Statement of Christofer M. Mowry
Chairman Gordon, Ranking Member Hall, and Members of the Committee:
    My name is Chris Mowry and I am the President of Babcock & Wilcox 
Nuclear Energy, a division of The Babcock & Wilcox Company. I would ask 
that my entire statement and supplemental information be entered into 
the Committee record. My prepared remarks will be a summary of this 
statement.
    It is my privilege to present this testimony today regarding the 
Department of Energy's (DOE's) Nuclear Energy Research and Development 
Roadmap (Roadmap). I will focus my testimony on Small Modular Reactors 
(SMRs) and the promise they hold to provide carbon-free, base-load 
nuclear power in a more flexible, affordable form, while generating a 
lasting increase in high quality jobs for America. I applaud the DOE 
for recognizing the real potential of SMRs and including significant 
support for their development in the Roadmap.
    The Babcock & Wilcox Company has a rich legacy of innovating energy 
technology solutions for efficient and reliable electricity generation 
throughout the United States, North America and across the globe. We 
grew our business over the past 140 years by developing and 
commercializing practical solutions to the evolving challenges of the 
power generation industry. We provide a comprehensive portfolio of 
clean energy technologies, including such coal-based systems as oxy-
coal combustion, post-combustion CO<INF>2</INF> scrubbing, and 
environmental control systems. We supply a wide range of renewable 
energy systems including biomass, concentrating solar power, and waste-
to-energy. And, important to today's testimony, we consistently lead 
the development and deployment of new nuclear energy technology 
solutions for industry and government.
    B&W has more than 50 years of continuous nuclear engineering and 
manufacturing experience. Seven of the large nuclear power plants 
operating in the U.S. today were designed, manufactured and installed 
by B&W, including reactors in Arkansas, Florida, Ohio, Pennsylvania and 
South Carolina. Many other operating reactors incorporate major B&W 
nuclear steam supply components. Today, we provide customers with 
nuclear manufacturing and nuclear-related services from more than 17 
facilities across North America. These locations are engaged in 
everything from manufacturing major components for nuclear power 
plants, to operating the Nation's nuclear energy laboratory in Idaho, 
to fabricating fuel for the High Flux Isotope Reactor at Oak Ridge 
National Laboratory and the University of Missouri's research reactor, 
both of which provide critical research and material testing services. 
Two of our manufacturing facilities maintain the only privately held 
NRC Category 1 nuclear fuel licenses to manage Highly Enriched Uranium 
in the United States. We also down-blend Highly Enriched Uranium into 
Low Enriched Uranium, which is then delivered into the marketplace for 
commercial reactor fuel.
    B&W operates significant nuclear manufacturing facilities in 
Indiana, Ohio, Virginia and Tennessee, as well as in Ontario, Canada. 
We are the only American manufacturer accredited and capable of 
producing large N-stamped components for commercial nuclear power 
plants. We have fabricated more than 1,100 large Nuclear Steam Supply 
System (NSSS) components and pressure vessels, including approximately 
300 nuclear steam generators worldwide. And, we employ directly and 
through joint venture companies approximately 12,000 U.S. nuclear 
professionals.

Nuclear Power and Small Modular Reactors

    The DOE Nuclear R&D Roadmap correctly states that ``To achieve 
energy security and greenhouse gas (GHG) emission reduction objectives, 
the United States must develop and deploy clean, affordable, domestic 
energy sources as quickly as possible.'' It is clear that nuclear 
energy will play a critical role in achieving these objectives. The 
report also concludes that ``The capital cost of new large plants is 
high and can challenge the ability of electric utilities to deploy new 
nuclear power plants.'' This concern is central to industry's 
motivation to develop and deploy SMRs as complements to large, 
gigawatt-sized reactors.
    More than two years ago, B&W began evaluating the shifting nuclear 
industry landscape. Several factors, including the potential for 
climate change legislation and carbon emission regulation, the need for 
increased energy independence, the constraints on the nuclear component 
supply chain, the increasingly restrictive capital markets, and the 
growing concerns about water rights and transmission capacity were 
pushing the industry to innovate new approaches to nuclear energy. Over 
these past several years, it has become increasingly clear that when it 
comes to nuclear power generation technology, one size does not fit 
all.
    As part of our SMR market evaluation, we drew on the experience and 
expertise of electric utilities themselves to help us define the type 
of SMR technology best suited to meet their near-tern needs. Their 
guidance caused us to recognize that many utilities are not comfortable 
financing large, gigawatt-sized nuclear power projects. For example, 
some smaller electric cooperatives, which have historically been unable 
to include nuclear power plants in their own generation portfolios due 
to size and cost, now view SMRs as a realistic way to increase their 
carbon-free baseload generation capacity. Larger utilities see 
significant value in small reactors as well, particularly in providing 
a more incremental approach to project financing and to meeting 
projections of modest system load growth. In the near term, our utility 
customers want a smaller reactor that uses proven light-water nuclear 
technology, that can lever their substantial investment in existing 
nuclear infrastructure, and that can draw on the well-established 
conventional nuclear fuel supply chain. They also want a practical 
carbon-free option that can be used to ``repower'' aging coal power 
plants. In response to this broad range of emerging energy industry 
needs, we have developed the B&W mPower<SUP>TM</SUP> reactor.

B&W mPower Reactor

    The B&W mPower reactor (Figure 1) is a scalable, modular, Advanced 
Light Water Reactor (ALWR) system, which can be certified, manufactured 
and operated within today's existing regulatory framework, domestic 
industrial supply chain, and utility operational infrastructure. The 
B&W mPower reactor has the capacity to match utility customer 
requirements in meaningful 125 MWe increments, while providing a 4.5 
year operating cycle between refueling outages (compared to 18 or 24 
month refueling cycles for currently operating large reactors). The 
scalable size of the B&W mPower reactor will allow industry to utilize 
existing electrical transmission line infrastructure and, when used to 
repower aging fossil-power plants, reuse existing power plant assets.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The use of conventional fuel, structures and power conversion 
equipment contributes to reliable, efficient plant operations within 
the existing Light Water Reactor (LWR) experience base of the industry. 
We plan on manufacturing the entire B&W mPower reactor in B&W 
facilities across North America, with the completed integral nuclear 
module then shipped by rail to plant construction sites. Factory 
assembly permits site infrastructure to be constructed simultaneously, 
reducing construction time. The reactor is designed to be installed in 
a secure underground containment structure (Figure 2), addressing 
aircraft impact concerns. The design also includes a spent fuel pool 
capable of holding 60 years' worth of spent fuel inside the underground 
containment. In other words, the spent fuel is stored securely for the 
life of the reactor. Additionally, the B&W mPower reactor plant is 
specifically designed to be air-cooled, thereby addressing concerns--
particularly in the Southwest and Southeast--about local and regional 
water resources. These capabilities make the B&W mPower reactor a 
suitable power generation option for market segments such as 
replacement of aging fossil power plants, incremental additions to 
existing nuclear sites, power sources for energy intensive industrial 
manufacturing sites, potential energy parks, as well as developing 
countries and remote areas with limited transmission and access 
infrastructure.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We are currently well into the design phase for the B&W mPower 
reactor and plan to submit our Design Certification Application (DCA) 
to the U.S. Nuclear Regulatory Commission (NRC) in 2012. Our initial 
efforts focus on obtaining NRC Design Certification and lead plant 
deployment in America. The NRC is already engaging us in Design 
Certification and licensing activities for the B&W mPower reactor. In 
support of these goals, we have developed a B&W mPower Consortium made 
up of B&W and leading U.S. utilities, including the Tennessee Valley 
Authority, First Energy and Oglethorpe Power Corporation. The 
Consortium is dedicated to addressing the proper regulatory framework, 
design requirements, and licensing infrastructure necessary to support 
the commercialization of the B&W mPower reactor. The ultimate goal of 
the Consortium is to deploy one or more demonstration plants in the 
U.S. by 2020, if not earlier.
    This is an aggressive but realistic goal, one which will require 
industry leadership from B&W and its utility partners, the right 
balance between the promise of innovation and the certainty of proven 
ideas, and consistent support from the DOE, NRC, and Congress. A high-
level version of the lead plant schedule, leading to initial deployment 
by 2020, is included in Figure 3.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The B&W mPower reactor is intended to be a competitive source of 
power generation. Our current analysis of the levelized cost of 
electricity (LCOE), an industry standard metric for total cost of 
ownership, indicates that the economics range from 47 $/MWh to 95 $/MWh 
(Figure 4) for a nuclear plant composed of 4 B&W mPower modules 
generating 500MWe, depending on the deployment configuration. This LCOE 
range is competitive with new fossil generation and renewable power 
alternatives, even without a carbon ``tax''.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Manufacturing of the B&W mPower reactor has the potential to create 
thousands of jobs in the next 10-15 years across North America, 
including Ohio, Indiana, Virginia and Tennessee. The B&W mPower reactor 
will be fully supported by a North American supply chain, including all 
forgings. Current estimates of manufacturing job growth are variable 
based on broad predictions of the market for small reactors. As more of 
the development and final design work is completed, and fabrication and 
assembly methods are defined, good estimates of manufacturing job 
growth will become available.
    When used to repower aging coal facilities, the B&W mPower reactor 
creates a net increase in high-quality jobs at the power plant. On an 
equivalent basis, approximately four times as many jobs are created per 
unit of power generated by a B&W mPower plant compared with an aging 
coal plant. Nuclear power plants trade lower, very stable fuel costs 
for more high-quality jobs. This is a great trade-off for our country's 
economy and its employment challenges.
    The B&W mPower reactor will also generate significant indirect jobs 
in the areas of engineering, project management, field construction and 
plant operations. Engineering and design work for the B&W mPower 
program has already created more than 100 full-time positions in 
Virginia and Ohio and led to the establishment of dedicated facilities 
in Virginia.

Generation III Light-Water and Generation IV Technologies

    B&W is not alone in the emerging SMR industry. There are many 
companies currently pursuing the development of small reactors, based 
on a range of technologies from light water design to more long-term 
``Generation IV'' concepts. The DOE's R&D Roadmap recognizes the 
importance of both near-term light water-based SMRs, as well as the 
longer-term, non-light water technologies. In the Roadmap, the DOE 
properly recognizes the relative maturity of these various 
technologies, acknowledges that basic research needs for light water 
technology are minimal, and focuses the Roadmap on identifying 
priorities that enable their development, demonstration and commercial 
application. Simultaneously, the DOE rightly plans to support a range 
of R&D activities for longer term non-light water technologies. The DOE 
has struck a good balance between near-term and long-term efforts. It 
has prudently created a broad programmatic foundation supporting SMR 
technologies that meet market realities and effectively complement 
large nuclear power plants and other sources of energy.

Federal Support for SMRs

    This Committee recognized the value of public-private partnerships 
when it established the Nuclear Power 2010 program in the Energy Policy 
Act of 2005. Today, NP 2010, a 50-50 cost-shared program between the 
Department of Energy and utility industry partners, effectively 
addresses the technical, regulatory, and institutional barriers to 
building new, gigawatt-class nuclear power plants in the United States, 
providing the framework for industry decisions to construct and operate 
those plants. A similar model will also help reduce risk and accelerate 
deployment of promising new SMR technologies into the energy industry.
    In its Fiscal Year (FY) 2011 budget request, the DOE requested 
funding for a new SMR program, to include both a cost-sharing 
initiative supporting near-term Design Certification of light water SMR 
technologies and R&D activities for longer-term technologies. There are 
also several bills under consideration in both the House and Senate 
that incorporate cost-sharing programs for SMRs, all articulating 
strong support for their development. A meaningful SMR cost-share 
program is vital to the energy industry. The timeline, scope and 
competitive selection criteria of such a program will have a 
significant impact on the ultimate success of SMRs in meeting our 
emergent energy industry challenges. To ``develop and deploy clean, 
affordable, domestic energy sources as quickly as possible,'' as DOE 
states in the Roadmap, an SMR costshare program should support the 
near-term deployment of scalable, modular nuclear power in a way that 
enables the market adoption of practical, affordable carbon-free 
nuclear power. This program must foster development of technology that 
domestic utilities are likely to construct, own, and operate in 
quantity, while accelerating the creation of stable, high quality 
American jobs. We believe the B&W mPower reactor meets these criteria 
today.
    To deploy SMRs by the end of this decade, it is important that the 
cost-share program scope span the spectrum of necessary industry 
development activities--including Design Certification, final design 
engineering, as well as Early Site Permit and Combined Operating 
License activities--rather than being confined simply to offsetting NRC 
fees. In any industry, unique risks are inherent in being a technology 
``first-mover''. Recent worldwide experience in nuclear construction 
projects has shown that successful efforts to deploy new nuclear plant 
designs rely on government and industry cooperation encompassing 
support, design, licensing, and first-of-class plant construction. 
Government cooperation is essential to realistically address the 
licensing and schedule risks inherent in such demonstration projects. 
Through public-private cooperation, government and industry can share 
the risks and benefits of deploying the first SMR plants by the end of 
this decade.
    As mentioned previously, B&W believes a reasonable programmatic 
goal is to deploy light water-based SMR technology in this country by 
the year 2020. Working outward from that goal, NRC Design Certification 
should be completed for one or two SMR designs by the year 2016. DOE 
has requested $39 million in FY 2011 for the SMR program, with funding 
split between the near-term, cost-shared Design Certification of two 
light-water SMR designs and the longer-term R&D for more conceptual SMR 
designs. Both program components are valuable. However, we are 
concerned that any reasonable split of this $39 million between the 
near-term Design Certification work and the longer-term R&D would 
significantly slow building industry momentum supporting a near-team 
SMR demonstration program, risking achievement of the goal to deploy a 
lead plant by 2020. This is why we have encouraged a number of 
Congressional Members to support a programmatic increase of the overall 
SMR program account to $55 million for FY 2011, which would leave 
adequate funds for long-term R&D while also providing reasonable 
funding to initiate meaningful Design Certification and licensing 
activity for up to two light water SMR technologies.
    As this Committee considers legislation relating to SMRs, I would 
offer that a successful cost-sharing program must rely on competitive 
selection criteria that support our Nation's energy and security goals. 
Emphasis should be placed on:

        <bullet>  Modularity that enables factory manufacture of the 
        integral nuclear steam supply system,

        <bullet>  Domestic utility commitment to near-term deployment 
        of the technology,

        <bullet>  Economic competitiveness of the design without long-
        term government support,

        <bullet>  Domestic supply chain maturity to support near-term 
        manufacturing, and

        <bullet>  Ability for the design to be certified and licensed 
        within the existing regulatory structure.

    These criteria will ensure that the SMR design selection is market-
driven, and that public funding used to support those designs will 
ultimately be well spent on a successful program--one that enables a 
significant and long-lasting reduction in America's carbon emissions, 
that increases America's energy independence, and that creates 
substantial high-quality American jobs. In other words, these program 
selection criteria will help ensure that America leads innovation in 
this new technology and enhances its global competitiveness in the 
energy industry.

Closing Comments

    B&W believes that SMRs such as the B&W mPower reactor offer America 
a practical and affordable source of near-term, domestically produced, 
clean energy. Delivering on the promise these reactors hold will depend 
on leadership and foresight from both the nuclear industry and 
government.
    In 1957, the first commercial nuclear power plant at Shippingport, 
PA achieved full power operation, the result of a partnership between 
the Atomic Energy Commission and Duquesne Light Company. This 
cooperation between industry and government set in motion the 
development of the U.S. commercial nuclear industry, which for 50 years 
provided technology leadership to the world and today supplies 20 
percent of all electricity generated in America, and 70 percent of our 
carbon-free electricity generation. America's nuclear industry owes its 
existence to a successful public-private partnership which first 
demonstrated the commercial application of nuclear energy. Our 
government's investment in this first-of-a-kind technology more than 50 
years ago provided lasting and significant value to the Nation.
    Today we have a new opportunity--an opportunity to reestablish 
America's leadership role in the commercial nuclear power industry that 
we first launched in 1957. A new public-private partnership will enable 
the U.S. to demonstrate the promise which SMR technology holds for our 
energy industry by the end of this decade. The DOE's Nuclear Energy R&D 
Roadmap has created a strong foundation from which to pursue this goal, 
and I look forward to working with the Committee on legislation to 
implement it.
    Thank you for the privilege of testifying before the Committee. I 
am happy to answer any questions the Committee may have.

                   Biography for Christofer M. Mowry

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Baird. Thank you, Mr. Mowry.
    Dr. Ferguson.

   STATEMENTS OF CHARLES FERGUSON, PRESIDENT, FEDERATION OF 
                      AMERICAN SCIENTISTS

    Dr. Ferguson. Thank you, Mr. Chairman and other Members of 
the Committee. Thank you for the opportunity to testify on 
behalf of the Department of Energy's--comment on the Department 
of Energy's Roadmap. I request that my submitted written 
testimony be entered into the record.
    In my limited time I want to focus on four issues, four 
themes. One, the U.S. ability to compete, the issue of 
proliferation, proliferation resistance, waste disposal, and 
finally systems analysis compared to other energy sources and 
the various fuel cycles being considered.
    Other countries such as China, India, and Russia could 
already manufacture small to medium-power reactors. The Indian 
reactors, in particular, present proliferation concerns. So the 
United States confronts an economic competitive disadvantage. 
Because the U.S. has yet to license such reactors towards 
domestic use, it has placed itself at additional market 
disadvantage. By the time the U.S. has licensed such reactors, 
China, India, as well as other competitors may have established 
a stronghold on this emerging market.
    Given the differences in design philosophy among the six or 
seven reactors, SMRs, being considered in the U.S. market, none 
of these designs have yet penetrated the market, it is too soon 
to tell which, if any, will emerge as market champions.
    Nonetheless, because of the early stage of development, the 
United States has an opportunity to state clearly the criteria 
for successful use of SMRs. Because of the head start of these 
other countries, the United States should not procrastinate and 
should take a leadership role in setting the standard for safe, 
secure, and proliferation-resistant SMRs that can compete in 
the market.
    About 12 years ago a systems analysis was begun at Lawrence 
Livermore National Laboratory looking at what should be the 
criteria, especially in developing countries. The reactors that 
we would market here, the SMRs in the United States, would set 
an example for those in the developing world, and there are 
three issues that need to be addressed. Can we achieve 
reliable, safe operation with a minimum of maintenance and 
supporting infrastructure? Can we offer economic competitive 
sources of energy that can compete with alternative energy 
sources available to those candidate countries and the sites 
the reactors would be located? And finally, could we 
demonstrate significant improvements in proliferation 
resistance relative to existing reactor systems?
    And these two researchers, Dr. Brown and Dr. Hasberger of 
Lawrence Livermore, pointed out that currently-available 
technologies fail in one or more of those standards. So they 
put forward what one would consider kind of an ideal type of 
situation. One would be that we can eliminate the need for 
onsite refueling of the reactor, and that would minimize the 
risk of seizure of fissile material, and secondly, they 
recommend finding a disposal pathway so you don't have 
plutonium and other fissile material lingering onsite in that 
country.
    Unfortunately, because of the situation with waste disposal 
in the United States and other countries, you know, no country 
has a repository for spent nuclear fuel or nuclear waste. There 
is no clear pathway to take back that material from these 
client countries. Nonetheless, we do have a precedent under the 
Atoms for Peace Program. We supplied highly-enriched uranium 
research reactors and now we have been taking that material 
back under the Global Threat Reduction Initiative from various 
client states and taking it back and securing it in Oak Ridge, 
Tennessee.
    So we might be able to play off that precedent. We also 
need to establish market incentives for disposal of nuclear 
waste from these client countries. Perhaps if the fee is right, 
we could achieve public acceptance here in the United States to 
take back some of that fuel or find other locations, very 
secure locations for those materials.
    And concerning systems analysis for the DOE Roadmap, I 
think we need to look very seriously at the economic costs of 
the various fuel lifecycles; the once-through cycle, the 
modified cycle, and the closed cycle. Right now there is an 
economic disadvantage for the once-through recycling and for 
the full closed recycling methods, and considerable work needs 
to be done to figure out what industry is willing to do to help 
share the cost, whether industry is really very supportive 
economically of that approach.
    So in closing, I would say that we really need to determine 
how much industry is willing to contribute to cost sharing and 
looking at the economic advantages of these new small modular 
reactors and the other systems being considered under the DOE's 
Roadmap.
    Thank you.
    [The prepared statement of Dr. Ferguson follows:]
               Prepared Statement of Charles D. Ferguson

Introduction

    Thank you, Chairman Bart Gordon, Ranking Member Ralph Hall, and 
Members of the Committee. I appreciate the opportunity to appear before 
you and comment on the Department of Energy's Nuclear Energy Research 
and Development Roadmap.
    In his invitation letter, Chairman Gordon requested that I begin by 
providing a very brief overview of the Federation of American 
Scientists (FAS) and its Future of Nuclear Energy in the United States 
project. FAS was founded in 1945 by many of the atomic scientists who 
had developed the first atomic bombs in the Manhattan Project. They 
dedicated themselves to preventing nuclear war and reducing nuclear 
dangers by stopping the further spread of nuclear weapons to more 
states and terrorist groups. Several of the founders such as physics 
Nobel laureate Hans Bethe supported widespread use of peaceful nuclear 
energy. They realized, however, that to achieve safe and secure use of 
nuclear power, governments needed to make stopping nuclear 
proliferation a top priority. Because misuse of commercial nuclear 
technology to make weapons may harm business and the prospects for 
further expansion of commercial nuclear power, industry also has a 
vital stake in ensuring peaceful use.
    Building on this legacy of more than six decades, FAS has recently 
begun the Future of Nuclear Energy in the United States project in 
partnership with Washington and Lee University. With generous grant 
support from the Lenfest Foundation, Professor Frank Settle of 
Washington and Lee University and I are leading a multiple author-
project. The goal of the project is to assess lessons learned from the 
past, examine the present status of U.S. nuclear energy, and explore 
where nuclear energy development in the United States is headed. The 
main product will be a book-length report with chapters on licensing, 
financing, safety, security, the fuel cycle, waste management, 
comparison of nuclear energy to other energy sources, and nuclear 
energy's role in transportation and the smart grid. The publication 
date is early next year. Immediately after publication, Dr. Settle, the 
authors, and I will disseminate the results through briefings to 
Executive and Legislative officials, the news media, and other 
analysts. We will keep the House Committee on Science and Technology 
apprized of the progress of the project.

Small Modular Reactors

    Because of the renewed attention to small modular reactors (SMRs), 
I will start my analysis of the Department of Energy's proposed plans 
with this subject.\1\ In many respects, small power reactors are not 
new technologies but the potential for modularity, efficient factory 
construction, relatively quick deployment once built, and applications 
other than electricity generation offer the promise of cost competitive 
energy sources for markets that are not appropriate for large power 
reactors. As a matter of liability insurance, small power reactors are 
defined as generating 300 Megawatts (MWe) or less of electrical power. 
Medium power reactors range in power from greater than 300 MWe to 700 
MWe. The typical large power reactors now being marketed can generate 
from 1,000 MWe to 1,600 MWe.
---------------------------------------------------------------------------
    \1\ Steven Chu, ``America's New Nuclear Option: Small Modular 
Reactors will Expand the Ways We Use Atomic Power,'' Wall Street 
Journal, March 23, 2010.
---------------------------------------------------------------------------
    The United States and several other countries have considerable 
experience in building and operating small and medium power reactors. 
The U.S. Navy, for example, has used small power reactors since the 
1950s to provide propulsion and electrical power for submarines, 
aircraft carriers, and some other surface warships. China, France, 
Russia, and the United Kingdom have also developed nuclear powered 
naval vessels that use small reactors. Notably, Russia has deployed its 
KLT-40S and similarly designed small power reactors on icebreakers and 
has in recent years proposed building and selling barges that would 
carry these types of reactors for use in sea-side communities 
throughout the world. China has already exported small and medium power 
reactors. In 1991, China began building a reactor in Pakistan and 
started constructing a second reactor there in 2005. In the wake of the 
U.S.-India nuclear deal, Beijing has recently reached agreement with 
Islamabad to build two additional reactors rated at 650 MWe.\2\
---------------------------------------------------------------------------
    \2\ Agence France Presse, ``China to Build Two Nuclear Reactors in 
Pakistan,'' April 29, 2010.
---------------------------------------------------------------------------
    One of the unintended consequences of more than 30 years of 
sanctions on India's nuclear program is that India had concentrated its 
domestic nuclear industry on building small and medium power reactors 
based on Canadian pressurized heavy water technology, or Candu-type 
reactors. Pressurized heavy water reactors (PHWRs) pose proliferation 
concerns because they can be readily operated in a mode optimal for 
producing weapons-grade plutonium and can be refueled during power 
operations. Online refueling makes it exceedingly difficult to 
determine when refueling is occurring based solely on outside 
observations, for example, through satellite monitoring of the plant's 
operations. Thus, the chances for potential diversion of fissile 
material increase. This scenario for misuse underscores the need for 
more frequent inspections of these facilities. But the limited 
resources of the International Atomic Energy Agency have resulted in a 
rate of inspections that are too infrequent to detect a diversion of a 
weapon's worth of material.\3\
---------------------------------------------------------------------------
    \3\ Thomas B. Cochran, ``Adequacy of IAEA's Safeguards for 
Achieving Timely Detection,'' Chapter 6 in Henry D. Sokolski, editor, 
Falling Behind: International Scrutiny of the Peaceful Atom (Strategic 
Studies Institute, U.S. Army War College, February 2008).
---------------------------------------------------------------------------
    The opening of the international nuclear market to India may lead 
to further spread of PHWR technologies to more states. For example, 
last year, the Nuclear Power Corporation of India, Ltd. (NPCIL) 
expressed interest in selling PHWRs to Malaysia.\4\ NPCIL is the only 
global manufacturer of 220 MWe PHWRs. New Delhi favors South-to-South 
cooperation; consequently developing states in Southeast Asia, sub-
Saharan Africa, and South America could become recipients of these 
technologies in the coming years to next few decades.\5\ Many of these 
countries would opt for small and medium power reactors because their 
electrical grids do not presently have the capacity to support large 
power reactors and they would likely not have the financial ability to 
purchase large reactors.
---------------------------------------------------------------------------
    \4\ P Vijian, ``India Keen to Sell Nuclear Reactors to Malaysia,'' 
BBC Monitoring Asia Pacific--Political, April 27, 2009.
    \5\ More in depth analysis on Asia and nuclear energy developments 
will appear later this year in a book chapter I am writing for the 
National Bureau of Asian Research.
---------------------------------------------------------------------------
    What are the implications for the United States of Chinese and 
Indian efforts to sell small and medium power reactors? Because China 
and India already have the manufacturing and marketing capability for 
these reactors, the United States faces an economically competitive 
disadvantage. Because the United States has yet to license such 
reactors for domestic use, it has placed itself at an additional market 
disadvantage. By the time the United States has licensed such reactors, 
China and India as well as other competitors may have established a 
strong hold on this emerging market.
    The U.S. Nuclear Regulatory Commission cautioned on December 15, 
2008 that the ``licensing of new, small modular reactors is not just 
around the corner. The NRC's attention and resources now are focused on 
the large-scale reactors being proposed to serve millions of Americans, 
rather than smaller devices with both limited power production and 
possible industrial process applications.'' The NRC's statement further 
underscored that ``examining proposals for radically different 
technology will likely require an exhaustive review'' . . . before 
``such time as there is a formal proposal, the NRC will, as directed by 
Congress, continue to devote the majority of its resources to 
addressing the current technology base.'' \6\ Earlier this year, the 
NRC devoted consideration to presentations on small modular reactors 
from the Nuclear Energy Institute, the Department of Energy, and the 
Rural Electric Cooperative Association among other stakeholders.\7\ At 
least seven vendors have proposed that their designs receive attention 
from the NRC.\8\
---------------------------------------------------------------------------
    \6\ U.S. Nuclear Regulatory Commission, ``For the Record: `Small' 
Reactor Reviews,'' December 15, 2008. [Emphasis added.]
    \7\ See, for example, presentations for the panel ``Increasing 
Interest in Small Modular Reactors'' at the RIC 2010 conference, March 
11, 2010.
    \8\ U.S. Nuclear Regulatory Commission, ``Advanced Reactors,'' 
www.nrc.eov/reactors/advanced.html, November 4, 2009.
---------------------------------------------------------------------------
    Given the differences in design philosophy among these vendors and 
the fact that none of these designs have penetrated the commercial 
market, it is too soon to tell which, if any, will emerge as market 
champions. Nonetheless, because of the early stage in development, the 
United States has an opportunity to state clearly the criteria for 
successful use of SMRs. But because of the head start of China and 
India, the United States should not procrastinate and should take a 
leadership role in setting the standards for safe, secure, and 
proliferation-resistant SMRs that can compete in the market.
    Several years ago, the United States sponsored assessments to 
determine these criteria.\9\ While the Platonic ideal for small modular 
reactors will likely not be realized, it is worth specifying what such 
an SMR would be. N. W. Brown and J. A. Hasberger of the Lawrence 
Livermore National Laboratory assessed that reactors in developing 
countries must:
---------------------------------------------------------------------------
    \9\ See, for example, U.S. Department of Energy, Office of Nuclear 
Energy, Science, and Technology, Report to Congress on Small Modular 
Nuclear Reactors, May 2001.

        <bullet>  ``achieve reliably safe operation with a minimum of 
---------------------------------------------------------------------------
        maintenance and supporting infrastructure;

        <bullet>  offer economic competitiveness with alternative 
        energy sources available to the candidate sites;

        <bullet>  demonstrate significant improvements in proliferation 
        resistance relative to existing reactor systems.'' \10\
---------------------------------------------------------------------------
    \10\ N. W. Brown and J. A. Hasberger, ``New Concepts for Small 
Power Reactors Without On-Site Refueling for Non-Proliferation,'' Paper 
for the Advisory Group Meeting on Small Power and Heat Generation 
Systems on the Basis of Propulsion and Innovative Reactor Technologies, 
Obninsk, Russian Federation, Convened by the International Atomic 
Energy Agency, July 20-24, 1998.

    Pointing to the available technologies at that time from Argentina, 
China, and Russia, they determined that ``these countries tend to focus 
on the development of the reactor without integrated considerations of 
the overall fuel cycle, proliferation, or waste issues.'' They 
emphasized that what is required for successful development of an SMR 
is ``a comprehensive systems approach that considers all aspects of 
manufacturing, transportation, operation, and ultimate disposal.''
    Considering proliferation resistance, their preferred approach is 
to eliminate the need for on-site refueling of the reactor and to 
provide for waste disposal away from the client country. By eliminating 
on-site refueling the recipient country would not need to access the 
reactor core, where plutonium--a weapons-usable material--resides. By 
removing the reactor core after the end of service life, the recipient 
country would not have access to fissile material contained in the used 
fuel. Both of these proposed criteria present technical and political 
challenges.
    Ideally, the reactor would have a core life of 30 or more years. 
Such reactors are presently in use in the U.S. Navy. But the problem 
from a proliferation standpoint is that these reactors are fuel led 
with weapons-grade uranium. Thus, if a client country seized such a 
reactor and if it could break into the reactor's core, it could have 
bomb-usable fissile material. While the transfer of U.S. naval reactor 
technology is not advisable, perhaps there are other methods to achieve 
lifetime cores. A Japanese group of researchers, for example, examined 
a conceptual design for a small lead-bismuth cooled fast neutron 
reactor that computer simulations indicate the fuel could last for 30 
years.\11\ Fast reactors, however, have had a history of poor 
performance and have generally cost much more than thermal 
reactors.\12\ Only Russia presently has a large commercial fast reactor 
in operation although China, Japan, and India have active fast reactor 
programs. A more promising method for lifetime cores may involve 
thorium, a fertile element that can be used to make fissile fuel. 
Depending on the reactor design, thorium-based fuels offer favorable 
proliferation-resistant properties. Concerning long-lived cores, a 
research group has recently shown via computer simulations that 
thorium-type small reactors may not need refueling until after ten 
years and further design may result in even longer lived cores.\13\
---------------------------------------------------------------------------
    \11\ Yoshitaka Chikazawa et al., ``A Conceptual Design of a Small 
Natural Convection Lead-Bismuth Cooled Reactor Without Refueling for 30 
Years,'' Nuclear Technology, Vol. 154, 2006, pp. 142-154.
    \12\ Thomas B. Cochran, Harold A. Feiveson, Walt Patterson, Gennadi 
Pshakin, M. V. Ramana, Mycle Schneider, Tatsujiro Suzuki, and Frank von 
Hippel, Fast Breeder Reactor Programs: History and Status, A Research 
Report of the International Panel on Fissile Materials, February 2010.
    \13\ Iyos Subki et al., ``The Utilization of Thorium for Long-Life 
Small Thermal Reactors Without On-Site Refueling,'' Progress in Nuclear 
Energy, March-August 2008, pp. 152-156.
---------------------------------------------------------------------------
    But these concepts will likely require many years of development 
before they are ready for the commercial market. And although thorium 
reactors, in principle, look promising, the dominant paradigm has been 
to favor uranium-fueled reactors.\14\ Marketplace inertia and comfort 
level with the uranium-based technologies have erected barriers to 
different concepts. Moreover, the small reactor designs that are 
further along in development do not have long-lived cores.
---------------------------------------------------------------------------
    \14\ Leslie Allen, ``If Nuclear Power Has a Promising Future . . . 
Seth Grae Wants to be the One Leading the Charge,'' Washington Post, 
August 9, 2009.
---------------------------------------------------------------------------
    Even if proliferation-resistant lifetime core reactors were 
available, the other challenge is to provide a proliferation-resistant 
pathway to nuclear waste management. As indicated by Brown and 
Hasberger, the ideal would be to remove as soon as possible the used 
fuel from the recipient country. But then the question is: What country 
will accept the used fuel and the other radioactive materials? No 
country has opened up a permanent repository for domestically generated 
nuclear waste. However, Russia has accepted used fuel from client 
states under the condition that Russia reprocesses the used fuel to 
extract plutonium for reuse. Also, Britain and France have reprocessed 
used fuel from client states under the condition that high level waste 
is returned to the clients.
    Another option is to send used fuel from SMRs and perhaps other 
reactors fueled under a fuel leasing agreement to territory designated 
as an international zone. Such a zone would have to have rigorous 
security. In addition to making the difficult decision as to where to 
site this zone, supplier states would also have to reach agreement on 
whether to just store the used fuel or to reprocess it in order to 
recycle the plutonium and other fissionable materials. The political 
obstacles to creating this option for used fuel disposal appear 
formidable.
    Market-based incentives may offer the way forward to convince 
clients to buy SMRs. If a client especially one without an existing 
nuclear waste storage facility wants to save costs, its government may 
be willing to pay a fee for disposal of the waste in a supplier state. 
Doing so will obviate the need for the client to pay for the 
expenditure of a disposal facility. But achieving agreement will 
require a major policy shift on the part of supplier states. Their 
governments will have to convince their publics to accept the waste. If 
the disposal fee were large enough but also fair to the client, then a 
market could be created. If the populace near the disposal site were 
assured that the project would create considerable number of jobs and 
would uphold the highest safety and security standards, then acceptance 
may follow. Because the used fuel from SMRs would be much more compact 
than used fuel from large reactors, the barrier to acceptance of the 
SMR used fuel may also be lower. As a possible precedent, the United 
States has repatriated used U.S.-origin fuel containing highly enriched 
uranium. This material has fueled research reactors provided to client 
states under the Atoms for Peace Program.
    A systems analysis of the economics of SMRs is considerably 
different than the economics of more traditional large reactors. On a 
per kilowatt cost basis, a large reactor is more cost competitive as 
compared to a single SMR. But as two researchers for the International 
Atomic Energy Agency have pointed out, it is futile to make such a 
comparison because ``SMRs are suitable for those locations that might 
not be appropriate for larger plants.'' \15\ Such locations include 
countries with weak electrical grids, remote places, and locales 
favoring having the reactor near a population center to provide 
electrical and non-electrical needs such as district residential 
heating, industrial heating, or desalination. The researchers note that 
``SMRs have a potential to be competitive by employing alternative 
design strategies, taking advantage of smaller reactor size, offering a 
less complex design and operation and maintenance, relying on 
deployment-in-series approaches, taking an advantage of the accelerated 
learning, multiple unit factors and shorter construction duration.'' 
They caution that ``the economic data does not exist or is not 
available at a fine enough level of detail to perform the complex 
comparative analyses normally associated with `business models.''' \16\
---------------------------------------------------------------------------
    \15\ V. Kuznetsov and N. Barkatullah, ``Approaches to Assess 
Competitiveness of Small and Medium Sized Reactors,'' Proceedings of 
the International Conference on Opportunities and Challenges for Water 
Cooled Reactors in the 21st Century, October 27-30, 2009, IAEA, Vienna, 
Austria, Paper 1S01.
    \16\ Ibid.
---------------------------------------------------------------------------
    Nonetheless, the IAEA has sponsored research that has assessed the 
cost competitiveness of constructing several SMRs at a site versus 
building one large reactor.\17\ In particular, the IAEA study has 
estimated the overall cost of four SMRs of 300 MWe each to one large 
1,200 MWe reactor. Thus, the cumulative power ratings are equivalent. 
The SMRs would be built sequentially so that once one has been 
completed another will begin construction nine months later. The 
estimated construction time for each SMR is less than half the time to 
build one 1,200 MWe reactor. While the economy of scale economic factor 
alone would indicate that the 1,200 MWe reactor has a 1.74 ratio cost 
advantage, other factors even the playing field for the combined SMRs. 
By building multiple units, the SMRs are estimated to achieve a 0.78 
cost reduction. The speedier construction schedule per SMR gives an 
advantage, but balanced over the total construction time of the four 
SMRs, the cost reduction is only 0.94. The factory-built modular design 
provides a significant cost reduction of 0.85. The timing of the units 
to achieve favorable financing may result in another factor reduction 
of 0.95. Combining these cost reductions, the IAEA study indicates that 
the overall cost of the four SMRs is only 1.04 times greater than one 
large reactor, meaning nearly equivalent. It is important to underscore 
that these estimates are based on computer studies and have not been 
field tested by actual construction. As with practically all first-of-
a-kind endeavors, the first SMRs will most likely exceed cost 
estimates. But with learning and deploying enough of these reactors, 
costs may very well come down.
---------------------------------------------------------------------------
    \17\ IAEA Nuclear Energy Series Report ``Approaches to Assess 
Competitiveness of SMRs,'' Status: submitted for pre publication review 
and clearances; Targeted publication date: 2010; draft available at: 
http://www.iaea.org/NuclearPower/Downloads/SMR/docs/Approaches-to-
assess-competitiveness-of-SMR-Draft.pdf
---------------------------------------------------------------------------
    It is also worth pointing out that in the United States, Alaska and 
Hawaii may derive the most benefit from SMRs. Based on a 2001 DOE 
assessment, ``SMRs could be a competitive option'' in those states 
because ``the industrial rate for electricity charged by selected 
Alaska and Hawaii utilities varied from 5.9 to 36.0 cents per kWh'' and 
for a generic 50 MWe SMR, ``the range of electricity cost is estimated 
at 5.4 to 10.7 cents per kWh,'' while the ``range of cost for a 10 MWe 
SMR is 10.4 to 24.3 cents per kWh.'' \18\ Moreover, SMRs could help 
Hawaii reduce its substantial dependence on imported oil to generate 
electricity. According to the Energy Information Administration, 
petroleum provides about three-fourths of Hawaii's electricity.\19\ In 
comparison, petroleum is used in the United States as a whole to 
generate about two percent of the nation's electricity.
---------------------------------------------------------------------------
    \18\ U.S. Department of Energy, Office of Nuclear Energy, Science, 
and Technology, Report to Congress on Small Modular Nuclear Reactors, 
May 2001, p. iv.
    \19\ U.S. Energy Information Administration, ``Hawaii,'' Updated 
May 13, 2010, http://www.eia.doe.gov/state/
state<INF>-</INF>energy<INF>-</INF>profiles.cfm?sid=HI

Nuclear Energy Research and Development Roadmap

    Because the United States relies on nuclear power to provide about 
20 percent of its electricity and because this energy source provides 
the largest share of near-zero carbon emission electricity, the United 
States has a clear interest in protecting its investment in the current 
fleet of 104 commercial reactors. Many of these reactors have already 
reached their nominal 40-year lifespan. Dozens of these reactors have 
been recently receiving 20-year license extensions. Because the United 
States has not constructed a new reactor since 1996 with the completion 
of TVA's Watts Bar I, which was ordered in the early 1970s, the 
existing fleet is relatively old. If no new reactors are built in the 
next 20 years and if there are no further life extensions beyond 60 
years, within a few years after 2030 about 40 percent of the current 
fleet will have to be decommissioned. While 20 years may appear to be a 
long time away, understanding the science and engineering demands for 
extended reactor life will require at least several years of R&D. 
Consequently, I concur with DOE's emphasis in R&D Objective 1 to invest 
in improving the reliability, sustaining the safety, and extending the 
life of the current fleet. The challenges in this objective are largely 
technical and play to DOE's strength.
    The challenges in R&D Objective 2 to make nuclear power more 
affordable are more complex in that they are a mix of political, 
technical, regulatory, and financial factors. Factors outside DOE's 
control include streamlining the regulatory process for new reactors 
and placing a price on carbon emissions. The latter factor would likely 
have the greatest effect in making nuclear power and other low carbon 
emission sources more cost competitive with fossil fuels.
    Factors primarily within DOE's control include: R&D into new 
reactor fuels that can provide more efficient use of fissionable 
material and can create isotopic compositions of fissile material that 
are less desirable for weapons-use, R&D into very high temperature 
reactors that can produce hydrogen for fuel cells and process heat for 
industrial applications, advanced computer modeling and simulation, 
fundamental research in materials science, and systems analysis. While 
the R&D Roadmap emphasizes ``systems design for revolutionary new 
reactor concepts,'' there is an urgent need for systems analysis along 
at least two fronts.
    First, DOE should, if not already doing so, examine the competition 
among currently available reactor designs and the newer designs 
envisioned in the roadmap. An investment in a new nuclear reactor is at 
least a 60-year commitment in operations. Financial incentives for 
utilities to buy the currently available technologies may result in 
little or no demand for the more innovative technologies outlined in 
the roadmap.
    Second, DOE should, if not already doing so, continually perform a 
systems analysis of the competition among the various electricity 
sources. Particular attention should be made in assessing how future 
changes in the electrical grid using ``smart'' systems may allow for 
greater use of decentralized sources of renewable energies and how 
developments in energy storage systems could affect the use of large 
and small power generators.
    The third R&D objective seeks to develop sustainable nuclear fuel 
cycles. I agree with the general principles specified in the roadmap to 
``improve uranium resource utilization, maximize energy generation, 
minimize waste generation, improve safety, and limit proliferation 
risk.'' It makes sense to ``enable future decision makers to make 
informed choices about how best to manage the used fuel from 
reactors.'' A long term R&D program that seriously examines all three 
types of nuclear fuel cycles is needed. While the plan outlined in the 
roadmap appears sound in terms of fundamental R&D, I would encourage 
DOE to perform a systematic economic analysis of the lifecycles of all 
three fuel cycles. Similarly, it is important to determine the extent 
to which industry will provide financial support for the two types of 
fuel cycles currently not used in the United States: the modified open 
cycle and full recycling.

Recommendations

        <bullet>  Determine the proportion of cost sharing industry can 
        commit to in developing the Department of Energy's roadmap.

        <bullet>  Provide adequate R&D funding for development of 
        lifetime core SMRs that do not use or produce fissile material 
        that would be desirable for nuclear weapons production.

        <bullet>  Determine what resources the Nuclear Regulatory 
        Commission will require to continue with rigorous evaluations 
        of the many applications for large reactors while expediting 
        the examination of small modular reactors.

        <bullet>  Implement a variable fee structure for NRC license 
        applications in order to lower the financial barrier for SMR 
        applicants. In March 2009, the NRC published an advanced notice 
        of a proposed rulemaking to institute such a structure.\20\
---------------------------------------------------------------------------
    \20\ Charles F. Rysavy, Stephen K. Rhyne, and Roger P. Shaw, K&L 
Gates LLP, ``Small Modular Reactors,'' Special Committee on Nuclear 
Power, American Bar Association Section of Environment, Energy, and 
Resources, December 2009.

        <bullet>  Provide flexibility for the combined construction and 
        operating license (COL) process to facilitate adding multiple 
---------------------------------------------------------------------------
        SMRs to a site over a several years to few decades period.

        <bullet>  Reevaluate the requirement for all Emergency Planning 
        Zones (EPZs) to be 10 miles in radius from the reactor site. 
        Even a ``large'' SMR will have a power rating one-fourth or 
        less than the rating of a typical large reactor. Because an SMR 
        is less powerful, its radioactivity content is considerably 
        less than for a large reactor. Emergency Planning Programs may 
        then require smaller EPZs for SMRs. But as more SMRs are added 
        to a site, the EPZ may need to change to scale with the growth 
        in power capacity.

        <bullet>  Request the Obama administration to provide a 
        strategy for international sales of SMRs that only meet high 
        standards of safety, security, and proliferation-resistance. 
        Achieving adoption of these criteria will likely face 
        resistance from states that have available small and medium 
        power reactors that fall short in one or more of the standards.

        <bullet>  Require clear pathways for safe and secure disposal 
        of used fuel and other radioactive waste before selling SMRs to 
        countries without disposal facilities or to countries where 
        regional security concerns may increase the likelihood of 
        diversion of fissile material into weapons programs.

                   Biography for Charles D. Ferguson
    Dr. Charles D. Ferguson is the President of the Federation of 
American Scientists (FAS). He is also an Adjunct Professor in the 
Security Studies Program at Georgetown University and an Adjunct 
Lecturer in the National Security Studies Program at the Johns Hopkins 
University. Prior to FAS, he worked as the Philip D. Reed Senior Fellow 
for Science and Technology at the Council on Foreign Relations, where 
he was the project director of the Independent Task Force on U.S. 
Nuclear Weapons Policy, chaired by William J. Perry and Brent 
Scowcroft. Before his work at CFR, he was the Scientist-in-Residence in 
the Monterey Institute's Center for Nonproliferation Studies, where he 
co-wrote (with William Potter) the book The Four Faces of Nuclear 
Terrorism (Routledge, 2005). While working at the Monterey Institute, 
he was the lead author of the report Commercial Radioactive Sources: 
Surveying the Security Risks, which was the first in-depth, post-9/11 
study of the ``dirty bomb'' threat. This report won the 2003 Robert S. 
Landauer Lecture Award from the Health Physics Society. Dr. Ferguson 
has consulted with Sandia National Laboratories and the National 
Nuclear Security Administration on improving the security of 
radioactive sources. He also serves on the advisory committee for Oak 
Ridge National Laboratory's Energy and Engineering Sciences 
Directorate. He has worked as a physical scientist in the Office of the 
Senior Coordinator for Nuclear Safety at the U.S. Department of State. 
He is writing a book for Oxford University Press titled Nuclear Energy: 
What Everyone Needs to Know (forthcoming, January/February 2011). He 
graduated with distinction from the United States Naval Academy and 
served in the U.S. nuclear Navy, receiving training as a nuclear 
engineer at the Naval Nuclear Power School. He earned a Ph.D. in 
physics from Boston University.

    Mr. Baird. Thank you, Dr. Ferguson.
    Dr. Peters.

   STATEMENTS OF MARK PETERS, DEPUTY DIRECTOR FOR PROGRAMS, 
                      ARGONNE NATIONAL LAB

    Dr. Peters. Mr. Baird, Mr. Rohrabacher, and Members of the 
Committee, thank you for the opportunity to testify before you 
today on advanced nuclear fuel cycle research development and 
demonstration and the Department of Energy's Nuclear Energy 
Roadmap. Mr. Chairman, I ask that my full written testimony be 
entered into the record, and I will summarize it here.
    First, some remarks on sustainable nuclear energy. Nuclear 
energy must experience significant growth to support the goals 
of reliable and affordable energy in a carbon-constrained 
world. Expansion of nuclear energy will increase the need for 
effective nuclear waste management. Any advanced nuclear fuel 
cycle aimed at meeting the challenges of nuclear waste 
management must simultaneously address issues of economics, 
uranium resource utilization, nuclear waste minimization, and a 
strengthened non-proliferation regime.
    As we heard from Dr. Miller, there are two basic fuel cycle 
approaches: an open or once-through fuel cycle, which is 
current U.S. policy, which involves treating used nuclear fuel 
as waste with ultimate disposition of the material in a 
geologic repository. In contrast, a closed or recycle fuel 
cycle as currently planned by other countries, for example, 
France and Japan, involves treating used nuclear fuel as a 
resource whereby separations and actinide recycling in reactors 
work with geologic disposal.
    In our view, to maximize the benefits of nuclear energy it 
will ultimately be necessary to close the fuel cycle. Note, 
while geologic repositories will be needed for any type of fuel 
cycle, the use of a repository could be quite different for a 
closed fuel cycle. That said, there is no urgent need to deploy 
recycling today. Fortuitously it is conceivable that the 
decade's long hiatus in U.S. investment circumvents the need to 
rely on dated recycling technologies. Rather, we have the 
option to develop and build new technologies and develop 
business models using advanced systems.
    So now for some comments on the Nuclear Energy Roadmap. The 
Nuclear Energy R&D Roadmap provides a comprehensive vision for 
advancing nuclear energy as an essential energy source. Argonne 
strongly supports the R&D objectives described in the Roadmap. 
Argonne also agrees with the R&D approach described in the 
Roadmap and particularly the synergistic use of experiment, 
theory, and modeling and simulation to achieve the foregoing 
objectives.
    In collaboration with other DOE laboratories and 
universities, Argonne is advancing a new science and 
simulation-based approach for optimizing the design of advanced 
nuclear energy systems and assuring their safety and security.
    A robust and effective R&D demonstration strategy for an 
advanced fuel cycle must include several components; a fuel 
cycle system development activity to guide and appropriately 
focus the research; science and discovery contributions to 
technology and design, increased role of modeling and 
simulation and nuclear energy research and system design; 
advances in separations, fuel, and nuclear reactor 
technologies; advancement of safe and secure use of nuclear 
energy on an international basis; education and training of 
future nuclear energy professionals; support for modernization 
of aging research facilities for conducting experimental work; 
coordination and integration of R&D and separations of wastes 
sponsored by different government agencies and offices; and 
finally, close cooperation with industry in R&D, demonstration, 
and commercialization efforts as part of robust public-private 
partnerships.
    Concerning objective three of the Roadmap, namely the 
sustainable fuel cycle, Argonne supports a greater emphasis on 
coupling the science-based approach that is articulated in the 
roadmap, and coupling that with an active design and technology 
demonstration effort that would guide and appropriately focus 
the R&D and enable assessment of programmatic benefits in a 
holistic manner.
    This would be accompanied by close cooperation of DOE, its 
national laboratories, universities, and industry. These 
efforts would allow for fuel cycle demonstration in a timeframe 
that could influence the course of fuel cycle technology 
commercialization on a global basis.
    In particular, Argonne believes that advanced fast neutron 
reactors, recycle processes, and waste management technologies 
should be developed and demonstrated at engineering scale 
during the next 20 years.
    I should also say that the Blue Ribbon Commission is 
evaluating options for the management of using nuclear fuel, 
which we hope will result in recommendations for changes in 
U.S. nuclear past policy. In parallel with these efforts, 
advances in used fuel processing and waste storage and disposal 
technologies will support the development of an integrated 
policy for nuclear waste management in the U.S.
    So in summary, the United States should conduct a science-
based advanced nuclear fuel cycle R&D and demonstration program 
to evaluate recycling and transmutation technologies that 
minimize proliferation risks and environmental public health 
and safety impacts. This would provide a necessary option to 
reprocessing technologies deployed today and supports 
evaluation of alternative national strategies for nuclear fuel 
disposition, effective utilization and deployment of advanced 
reactor concepts, and eventual development of a permanent 
geologic repository. This should be done as part of robust 
public-private partnerships involving the Department of Energy, 
its national laboratories, universities and industry, and 
conducted with a sense of urgency and purpose consistent with 
the U.S. retaining its intellectual capitol and leadership in 
international nuclear energy community.
    That concludes my remarks, Mr. Chairman. I thank you and 
would be pleased to answer any questions.
    [The prepared statement of Dr. Peters follows:]
                  Prepared Statement of Mark T. Peters
Summary
    The United States should conduct a science-based, advanced nuclear 
fuel cycle research, development, and demonstration program to evaluate 
recycling and transmutation technologies that minimize proliferation 
risks and environmental, public health, and safety impacts. This would 
provide a necessary option to reprocessing technologies deployed today, 
and supports evaluation of alternative national strategies for 
commercial used nuclear fuel disposition, effective utilization and 
deployment of advanced reactor concepts, and eventual development of a 
permanent geologic repository(s). This should be done as part of robust 
public-private partnerships involving the Department of Energy (DOE), 
its national laboratories, universities, and industry; and conducted 
with a sense of urgency and purpose consistent with the U.S. retaining 
its intellectual capital and leadership in the international nuclear 
energy community.

Introduction and Context

Sustainable Nuclear Energy
    World energy demand is increasing at a rapid and largely 
unsustainable pace. In order to satisfy the demand, reduce greenhouse 
gas emissions, and protect the environment for succeeding generations, 
energy production must evolve from the current reliance on fossil fuels 
to a more balanced, sustainable approach based on abundant, clean, and 
economical energy sources. Therefore, there is a vital and urgent need 
to develop safe, clean, and secure global energy supplies. Nuclear 
energy is already a proven, reliable, abundant, and ``carbon-free'' 
source of electricity for the U.S. and the world. In addition to 
contributing to future electricity production, nuclear energy could 
also be a critical resource for ``fueling'' the transportation sector 
(i.e. electricity for plug-in hybrid and electric vehicles and process 
heat for hydrogen and synthetic fuels production) and for desalinating 
water. However, nuclear energy must experience significant growth to 
support the goals of reliable and affordable energy in a carbon-
constrained world.
    Key challenges associated with the global expansion of nuclear 
energy include: assurance of ample uranium resources for fuel; the need 
for increased numbers of trained engineers and technicians to design, 
build, and safely operate the plants; the need for increased industrial 
capacity for manufacturing and construction; the need to expand the 
regulatory infrastructure requisite for safe and secure operations; the 
need for integrated waste management; and the need to control 
proliferation risks associated with greater access to sensitive nuclear 
technologies.
    Moreover, domestic expansion of nuclear energy will increase the 
need for effective nuclear waste management in the U.S. Any advanced 
nuclear fuel cycle aimed at meeting these challenges must 
simultaneously address issues of economics, uranium resource 
utilization, nuclear waste minimization, and a strengthened 
nonproliferation regime, all of which require systems analysis and 
investments in technology research and development, demonstration, and 
test and evaluation. In the end, a comprehensive and long-term vision 
for expanded, sustainable nuclear energy must include:

        <bullet>  Safe and secure fuel-cycle technologies,

        <bullet>  Cost-effective technologies for an overall fuel-cycle 
        system, and

        <bullet>  Closed fuel cycle for waste and resource management.

Used Nuclear Fuel Management
    It is the composition of used nuclear fuel that make its ultimate 
disposal challenging. Fresh nuclear fuel is composed of uranium dioxide 
(about 96% Uranium-238, and 4% Uranium-235). During irradiation, most 
of the Uranium-235 is fissioned, and a small fraction of the Uranium-
238 is transmuted into heavier elements (known as transuranics). The 
used nuclear fuel contains about 93% uranium (mostly Uranium-238), 
about 1% plutonium, less than 1% minor actinides (neptunium, americium, 
and curium), and about 5% fission products. Uranium, if separated from 
the other elements, is relatively benign, and could be disposed of as 
low-level waste or stored for later re-use, but some of the other 
byproducts raise significant concerns:

        <bullet>  The fissile isotopes of plutonium, americium, and 
        neptunium are potentially usable in weapons and, therefore, 
        raise proliferation concerns. However, used nuclear fuel 
        remains intensely radioactive for over one hundred years. 
        Without the availability of remote handling facilities, these 
        isotopes cannot be readily separated, essentially protecting 
        them from diversion.

        <bullet>  Three isotopes, which are linked through a decay 
        process (Plutonium-241, Americium-241, and Neptunium-237), are 
        the major contributors to long-term radiotoxicity (100,000 to 1 
        million years), and hence, potential significant dose 
        contributors in a repository, and also to the long-term heat 
        generation that is a key design limit to the amount of waste 
        that can be placed in a given repository space.

        <bullet>  Certain fission products (notably cesium and 
        strontium) are major contributors to any storage or 
        repository's short-term heat load, but their effects can be 
        mitigated through engineering controls.

        <bullet>  Other fission products (Technetium-99 and Iodine-129) 
        also contribute to long-term potential dose in a repository.

    The time scales required to mitigate these concerns are daunting: 
several of the isotopes of concern will not decay to safe levels for 
hundreds of thousands of years. Thus, the solutions to long-term 
disposal of used nuclear fuel are limited to three options (not 
necessarily mutually exclusive): the location of a geologic environment 
that will remain stable for that period; the identification of waste 
forms that can contain these isotopes for that period; or the 
destruction of these isotopes. These three options underlie the major 
fuel cycle strategies that are currently being developed and deployed 
in the U.S. and abroad.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The nuclear fuel cycle is a cradle-to-grave framework that includes 
uranium mining, fuel fabrication, energy production, and nuclear waste 
management. There are two basic nuclear fuel-cycle approaches. An open 
(or once-through) fuel cycle, as currently planned by the U.S., 
involves treating used nuclear fuel as waste, with ultimate disposition 
of the material in a geologic repository (see Figure 1). In contrast, a 
closed (or recycle) fuel cycle, as currently planned by other countries 
(e.g., France, Russia, and Japan), involves treating used nuclear fuel 
as a resource whereby separations and actinide recycling in reactors 
work with geologic disposal (see Figure 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In the open nuclear fuel cycle, used nuclear fuel is sent to a 
geologic repository that must contain the constituents of the used 
nuclear fuel for hundreds of thousands of years. Several countries have 
programs to develop these repositories. This approach is considered 
safe, provided suitable repository locations and space can be found. It 
should be noted that other ultimate disposal options have been 
researched (e.g., deep sea disposal, boreholes, and disposal in the 
sun) and are not focused on currently. The challenges of long-term 
geologic disposal of used nuclear fuel are well recognized, and are 
related to the uncertainty about both the long-term behavior of used 
nuclear fuel and the geologic media in which it is placed.
    For the closed nuclear fuel cycle, limited recycle options are 
commercially available in France, Japan, and the United Kingdom. They 
use the Plutonium and Uranium Recovery by Extraction (PUREX) process, 
which separates uranium and plutonium, and directs the remaining 
transuranics to vitrified waste, along with all the fission products. 
The uranium is stored for eventual reuse. The plutonium is used to 
fabricate mixed-oxide fuel that can be used in conventional reactors. 
Used mixed-oxide fuel is currently not reprocessed, though the 
feasibility of mixed-oxide fuel reprocessing has been demonstrated. It 
is typically stored for eventual disposal in a geologic repository. 
Note that a reactor partially loaded with mixed-oxide fuel can destroy 
as much plutonium as it creates, but this approach always results in 
increased production of americium, a key contributor to the heat 
generation in a repository. This limited recycle approach has two 
significant advantages:

        <bullet>  It can help manage the accumulation of plutonium.

        <bullet>  It can help significantly reduce the volume of used 
        nuclear fuel and high-level waste destined for geologic 
        disposal (the French experience indicates that volume 
        reductions by a factor of 5 to 10 can be achieved).

    Several disadvantages have been noted:

        <bullet>  It results in a small economic penalty by increasing 
        the net cost of electricity a few percent.

        <bullet>  The separation of pure plutonium in the PUREX process 
        is considered by some to be a proliferation risk.

        <bullet>  This process does not significantly improve the use 
        of the repository space (the improvement is around 10%, as 
        compared to many factors of 10 for closed fuel cycles).

        <bullet>  This process does not significantly improve the use 
        of natural uranium (the improvement is around 15%, as compared 
        to several factors of 10 for closed fuel cycles).

    Full recycle approaches are being researched in France, Japan, and 
the U.S. These typically comprise three successive steps: an advanced 
separations technology that mitigates the perceived disadvantages of 
PUREX, partial recycle in conventional reactors, and closure of the 
fuel cycle in fast reactors. Note: the middle step can be eliminated 
and still attain the waste management benefits; inclusion of the middle 
step is a fuel cycle system-level consideration.
    The first step, using advanced separations technologies, allows for 
the separations and subsequent management of highly pure product 
streams. These streams are:

        <bullet>  Uranium, which can be stored for future use or 
        disposed of as low-level waste.

        <bullet>  A mixture of plutonium and neptunium, which is 
        intended for partial recycle in conventional reactors, followed 
        by recycle in fast reactors.

        <bullet>  Separated fission products intended for short-term 
        storage, possibly for transmutation, and for long-term disposal 
        in specialized waste forms.

        <bullet>  The minor actinides (americium and curium) for 
        transmutation in fast reactors.

    The advanced separations approach has several advantages:

        <bullet>  It produces minimal liquid waste forms, and 
        eliminates the issue of the ``waste tank farms.''

        <bullet>  Through advanced monitoring, simulation, and 
        modeling, it provides significant opportunities to detect 
        misuse and diversion of weapons-usable materials.

        <bullet>  It provides the opportunity for significant cost 
        reduction.

        <bullet>  Finally, and most importantly, it provides the 
        critical first step in managing all hazardous elements present 
        in the used nuclear fuel.

    The second step--partial recycle in conventional reactors--can 
expand the opportunities offered by the conventional mixed-oxide 
approach. In particular, it is expected that with significant R&D 
effort, new fuel forms can be developed that burn up to 50% of the 
plutonium and neptunium present in used nuclear fuel. (Note that some 
studies also suggest that it might be possible to recycle fuel in these 
reactors many times--i.e., reprocess and recycle the irradiated 
advanced fuel--and further destroy plutonium and neptunium; other 
studies also suggest possibilities for transmuting americium in these 
reactors. Nevertheless, the practicality of these schemes is not yet 
established and requires additional scientific and engineering 
research.) The advantage of the second step is that it reduces the 
overall cost of the closed fuel cycle by consuming plutonium in 
conventional reactors, thereby reducing the number of fast reactors 
needed to complete the transmutation mission of minimizing hazardous 
waste. As mentioned above, this step can be entirely bypassed, and all 
transmutation performed in advanced fast reactors, if recycle in 
conventional reactors is judged to be undesirable.
    The third step, closure of the fuel cycle using fast reactors to 
transmute the fuel constituents into much less hazardous elements, and 
advanced reprocessing technologies to recycle the fast reactor fuel, 
constitutes the ultimate step in realizing sustainable nuclear energy. 
This process will effectively destroy the transuranic elements, 
resulting in waste forms that contain only a very small fraction of the 
transuranics (less than 1%) and all fission products. These 
technologies are being developed in the U.S. at Argonne National 
Laboratory and Idaho National Laboratory, with parallel development 
internationally (e.g., Japan, France, and Russia).
    Several disadvantages have been noted for a closed fuel cycle, 
including:

        <bullet>  The economics of closing the fuel cycle. (Note, in 
        practice, closed fuel cycle processes would actually have 
        limited economic impact; the increase in the cost of 
        electricity would be less than 10%.)

        <bullet>  Management of potentially weapons-usable materials 
        may be viewed as a proliferation risk.

    These disadvantages can be addressed through a robust research, 
development, and demonstration program focused on advanced reactors and 
recycling options. In the end, the full recycle approach has 
significant benefits:

        <bullet>  It can effectively increase use of repository space.

        <bullet>  It can effectively increase the use of natural 
        uranium.

        <bullet>  It eliminates the uncontrolled buildup of isotopes 
        that are a proliferation risk.

        <bullet>  The advanced reactors and the processing plant can be 
        deployed in small co-located facilities that minimize the risk 
        of material diversion during transportation.

        <bullet>  A fast reactor does not require the use of very pure, 
        weapons-usable materials, thus decreasing proliferation risk.

        <bullet>  Finally, it can usher the way towards full 
        sustainability to prepare for a time when uranium supplies will 
        become increasingly difficult to ensure.

    In summary, the overarching challenge associated with the choice of 
any fuel cycle option is used nuclear fuel management. For example, 
current U.S. policy calls for the development of a geologic repository 
for the direct disposal of used nuclear fuel. The decision to take this 
path was made decades ago, when the initial growth in nuclear energy 
had stopped, and the expectation was that the existing nuclear power 
plants would operate until reaching the end of their design lifetime, 
at which point all of the plants would be decommissioned and no new 
reactors would be built. While it may be argued that direct disposal is 
adequate for such a scenario, the recent domestic and international 
proposals for significant nuclear energy expansion call for a 
reevaluation of this option for future used fuel management (see Figure 
3). While geologic repositories will be needed for any type of nuclear 
fuel cycle, the use of a repository would be quite different for closed 
fuel-cycle scenarios.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    For reprocessing to be beneficial (as opposed to 
counterproductive), it must be followed by recycling, transmutation, 
and fission destruction of the long-lived radiotoxic constituents 
(i.e., plutonium, neptunium, americium). Reprocessing (with PUREX) 
followed by thermal-recycling (mixed-oxide [MOX] fuel in light water 
reactors [LWRs]) is well established, but is only a partial solution. 
It is not at all clear that the U.S. should embark on this path. 
especially since we have not made a massive investment in a PUREX/MOX 
infrastructure. (Although, the U.S. is proceeding with a plan to reduce 
excess-weapons plutonium inventory using MOX in LWRs.) In contrast, 
advancement of fast reactor technology for transuranic recycling and 
consumption would maximize the benefits of waste management and also 
allow essential progress toward the longer term goal of sustainable use 
of uranium (and subsequently thorium) with fast reactors.
    There is no urgent need to deploy recycling today, but as nuclear 
energy expands, a once-through fuel cycle will not be sustainable. To 
maximize the benefits of nuclear energy in an expanding nuclear energy 
future, it will ultimately be necessary to close the fuel cycle. 
Fortuitously, it is conceivable that the decades-long hiatus in U.S. 
investment circumvents the need to rely on dated recycling 
technologies. Rather, we have the option to develop and build new 
technologies and develop business models using advanced systems.

Detailed Discussion

Argonne National Laboratory
    Located 25 miles southwest of Chicago, Argonne National Laboratory 
was the country's first national laboratory--a direct descendant of the 
University of Chicago's Metallurgical Laboratory where Enrico Fermi and 
his colleagues created the world's first controlled nuclear chain 
reaction. Appropriately, Argonne's first mission 64 years ago was to 
develop nuclear reactors for peaceful purposes. Managed by the UChicago 
Argonne, LLC for the U.S. Department of Energy, Argonne has grown into 
a multidisciplinary laboratory with a unique mix of world-class 
scientists and engineers and leading-edge user facilities, working to 
create new technologies that address the most important scientific and 
societal needs of our nation.
    Argonne's experience over many years of research in the advancement 
of nuclear energy positions it as a leader in the development of future 
generation reactors and fuel cycle technologies. A primary goal of the 
Laboratory's nuclear energy research program is to advance the 
sustainable use of nuclear energy through research and development of 
technologies that enable waste minimization, enhanced resource 
utilization, competitive economics, and increased assurance of 
reliability, safety, and security. Expertise in reactor physics, 
nuclear and chemical engineering, computational science and 
engineering, and fuel cycle analysis is applied in the assessment and 
conceptual development of advanced nuclear energy systems that meet 
these important goals.
    In collaboration with other DOE laboratories and universities. 
Argonne is advancing a new science- and simulation-based approach for 
optimizing the design of advanced nuclear energy systems and assuring 
their safety and security. This approach seeks increased understanding 
of physical phenomena governing system behavior and incorporates this 
understanding in improved models for predicting system performance in 
operating and off-normal situations. Once validated, these models allow 
the simulation and optimization of system design and operation, to 
enhance safety assurance and cost competitiveness with alternative 
energy supply options. They also promise to accelerate the 
demonstration of commercially attractive systems in partnership with 
industry.
    Argonne's waste management and reprocessing research and 
development activities are supported primarily by the DOE's Office of 
Nuclear Energy (DOE-NE) through its Fuel Cycle Research and Development 
program. The objective of Argonne's research in this area is to develop 
and evaluate separations and treatment processes for used nuclear fuel 
that will enable the transition from the current open fuel cycle 
practiced in the U.S. to a sustainable, environmentally acceptable, and 
economic closed fuel cycle. Our research focuses on the science and 
technology of chemical separations for the treatment of used fuel from 
both commercial and advanced nuclear reactors, used fuel 
characterization techniques, and waste form engineering and 
qualification. Ongoing projects related to reprocessing and waste 
management include:

        <bullet>  Using advanced modeling and simulation coupled with 
        experiments to optimize the design and operation of separations 
        equipment.

        <bullet>  Exploring an innovative one-step extraction process 
        for americium and curium, radionuclides that are major 
        contributors to nuclear waste toxicity, to reduce the cost of 
        used-fuel treatment.

        <bullet>  Further developing pyrochemical processes for used 
        fuel treatment. These processes enable the use of compact 
        equipment and facilities, treatment of used fuel shortly after 
        discharge from a reactor, and reduction of secondary waste 
        generation.

        <bullet>  Developing highly durable and leach-resistant waste 
        forms of metal, glass, and ceramic composition for safe, long-
        term disposal.

    In addition, Argonne's nuclear science and engineering expertise 
utilizes theory, experiment, and modeling and simulation in the 
assessment and conceptual development of innovative, advanced reactors 
operating with a variety of coolants, fuel types, and fuel cycle 
schemes. Argonne also leads U.S. development of innovative technologies 
that promise to reduce the cost of fast-neutron reactors and increase 
their reliability. These technologies include high-performance fuels 
and materials; compact, low-cost components for the heat transport 
systems; advanced power conversion and refueling systems; and improved 
capabilities for in-service inspection and repair.
    Argonne's research into the behavior of irradiated fuels and 
materials supports the U.S. Nuclear Regulatory Commission (NRC) in the 
regulation of industry initiatives to extend the operational lifetime 
and optimize the operation of existing and evolutionary nuclear 
reactors. Leading-edge systems analysis and modeling capabilities are 
used to assess the relative merits of different advanced nuclear energy 
systems and fuel cycles for various domestic and global scenarios of 
energy demand and supply consistent with environmental constraints and 
sustainability considerations. Argonne also has expertise in the 
components of nuclear technology that are critical for national 
security and nonproliferation, including the conversion of research 
reactors to low-enrichment fuels, technology export control, risk and 
vulnerability assessments, and national-security information systems.

Current Nuclear Waste Reprocessing Technologies
    As discussed above, current commercial used nuclear fuel 
reprocessing technologies are based on the PUREX process, which is a 
solvent extraction process that separates uranium and plutonium and 
directs the remaining minor actinides (neptunium, americium, and 
curium) along with all of the fission products to vitrified waste. The 
PUREX process has over fifty years of operational experience. For 
example, the La Hague reprocessing facility in France treats used fuel 
from their domestic and foreign power reactors. Plutonium recovered is 
recycled as a mixed-oxide fuel to generate additional electricity. 
Other countries using this technology for commercial applications 
include the United Kingdom and Japan.
    PUREX does not recover the minor actinides (neptunium, americium, 
curium, and heavier actinide elements), which compose a significant 
fraction of the long-term radiotoxicity of used fuel. Advanced reactors 
can transmute and consume minor actinides if separated from the fission 
product elements, but incorporation of minor actinide separations into 
existing PUREX facilities adds complexity and is outside commercial 
operating experience. Moreover, existing international facilities do 
not capture fission gases and tritium, but rather these are discharged 
to the environment within regulatory limits. Although plutonium is 
recycled as mixed oxide fuel, this practice actually increases the net 
discharge of minor actinides. Finally, the production of pure plutonium 
through PUREX raises concerns about materials security and 
proliferation of nuclear weapons-usable materials.
    Pyroprocessing is presently being used at the Idaho National 
Laboratory to treat/stabilize used fuel from the decommissioned EBR-II 
reactor. The key separation step, electrorefining, recovers uranium 
(the bulk of the used fuel) in a single compact process operation. 
Ceramic and metallic waste forms, for active metal and noble metal 
fission products, respectively, are being produced and have been 
qualified for disposal in a geologic repository. However, the 
demonstration equipment used for this treatment campaign has limited 
scalability. Argonne has developed conceptual designs of scalable, 
high-throughput equipment as well as an integrated facility, but to 
date only a prototype advanced scalable electrorefiner has been 
fabricated and successfully tested.

Advanced Reprocessing Technologies
    Research on advanced reprocessing technologies focuses on processes 
that meet U.S. non-proliferation objectives and enable the economic 
recycle of long-lived actinides in used fuel, while reducing the amount 
and radiotoxicity of high-level wastes that must be disposed. Main 
areas of research include:

        <bullet>  Aqueous-based Process Design--Current studies target 
        the simplification of aqueous processes that can recover the 
        long-lived actinides as a group in one or two steps.

        <bullet>  Pyrochemical-based Process Design--Present work is 
        focused on development of scalable, high-throughput equipment 
        and refining our understanding of the fundamental 
        electrochemical process. We are targeting greater control of 
        the composition of the recovered uranium/transuranic alloy, 
        which will facilitate safeguards consistent with U.S. non-
        proliferation goals.

        <bullet>  Off-gas Treatment--Environmental regulations limiting 
        the release of gaseous fission products require the development 
        of materials that will efficiently capture and retain volatile 
        fission products. Because these volatile fission products are 
        generally difficult to retain, development of novel materials 
        with strong affinities for particular fission products is 
        essential.

        <bullet>  Product/Waste Fabrication--This development effort 
        includes concentrating the product streams and recovery/recycle 
        of process fluids, solidification of products for both waste 
        form and fuel fabrication/recycle. The products must meet 
        stringent requirements as nuclear fuel feedstocks or must be 
        suitable for waste form fabrication.

        <bullet>  Process Monitoring and Control--Advanced 
        computational techniques are being developed to assess and 
        reduce uncertainties in processing operations within a plant. 
        Such uncertainties in design, in processing, and in 
        measurements significantly increase costs through increased 
        needs for large design margins, material control and 
        accounting, and product rework.

        <bullet>  Sampling Technologies--The tracking of materials is 
        critical to the safeguarding and operational control of recycle 
        processes. Improving the accuracy of real-time measurements is 
        a major goal for material accountancy and control. Reducing the 
        turnaround time for analysis by applying state-of-the-art 
        sampling and analytical techniques will enable ``on-line'' 
        material accountancy in real time. Advanced spectroscopic 
        techniques are under study to reduce gaps in our ability to 
        identify key species at key locations within a plant.

Impact on Future Nuclear Waste Management Policy
    The Blue Ribbon Commission is evaluating options for the management 
of used nuclear fuel, which will result in recommendations for changes 
in U.S. nuclear waste policy. In parallel with these efforts, advances 
in used fuel processing and waste storage and disposal technologies 
will support the development of an integrated policy for nuclear waste 
management in the U.S., consistent with our energy security, 
nonproliferation, and environmental protection goals. In particular, 
advances in nuclear fuel processing and storage and disposal 
technologies would enable actinide recycle as fuel for advanced 
reactors, allowing for additional electricity generation while 
drastically reducing the amount of nuclear waste and the burden on 
future generations of ensuring its safe isolation.
    Development and implementation of advanced reprocessing, recycle, 
and waste storage and disposal technologies should be done as part of 
an integrated waste management policy. Reprocessing and disposal 
options and long-term waste management policies should go hand in hand. 
Alternative technologies will have different economies of scale based 
on the type and number of wastes. In addition, waste packages may be 
retrievable or not and the waste form should be tailored to the site 
geology. This does not preclude the possibility of multiple disposal 
sites for selected wastes.
    High-level waste disposal facilities are required for all fuel 
cycles, but the volumes and characteristics of the wastes will be 
different. Consequently, a waste classification system is needed to 
define the facilities needed to support waste disposal. The U.S. does 
not have a cohesive waste classification system, but rather an ad hoc 
system that addresses management of specific wastes. The current point 
of origin system requires a complex dual waste categorization system, 
one for defense wastes and another for civilian wastes. This approach 
has resulted in high disposition costs, wastes with no disposition 
pathways, limited disposition sites, and a system that will be 
difficult to align with any alternative fuel cycle that is adopted.
    The International Atomic Energy Agency (IAEA) recommends a risk-
based classification system that accounts for the intensity of the 
radiation and the time needed for decay to an acceptable level. The 
intensity of radiation is given by a range of radioactivity per unit of 
weight. Decay time is split into short lived (<30 years) and long lived 
(>30 years). There is no distinction in either categorization or 
disposition options based on the sources of nuclear waste. The result 
is a simple, consistent, standard system. Lacking a consistent waste 
classification system, it is not possible to compare waste management 
costs and risks for different fuel cycles without making arbitrary 
assumptions regarding theoretical disposition pathways.

DOE's Nuclear Energy Research and Development Roadmap

Observations
    The DOE-NE ``Nuclear Energy Research and Development Roadmap'' 
(April 2010) provides a comprehensive vision for advancing nuclear 
energy as an essential energy source. Argonne strongly supports the R&D 
objectives described in the Roadmap, namely:

        1.  Sustaining and extending the operation of the current 
        reactor fleet;

        2.  Improving the affordability of new reactors, for example, 
        through development of small modular reactors;

        3.  Enhancing the sustainability of the nuclear fuel cycle 
        through increased efficiency of uranium utilization and reduced 
        discharge of actinides as waste; and

        4.  Quantifying, with the objective of minimizing nuclear 
        proliferation and security risks.

    Argonne also agrees with the R&D approach described in the Roadmap, 
in particular the synergistic use of experiment, theory, and modeling 
and simulation to achieve the foregoing objectives.
    While all four objectives are clearly important, Argonne believes 
that the public sector has a proportionately larger role to play in the 
efforts supporting objectives 2, 3, and 4. Objective I will be met 
largely through industry-financed initiatives and will build on decades 
of developments achieved by industry. Objective 4 requires an 
integrated systems approach to safeguards and security in developing an 
advanced nuclear fuel cycle(s), and complementary assessment work by 
the National Nuclear Security Administration (NNSA); its achievement 
will depend substantially on implementation and enforcement of 
international nonproliferation agreements and security arrangements.
    Concerning Objective 2, Argonne believes that deployment of small 
modular reactors (SMRs) is a potential game-changer to enable nuclear 
energy to be a significant contributor in addressing the world's 
climate and energy security challenges. SMRs may be financially 
competitive for countries and regions that cannot support commercial-
sized units in the 800-1400 MWe range. Additionally, they offer 
flexibility, more broadly, by enabling smaller increments of capacity 
addition and may provide a route to competitive economics by shifting 
much of the plant assembly and construction work into factories from 
the plant site. For SMRs based on existing (light water) reactor 
technology, the domestic and international industry is best positioned 
to complete the development that is needed, so the Government's 
principal role may be to eliminate technical barriers to NRC licensing. 
Argonne, in collaboration with economists at the University of Chicago, 
is analyzing the economic competitiveness of SMRs. Two of the SMR 
attributes that the study is focusing on are: the increased flexibility 
for utilities to add appropriately-sized units as demand changes; and 
deployment of SMRs as on-site replacements of aging fossil-fueled power 
plants.
    Concerning Objective 3, Argonne supports a greater emphasis on 
coupling the science-based approach for system development with an 
active design and technology demonstration effort that would guide and 
appropriately focus R&D, and enable assessment of programmatic benefits 
in a holistic manner. This would be accomplished by close cooperation 
of DOE, national laboratories, universities, and industry. The overall 
approach would seek to:

        <bullet>  Increase understanding of the diverse physical 
        phenomena underlying reactor and fuel cycle system behavior;

        <bullet>  Improve ability to predict system behavior through 
        validated modeling and simulation for design, licensing; and 
        operation; and

        <bullet>  Develop advanced materials, processes, and designs 
        for reactor and fuel cycle systems through application of 
        scientific discoveries and advanced modeling and simulation 
        capabilities, as well as the insights and lessons learned from 
        past nuclear energy development programs.

    These efforts would allow for fuel cycle demonstration in a 
timeframe that could influence the course of fuel cycle technology 
commercialization on a global basis. Moreover, the individual elements 
of the planned R&D (e.g., separations, waste forms, transmutation 
fuels) are each potentially vast in scope and can absorb substantial 
resources, without commensurate benefit, if the different areas are not 
sufficiently integrated for the results to fit together in a viable 
system.

An Effective Nuclear Energy R&D Strategy Going Forward
    The objectives of the DOE-NE ``Nuclear Energy Research and 
Development Roadmap'' can be met in a reasonable time frame if the 
appropriate priorities are identified and sufficient funding is 
provided to allow acceleration of high priority areas. In particular, 
Argonne believes that advanced fast-neutron reactors (of small or large 
capacity), recycle processes, and waste management technologies should 
be developed and demonstrated at engineering scale during the next 20 
years. Concurrently, support should be provided for facilitating the 
NRC review and certification of advanced reactors designed by 
commercial organizations, including small modular reactors.
    To enable an effective nuclear energy research and development 
strategy, the development of advanced fuel treatment technologies and 
waste forms must be closely coordinated with R&D on:

        <bullet>  Advanced fuels and interim storage strategies for 
        current light water reactors (LWRs), as these affect the 
        requirements on reprocessing and waste technologies. Research 
        on advanced fuels for light water reactors is one of the 
        proposed thrusts of the DOE-NE Light Water Reactor 
        Sustainability program (Objective 1 in the Roadmap).

        <bullet>  Advanced reactors such as liquid metal and gas cooled 
        ``Generation IV'' reactors, which employ different fuel types 
        and thus discharge used fuel that is very different from that 
        of LWRs. In the administration's budget request for 2011, this 
        research would be funded as part of the ``Advanced Reactor 
        Concepts'' program. Advanced, fast spectrum reactors can 
        efficiently consume the residual actinides in used nuclear 
        fuel, effectively converting these actinides to electricity 
        instead of discharging them as waste.

    Overall, an effective research and development strategy for 
advanced fuel cycles must include:

        <bullet>  A fuel cycle system development activity to guide and 
        appropriately focus the research.

        <bullet>  Improved systems analysis of nuclear energy 
        deployment strategies.

        <bullet>  Science and discovery contributions to technology and 
        design.

        <bullet>  Increased role of modeling and simulation in nuclear 
        energy research, development, and system design.

        <bullet>  Advances in separations and fuel technologies to 
        close the fuel cycle:

                  Develop and demonstrate aqueous-based technologies;

                  Develop and demonstrate pyroprocessing technologies; 
                and

                  Develop and demonstrate transmutation fuels.

        <bullet>  Advances in nuclear reactor technology and design to 
        generate electricity and close the fuel cycle:

                  Develop advanced reactor concepts; and

                  Develop advanced reactor component testing 
                facilities.

        <bullet>  Advancement of safe and secure use of nuclear energy 
        on an international basis:

                  Enhance safety assurance capabilities in countries 
                newly adopting nuclear energy; and

                  Improve and deploy safeguard and security 
                technologies and practices.

        <bullet>  Education and training of future nuclear energy 
        professionals.

        <bullet>  University programs and partnering with institutions 
        that have nuclear energy programs.

        <bullet>  Support for modernization of aging research 
        facilities for conducting experimental work; such facilities 
        should be regionally located in close proximity to universities 
        in order to develop the human capital needed to sustain 
        research advances in the future.

        <bullet>  Coordination and integration of R&D in separations 
        and waste sponsored by different government agencies and 
        offices (DOE-NE, DOE-EM, DOE-OCRWM, and DOE-SC).

        <bullet>  Close cooperation with industry in research and 
        development, demonstration, and commercialization efforts as 
        part of robust public-private partnerships.

Summary and Recommendations

    The United States should conduct a science-based, advanced nuclear 
fuel cycle research, development, and demonstration program to evaluate 
recycling and transmutation technologies that minimize proliferation 
risks and environmental, public health, and safety impacts. This would 
provide a necessary option to reprocessing technologies deployed today, 
and supports evaluation of alternative national strategies for 
commercial used nuclear fuel disposition, effective utilization and 
deployment of advanced reactor concepts, and eventual development of a 
permanent geologic repository(s). This should be done as part of robust 
public-private partnerships involving the Department of Energy, its 
national laboratories, universities, and industry; and conducted with a 
sense of urgency and purpose consistent with the U.S. retaining its 
intellectual capital and leadership in the international nuclear energy 
community.
    Over the next several years, the research, development, and 
demonstration program should:

        <bullet>  Complete the development and testing of a completely 
        integrated process flow sheet for all steps involved in an 
        advanced nuclear fuel recycling process.

        <bullet>  Characterize the byproducts and waste streams 
        resulting from all steps in the advanced nuclear fuel recycling 
        process.

        <bullet>  Conduct research and development on advanced reactor 
        concepts and transmutation technologies that consume recycled 
        byproducts resulting in improved resource utilization and 
        reduced radiotoxicity of waste streams.

        <bullet>  Develop waste treatment processes, advanced waste 
        forms, and designs for disposal facilities for the resultant 
        byproducts and waste streams characterized.

        <bullet>  Develop and design integrated safeguards and security 
        measures for advanced nuclear fuel recycling processes that 
        enable the quantification and minimization of proliferation 
        risks associated with deploying such processes and facilities.

        <bullet>  Evaluate and define the required test and 
        experimental facilities needed to execute the program.

        <bullet>  On completion of sufficient technical progress in the 
        program:

                  Develop a generic environmental impact statement for 
                technologies to be further developed and demonstrated; 
                and

                  Conduct design and engineering work sufficient to 
                develop firm cost estimates with respect to development 
                and deployment of advanced nuclear fuel recycling 
                processes.

        <bullet>  Cooperate with the NRC in making DOE facilities 
        available for carrying out independent, confirmatory research 
        as part of the licensing process.

                      Biography for Mark T. Peters

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Mark Peters is the Deputy Laboratory Director for Programs at 
Argonne National Laboratory (ANL). Responsibilities of his position 
include management and integration of the Laboratory's science and 
technology portfolio, strategic planning, Laboratory Directed Research 
and Development (LDRD) program, and technology transfer. Duties also 
include technical support to the DOE Fuel Cycle R&D (FCR&D) Program and 
he also serves as FCR&D National Technical Director for Used Fuel 
Disposition.
    Prior to his current position, Dr. Peters served as the Deputy 
Associate Laboratory Director for the Energy Sciences and Engineering 
Directorate. Responsibilities of this position included the management 
and integration of the Laboratory's energy R&D portfolio coupled with 
development of new program opportunities at the Laboratory, and 
management of the energy-related LDRD program. Duties also included 
technical support to the DOE Advanced Fuel Cycle Initiative (AFCI) and 
also served as the AFCI National Campaign Director for Waste Forms.
    Selected to serve on a two-year detail to DOE Headquarters in 
Washington D.C., Dr. Peters worked as a senior technical advisor to the 
Director of the Office of Civilian Radioactive Waste Management. In a 
prior position, Dr. Peters was with Los Alamos National Laboratory, 
where he served as the Yucca Mountain Project (YMP) Science and 
Engineering Testing Project Manager. In that role, he was responsible 
for the technical management and integration of science and engineering 
testing in the laboratory and field on the YMP.
    Before joining Los Alamos National Laboratory and the YMP in 1995, 
Dr. Peters had a research fellowship in geochemistry at the California 
Institute of Technology where his research focused on trace-element 
geochemistry. He has authored over 60 scientific publications, and has 
presented his findings at national and international meetings. Dr. 
Peters is a member of several professional organizations including the 
Geological Society of America, where he served as a member of the 
Committee on Geology and Public Policy. In addition, he is a member of 
the American Geophysical Union, the Geochemical Society, the 
Mineralogical Society of America, and the American Nuclear Society 
(ANS). He was elected recently to serve on the Executive Committee of 
the ANS Fuel Cycle and Waste Management Division. Dr. Peters' 
professional achievements have resulted in his election to Sigma Xi, 
the Scientific Research Society, as well as Sigma Gamma Epsilon, the 
Earth Sciences Honorary Society.
    Dr. Peters received his Ph.D. in Geophysical Sciences from the 
University of Chicago and his B.S. in Geology from Auburn University.

    Mr. Baird. To the minute or second, Dr. Peters.
    Mr. Krellenstein.

  STATEMENTS OF GARY M. KRELLENSTEIN, MANAGING DIRECTOR, TAX 
         EXEMPT CAPITAL MARKETS, JP MORGAN CHASE & CO.

    Mr. Krellenstein. Good morning, Mr. Baird, Members of the 
Committee. My name is Gary Krellenstein. I am a Managing 
Director in the Energy and Environmental Group at JP Morgan 
Chase. I appreciate the opportunity to testify today both on 
the Department of Energy's Nuclear Energy Research Roadmap.
    At JP Morgan my areas of focus are utilities, energy 
technologies, and project financing. I have previous experience 
as a utility and energy analyst at Lehman Brothers and Merrill 
Lynch, and I have also worked as a nuclear engineer and systems 
analyst in private and governmental entities.
    JP Morgan is the industry leader in underwriting, 
financing, and advising electric utilities and energy companies 
around the world.
    This morning I am going to focus my testimony on the 
financial-related issues associated with small modular reactors 
and potential for the DOE roadmap to improve the investment 
fundamentals of nuclear power in the United States.
    The smaller size and cost of SMRs gives them several 
distinct advantages over what I will call conventional nuclear 
reactors, but let me first provide a bit of context. For many 
people when they think of financing large industrial or entity 
facilities, they assume it will be done on a project finance 
basis, where the loan is ultimately repaid by the revenue 
generated from the asset being financed.
    In practice, however, larger power projects, particularly 
conventional nuclear plants where the cost can be in the range 
of $15 billion for a twin nuclear project, usually have the 
financing backed by the full faith and credit of all the 
company's assets and net revenues, and they are not secured 
solely the project being financed.
    So what does this mean for the investment fundamentals of 
SMRs? Well, three things. First, the construction of SMRs 
require less capital due to their size and other attributes 
compared to conventional nuclear plants.
    Second, the smaller capital requirements would allow a 
single company to build an SMR as opposed to the large and 
diverse consortiums that greatly complicate investors' required 
diligence as well as their analysis of management structure in 
what is already a complex undertaking.
    Third, the financing of large conventional nuclear plants 
requires utilities to bear a significant default risk such that 
construction of each plant is essentially a ``bet the company'' 
event. Many utilities are not willing to finance such a 
project.
    Let me take a few moments to expand on these issues. As a 
practical matter, it is far easier to find buyers for $2 
billion worth of securities than it is find buyers for $15 
billion worth. While that's obvious, SMRs' substantially lower 
cost will make raising capital easier and one would expect to 
provide greater comfort that sufficient investors can be found 
at a reasonable price.
    In addition, the low cost of SMRs has the potential to 
simplify investor analysis. The current enormous cost and very 
large capacity of conventional nuclear plants requires multiple 
partners to come together to finance a single project. Often 
these partners have different credit worthiness. Any financial 
consortium is only as strong as its weakest members, which can 
raise costs for the more credit-worthy participants, thus 
pushing up the costs of the entire project.
    Furthermore, the interrelationship and ability of the group 
to work together without discord is a major credit factor for 
investors and was the cause of many of the difficulties 
encountered in the last round of nuclear plant construction in 
the '70, and '80.
    Related to this consortium complexity I just discussed is 
the default risk posed to a particular company or entity and 
how that impacts the other participants and the project. The 
size of conventional reactors implies that if a project fails, 
so may the company. This bet-the-company reality persuades many 
private and public power generators to prefer other 
technologies that don't pose extinction risks to the company.
    In theory, SMRs should substantially simplify potential 
investor analysis as well as reducing default risk to the power 
companies building them. There are also capacity attributes of 
SMRs that make them more attractive to utility and energy 
companies as cost-effective means of addressing small increases 
in energy demand and dealing with the uncertainties associated 
with forecasting local energy needs. SMRs scalable size and 
easier site-ability, particularly if located adjacent to or 
near an existing nuclear facility, make them a plausible 
alternative to building the gigawatt-sized nuclear power 
stations, which are currently the only option. If SMRs are 
validated, it should increase the ability of both utilities and 
investors to participate in nuclear projects.
    I applaud the Department of Energy for acknowledging the 
potential of SMRs in the Nuclear Energy Research and 
Development Roadmap. Reduced capital requirements, expected 
improvements in quality control due to modular design, and 
potentially simpler issuer structure and therefore, one instead 
of multiple consortium members, will be major factors in the 
reduction of the financial risk profile, but will probably be 
insufficient to overcome investor concerns associated with a 
new commercial reactor design.
    Consequently, a demonstration project will probably be 
needed to further mitigate investor concerns over the 
technological risks associated with SMRs, and I urge Congress 
to move forward on legislation that proposes such development.
    That concludes my remarks, and I would be pleased to answer 
questions of the Committee. Thank you.
    [The prepared statement of Mr. Krellenstein follows:]
                Prepared Statement of Gary Krellenstein
    Good morning Chairman Gordon, Ranking Member Hall, and Members of 
the Committee. My name is Gary Krellenstein, and I am a Managing 
Director in the Energy and Environmental Group at JPMorgan Chase. I 
appreciate the opportunity to testify today on the Department of Energy 
(DOE)'s Nuclear Energy Research and Development Roadmap (``the 
Roadmap'').
    My areas of focus are utilities, energy technologies and project 
financing. I have previous experience as a utility and energy analyst 
at Lehman Brothers and Merrill Lynch, and as nuclear engineer and 
systems analyst at EnviroSphere Company (a subsidiary of EBASCO), the 
U.S. Department of Energy and the U.S. Nuclear Regulatory Commission. I 
hold degrees in Nuclear Engineering, Computer Science and Business 
Administration. I have also been ranked multiple times as one of the 
top financial analysts in the Nation by Institutional Investor Magazine 
(1st team for 12 consecutive years), the Bond Buyer, Global Guaranty, 
and Smith's Research and Rating Review.
    My firm, J.P. Morgan, is an industry leader in underwritings, 
financing and advisory work to electric utilities and energy companies 
in the United States. In 2009, J.P. Morgan underwrote more than $11 
billion of debt just for electric utilities, and has been involved in 
hundreds of power-related projects over the past few years.
    I will focus my testimony this morning on the cost and financing 
related issues of Small Modular Reactors (SMRs), and the potential for 
the DOE's Roadmap to improve the investment fundamentals of nuclear 
power in the United States.
    The smaller size and cost of SMRs give them several distinct 
advantages over what I'll call conventional nuclear reactors. But first 
let me provide a bit of context. For many people, when they think of 
financing large industrial or energy facilities, they assume that it 
will be done on a ``project'' finance basis (i.e. where a loan is 
repaid from the revenue generated by the asset being financed). And for 
a limited number of power projects where the technology, capital costs 
and construction risks are relatively low--for example a simple cycle 
gas unit--this type of financing is often utilized.
    But in practice, large power assets-particularly conventional 
nuclear plants where the costs can be in the range of $15 billion for a 
new twin unit project--usually have the financing backed by the full 
faith and credit of all the company assets' and net revenues (referred 
to as ``system'' financing)--and are not secured solely by the specific 
project being financed.
    So what does this mean for the investment fundamentals of SMRs,--
well, three things:
    First, the construction of SMRs requires less capital, due to their 
size and other attributes, than conventional nuclear power plants. 
Second, the smaller capital requirements would allow a single company 
to build an SMR as opposed to the large and diverse consortium that can 
greatly complicate investors' required due diligence as well as their 
analysis of the management structure of what is already a complex 
undertaking. Third, the financing for large conventional nuclear plants 
require utilities to bear significant default risk such that the 
construction of each plant is essentially a 'bet the company' event. 
Many utilities are not willing to finance such a large project. Let me 
take a few moments expand on these issues.
    As a practical matter, it is easier to find buyers for $2 billion 
worth of securities than it is to find buyers for $15 billion. While 
that's obvious, SMRs substantially lower cost will make raising capital 
easier and, one would expect it to provide greater issuer (utility) 
comfort that sufficient investors can be found at a reasonable price.
    In addition, the lower cost of SMRs has the potential to simplify 
investor analysis. The current enormous cost and very large capacity 
(MWe) of new conventional nuclear plants has required multiple partners 
to come together to finance a single project. And often these partners 
have significantly different degrees of creditworthiness. Given the 
variability of credit ratings and differences in capital structures, 
performing due diligence on such a consortium is vastly more complex 
and, as a result, more expensive to finance because of the 
corresponding increase in uncertainty.
    Moreover, any financial consortium is only as strong as its weakest 
member, which can raise costs for more creditworthy participants, thus 
pushing up costs of the entire project. Furthermore, the 
interrelationship and ability of the group to work together without 
discord is also a major credit factor for investors, and was the cause 
of many of the difficulties encountered in the last round of nuclear 
plant construction in the 70s and 80s.
    And closely related to the consortium complexity I just discussed, 
is the default risk posed to a particular company or entity. The size 
of conventional nuclear reactors necessarily implies that if the 
project fails, so may the company. This ``bet the company'' reality 
persuades many private and public power generators to prefer other 
power technologies that don't pose an extinction risk to the company. 
In theory, SMRs should substantially simplify potential investors' 
analysis as well as reducing the default risk to the power companies 
building them.
    Furthermore, there are capacity attributes of SMRs that make them 
more attractive to utility companies as a cost effective means of 
addressing smaller increases in energy demand and the uncertainties 
associated with forecasting of local energy needs. SMRs scalable size 
and easier sitability, particularly if located adjacent to or at an 
existing nuclear facility, makes them a plausible alternative to 
building gigawatt sized nuclear power stations, which is currently the 
only option. If SMRs are technically validated, and the procedural 
risks mitigated by Congress and the Administration, it should increase 
the ability of both utilities and investors to participate in nuclear 
projects.
    I applaud the Department of Energy for their acknowledgment of the 
potential of SMRs in the Nuclear Energy Research and Development 
Roadmap. Reduced capital requirements, expected improvements in quality 
control due to modular design, and a potentially simpler issuer 
structure (one or two parties instead of a large consortium) will be 
major factors in the reduction of the financial risk profile, but will 
probably be insufficient to overcome investor concerns associated with 
a new commercial reactor design. A demonstration project will likely be 
needed to further mitigate investors concerns over the technological 
risks associated with SMRs and could help to catalyze a nuclear 
renaissance. In addition, clearly defined Federal financial support for 
SMRs is essential to mobilize private sector capital. New technology of 
any kind can sometimes struggle to raise capital and this challenge is 
accentuated in the nuclear context. I urge Congress to move forward on 
legislation that proposes cost-sharing programs for SMRs.
    However, beyond these obstacles, there remain political and 
regulatory uncertainties that need to be addressed. The NRC's 
permitting processes is currently too long and unpredictable for many 
investors. It is unclear if the regulatory process can be streamlined 
for SMRs, but there should be some licensing synergy if they are 
located adjacent to existing nuclear power plants and/or constructed as 
identical modular units.
    In conclusion, there are three major financial advantages for SMRs: 
lower capital requirements, the likelihood of sole-party financing, and 
a reduction of the significant default risk for utilities normally 
associated with traditional large nuclear facilities.
    The Roadmap is laudable for its recognition of the potential for 
SMRs to overcome many of the obstacles that have previously hindered 
private financing for domestic nuclear facilities. However, while the 
Roadmap helps move the needle on addressing technology risk, both 
political and regulatory variables continue to give pause to investors 
in this space. Unless addressed, these risks will continue to undermine 
efforts to promote a domestic nuclear renaissance here in the United 
States. I appreciate the opportunity to testify before the Committee 
this morning.
    Thank you.

                    Biography for Gary Krellenstein
    Gary Krellenstein is an Investment Banker and Managing Director in 
JPMorgan's Energy and Environmental Group. His areas of focus are 
municipal utilities, Rural Electric Cooperatives, alternative energy 
technologies and project financing. He is also involved in JPMorgan's 
``carbon'' policies. Prior to rejoining Morgan in 2000, Gary was the 
Director of Municipal Research at First Albany Corporation. He has also 
worked as a utility analyst (corporate and municipal) at Lehman 
Brothers, Merrill Lynch and Morgan Guaranty, and as a nuclear engineer 
and systems analyst for Envirosphere Inc., the U.S. Department of 
Energy and the U.S. Nuclear Regulatory Commission.
    Mr. Krellenstein is nationally recognized in his field and prior to 
becoming an investment banker in 2003, for 12 consecutive years took 
top honors in the annual polls of financial analysts by Institutional 
Investor Magazine (1st team 1991-2002 in the municipal utility 
category). He has also been elected to All-American Research Teams 
(first place in the Utilities, Industrial Development and Pollution 
Control categories) by the Bond Buyer, Global Guaranty, and Smith's 
Research and Rating Review. In addition, the National Federation of 
Municipal Analysts (NFMA) presented Mr. Krellenstein the ``Award for 
Excellence.'' He is a frequent speaker on energy issues and has given 
presentations at Harvard University, Cornell University, Carnegie 
Mellon, the Electric Power Research Institute (EPRI), the National 
Governor's Association (NGA), and the American Public Power Association 
(APPA).
    Mr. Krellenstein holds degrees in Nuclear Engineering and Computer 
Science, as well as an MBA from Cornell University. He is the former 
chairman of The Bond Marketing Association's (TBMA) Municipal Credit 
Committee and the NFMA's ``Best Practices'' committee for municipal 
utilities and also sat on the Advisory Committee for Public Utilities 
Fortnightly magazine. Gary is a member of the Institute of Electrical 
and Electronics Engineers, the American Nuclear Society, the Natural 
Resource Defense Council (NRDC), the National Federation of Municipal 
Analysts (NFMA), the IEEE Power Engineering Society, the NYC 
Partnership Energy Task Force, and the American Association for the 
Advancement of Science.

    Mr. Baird. Thank you. Dr. Sanders.

 STATEMENTS OF THOMAS L. SANDERS, PRESIDENT, AMERICAN NUCLEAR 
                            SOCIETY

    Dr. Sanders. Thank you, Mr. Lipinski, for that kind 
introduction. Chairman Baird, Mr. Rohrabacher, and other 
Members of the Committee, I thank you for the opportunity to 
testify, and my written testimony is submitted for the record.
    A lot of what I was going to say has been said by previous 
panelists and Members of the Committee so----
    Mr. Baird. Okay. We will proceed to questioning then.
    Dr. Sanders. Let us say that American Nuclear Society 
applauds Assistant Secretary Miller and his team for developing 
a comprehensive R&D roadmap. I, too, will focus on small 
modular reactors, but I would like to take a little different 
approach to that.
    Clearly small reactors have a potential to address nuclear 
energy's upfront costs as illustrated by several of the 
panelists. However, I would like to talk about the global 
environment and the opportunities associated with small modular 
reactors in that environment.
    The world is embarking on a nuclear expansion with all the 
opportunities and risks associated with it. Unlike Iran and 
North Korea, most nations interested in nuclear energy are 
motivated by a sincere desire to improve the standard of living 
of their people. Indeed, the U.S. currently has very little say 
over whether this renaissance happens. If we are unable or 
unwilling to provide nuclear technology, these nations have 
plenty of other supplier options outside of the United States.
    The choice we have today is clear. We can either commit 
ourselves to facilitating this renaissance as a major supplier 
of safe, proliferation-resistant nuclear technology, or we can 
stand on the sidelines and cross our fingers and hope that 
France and others will take care of us.
    If we choose the path of engagement, the next step requires 
developed systems that are suited for the globally marketplace. 
More than 60 countries are actively seeking new nuclear 
generation capacity. At the same time nearly three-fourths of 
the world's power grids are not large enough to absorb large, 1 
gigawatt-sized reactors.
    This is where the small reactors come into the picture on 
the global marketplace. They comprise a diverse set of 
technologies. You have heard about mPower, a light water 
reactor design, metal-cooled reactors with extended refueling 
intervals could minimize waste. High temperature gas reactors 
were mentioned, to process heat and water desalination, and 
revolutionary concepts are on the table like traveling wave and 
nuclear batteries.
    The common thread is their size, small enough to be shipped 
and exported to other nations. There are some that are not 
comfortable with the notion that the U.S. should actively 
promote and supply nuclear technology around the world. They 
believe that the risks of proliferation are too great.
    However, there is an emerging consensus in my world and the 
U.S. nuclear community that, in fact, the opposite is true, 
that a revitalized domestic nuclear manufacturing sector is a 
critical and necessary component to sustaining our national 
interests around the world.
    Our national security infrastructure provides us with a 
head start. We already make small reactors for submarines and 
aircraft carriers. We have modular manufacturing techniques, 
and we have the ability to make most of the fuels envisioned 
for these designs. What we need is the collective will to make 
a long-term investment so that U.S. industry can, again, become 
a major supplier to the global marketplace.
    NE's R&D Roadmap is a good start. Its areas of focus are 
appropriate to the task, but as always the key item of the 
debate is proper balance between fundamental R&D and 
initiatives specifically geared to accelerate deployment of 
real operating reactors. I can tell you that as ANS President I 
have traveled the country and met with thousands of ANS 
members. If there is one common theme in these conversations it 
is that the U.S. cannot afford to be overly cautious in 
developing advanced reactor systems.
    We are in a race after all, and if we do not move forward 
with speed and purpose, we will forever be in the catch-up 
mode. Personally, I believe the DOE must make a revitalization 
of the U.S. nuclear supply industry one of its primary 
objectives. We need an industry capable of supplying cradle-to-
grave technology and solutions that eliminate the incentives 
for nations outside of the United States and outside the 
current nuclear powers to develop sensitive enrichment and 
reprocessing capabilities.
    If we could provide technology on the basis of cradle to 
grave, we could eliminate the reason for other countries to 
develop these technologies. I also believe we must ensure the 
U.S. industry is the primary beneficiary of taxpayer 
investments in nuclear technology so that we can maximize the 
economic job creation benefits of our investments.
    So while I support the broad contours of the R&D Roadmap, I 
hope Congress will consider giving DOE additional tools to 
accelerate the deployment of the next generation reactor so 
that we may be better positioned to meet our environmental, 
national, and economic security objectives within the next 10 
to 15 years.
    This concludes my testimony, and I will be happy to answer 
any questions the Committee may have.
    [The prepared statement of Dr. Sanders follows:]
                Prepared Statement of Thomas L. Sanders
    Chairman Gordon, Ranking Member Hall, members of the Committee, 
thank you for the opportunity to testify. I am here in my capacity as 
President of the American Nuclear Society (ANS). ANS is dedicated to 
the peaceful use of nuclear science and technology and comprised of 
11,000 men and women who work in the nuclear industry, our national 
labs, universities and government agencies.
    In general, the ANS membership believes that nuclear energy can and 
should play a major role in supplying energy in a carbon-constrained 
environment. We applaud Assistant Secretary Miller and his team for 
developing a comprehensive R&D roadmap to guide the Office of Nuclear 
Energy's investments going forward. My testimony today focuses on the 
need for DOE to facilitate the development and deployment of a new 
generation of small modular reactors.
    The nuclear debate in Washington these days focuses on the cost of 
nuclear versus other forms of energy--and specifically the large up-
front costs of installing new nuclear generation capacity. Clearly, 
SMRs have great potential to address nuclear energy's upfront cost 
challenges by allowing the cash flow from initial reactor modules to 
help finance subsequent additions. However, to view the nuclear issue 
only through the lens of the U.S. market is to miss half the picture.
    The world is embarking on a nuclear expansion with all the 
opportunities and risks associated with it. While we tend to hear about 
countries like Iran and North Korea, most nations interested in nuclear 
energy are motivated by a sincere desire to improve standards of living 
for their people. And in general, a world with plentiful clean energy 
will be more peaceful, more prosperous, and more environmentally 
sustainable over time.
    Indeed, the U.S. actually has very little say over whether this 
renaissance happens. The Nuclear Nonproliferation Treaty guarantees 
that all signatories have the right to enjoy the peaceful benefits of 
nuclear energy technology. In addition, the nuclear energy supply 
infrastructure has become thoroughly globalized in the last three 
decades. Frankly, if the U.S. is unable or unwilling to provide nuclear 
technology, interested nations have plenty of other supplier options.
    The choice we in the U.S. face today is clear. We can either commit 
ourselves to facilitating this renaissance as a major supplier of safe, 
proliferation-resistant nuclear technology, or we can stand on the 
sidelines and cross our fingers that other supplier nations will do it 
for us.
    If we choose the path of engagement, the next step required is to 
develop nuclear power systems that are suited for the global 
marketplace. More than 60 countries are actively seeking or have 
expressed interest in developing new nuclear energy generation 
capacity. At the same time, over 80% of the world's power grids are not 
large enough to absorb a 1 GW class nuclear plant.
    That is where SMRs come into the picture.
    SMRs comprise a diverse set of technologies. The common thread is 
their size, generally from 10 to 300 MW electricity, small enough to be 
shipped on a flatbed or rail car and exported to other nations as a 
complete unit.
    For purposes of this discussion, SMRs can be grouped into four 
different types.

        1.  Small light water reactors: these are based on well 
        understood technology and the U.S. has an existing 
        manufacturing capacity for supplying the Navy with propulsion 
        reactors. These reactors would make an attractive option for 
        existing nuclear plant operators to add capacity in a scalable 
        fashion in the near term.

        2.  Sodium or lead cooled fast reactors: these are small pool 
        type reactors that operate at low pressures. Their fast neutron 
        spectrum could allow for extended refueling intervals of up to 
        20-30 years. They have desirable safety characteristics, and 
        when combined with advancements in turbine technology, can be 
        operated in an extremely safe manner for long periods of time.

        3.  High-temperature gas reactors: these proposed designs are 
        generally optimized for process heat applications such as 
        hydrogen production, water desalination, shale oil recovery. 
        They could be located in industrial parks to offset the use of 
        fossil fuels for process heat generation.

        4.  The fourth category is what I call exotic designs. While 
        these innovative concepts will require longer-term research and 
        development efforts, their simplicity of operation could 
        provide ``walk away safe'' power to remote communities here in 
        the U.S. and around the world.

    There are some who are not comfortable with the notion that the 
U.S. should actively promote and supply nuclear technology around the 
world. They believe that the risks of proliferation are too great. 
However, there is an emerging consensus in the ANS membership and the 
U.S. nuclear community that in fact the opposite is true--that a 
revitalized domestic nuclear manufacturing sector is a critical and 
necessary component to sustaining U.S. nuclear influence around the 
world.
    So, what would a revitalized, SMR-focused U.S. nuclear 
manufacturing industry look like?
    Our national security infrastructure provides us with a head start. 
We already have a manufacturing infrastructure for small naval 
reactors. We have an operating geological repository in our defense 
infrastructure that could potentially accommodate transuranic waste 
from recycled SMR fuel. We have many years of operational data for 
water and sodium cooled systems. We already have modular manufacturing 
techniques. We have the ability to make the fuel envisioned in these 
designs. What we need is the collective will make long-term investments 
so that the U.S. can again be a major supplier to the global nuclear 
marketplace.
    NE's R&D roadmap is a good start in that direction. It takes a 
crosscutting approach to identifying areas of R&D focus applicable to 
sustaining the current U.S. fleet of nuclear plants, developing new 
reactor designs and fuel cycles, ensuring a high level of operational 
safety, and minimizing the risks of proliferation. I believe these 
areas of focus are appropriate to the task and DOE should be applauded 
for sharpening its pencil.
    As always, the key item of debate is the proper balance between 
fundamental R&D activities like modeling and simulation and initiatives 
specifically targeted at accelerated deployment of real, operating 
reactors. I can tell you that, as ANS president, I've traveled the 
country and met with hundreds of ANS members with nuclear engineering 
backgrounds. If there is one common theme in these conversations, it is 
that the U.S. cannot afford to be overly cautious in developing 
advanced reactor systems. We are in a race after all, and if we do not 
move forward with speed and purpose, we will forever be in catch-up 
mode.
    Personally, I believe that DOE must make revitalization the U.S. 
nuclear industry one of its stated objectives. We need a U.S. industry 
capable of supplying ``cradle-to-grave'' technology solutions that 
eliminate the incentives for nations to develop sensitive enrichment 
and reprocessing capabilities. I also believe we must ensure that U.S. 
industry is the primary beneficiary of taxpayer investments in nuclear 
technology, so that we maximize the economic and job creation benefits 
of our investments.
    So while I support the broad contours of the R&D roadmap, I hope 
Congress will consider giving DOE additional tools to accelerate 
deployment of next-generation reactors so that we may be better 
positioned to meet our environmental, national and economic security 
objectives in the next 10 to 20 years.
    This concludes my testimony and I would be happy to answer any 
questions the committee may have.

                    Biography for Thomas L. Sanders

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Dr. Sanders is currently serving as President of the American 
Nuclear Society. Recently appointed to be a member of the Civil Nuclear 
Trade Advisory Committee (CINTAC), which serves to advise Gary Locke, 
Chairman of the Trade Promotion Coordinating Committee on trade issues 
facing the U.S. civil nuclear industry. Recently elected to the 
International Nuclear Energy Academy (INEA). Co-founder and former Vice 
President of the American Council on Global Nuclear Competitiveness. 
Manager/integrator of Sandia National Laboratories Global Nuclear 
Materials Management and Global Nuclear Futures Initiatives since 1997. 
Organized numerous focus meetings with senior government policy 
officials on the need for a second nuclear era, from a national 
security perspective. As the leader of the Global Nuclear Futures 
vision, led the development of topical meetings, policy papers, news 
articles, partnership events with other countries and non-government 
organizations, and caucus events on Capitol Hill to articulate that a 
healthy and thriving U.S. nuclear energy infrastructure (from education 
to labs, suppliers, operators, and NGOs) is key to global proliferation 
risk management in the future. Developed a complementary partnership 
initiative between 7 U.S. and 9 Russian Lab Directors. This message has 
been delivered at Presidential summits, White House and Congressional 
briefings, and to numerous champions throughout government, industry, 
labor, and academia. Contributed to and managed several technical 
groups and programs at Sandia since joining in 1984. Authored over one-
hundred journal articles, conference papers, magazine articles, and 
white papers covering all aspects of the nuclear fuel cycle, from 
fusion and fast fission breeder reactor systems to criticality safety 
of spent fuel transport, storage, and disposal systems. Completed 
Bachelor of Science, Master of Science, and Doctor of Philosophy 
Degrees in Mechanical/Nuclear Engineering at the University of Texas in 
Austin, Texas. While at UT, licensed as a Senior Reactor Operator at 
the University of Texas by the NRC. Also served as a nuclear operator 
and supervisor on U.S. Navy Nuclear Submarines for several years, 
completing several patrols on the USS Kamehameha and the USS Shark. 
Also qualified as a journeyman shipyard electrician. Member of ANS, 
ASME, ACGNC, and INMM.

                               Discussion

    Mr. Baird. Thank you, Dr. Sanders. I am glad I didn't cut 
you off. Excellent points added to the already other quality 
points made.
    Mr. Lipinski, I recognize you for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Mr. Baird. Returning the favor when you are Chair.

                        U.S. Manufacturing Needs

    Mr. Lipinski. Thank you, Chairman Baird. I thank all the 
witnesses for their testimony. I am especially interested in 
Dr. Sanders' testimony, because I know that for a lot of years 
the U.S. was the worldwide leader in nuclear technology, but we 
moved from an exporter of nuclear goods and services to an 
importer. Westinghouse is an American company and made many 
parts used in our current generation of reactors. They sold to 
the British company and then to Toshiba. They now do most of 
their manufacturing in Japan but plan to move to China in the 
near future.
    So what is the best way for us to go about making sure that 
we have the ability, and not just for Dr. Sanders, but for the 
entire panel, have, first of all, the manufacturing capability 
to do the nuclear reactors? Especially if--I know Dr. Sanders 
talked about we do have the capability and we do build the 
nuclear reactors for the military, submarines, and ships. But 
besides the manufacturing, also to have the workforce that we 
need in order to be a leader in nuclear energy.
    So I will start with Dr. Sanders. I am just looking for 
suggestions of what policies should we be pursuing in order to 
be able to maintain that or get back that leadership in nuclear 
energy across the board.
    Dr. Sanders. I would like to take us back a little bit in 
history and describe how it was done the first time around. 
President Eisenhower started Atoms for Peace for national 
security reasons. He recognized that the world was going to go 
nuclear, that nuclear energy was going to spread, and he 
established a vehicle called Atoms for Peace that enabled the 
U.S. industry to be a dominate player on the global marketplace 
for the next 40 years.
    But the real enabler of that was that it had collateral 
defense applications. The Nuclear Navy was just starting out. 
We started out with a pressurized water reactor. The 
pressurized water reactor became the design component that 
ultimately led to civilian nuclear reactors, and basically 
Westinghouse and GE and B&W and others became the major 
suppliers around the globe.
    We need to reinvent that series of actions basically. We 
need a market initiator. DOD could be a market initiator, and 
promotion and initiation within our own TVA and other utilities 
might be the way to do that.
    We also need a technology leap. I don't believe personally 
that large scale light water reactor technology and 
manufacturers are going to come back to the U.S. because I 
don't believe that market is really that large in the United 
States. The market is outside the United States for the growth 
of nuclear energy, and most of that market is much more 
consistent with technology leaps and small modular reactors.
    By the technology ``leaps,'' I mean, in all assets: 
manufacturing, proliferation resistance, the technologies of 
use, different coolants, gas, sodium, water, and technologies 
that minimized the waste burden, especially if these kinds of 
exports can promote our national interest relative to other 
countries developing fuel cycle technologies.
    If we can offer solutions such that those countries don't 
feel the need for enrichment and reprocessing technologies, 
then we have solved, or we have implemented a major opportunity 
to solve, most of the world's proliferation issues.
    Mr. Lipinski. Dr. Peters.
    Dr. Peters. Yes. I would comment on the science and 
engineering side of it at the labs and universities. I think 
this is where there is an inherent role for government-
sponsored programs, and they exist, but I think we need to 
continue to bolster those. Over the last ten years as the DOE 
NE R&D Program has been revitalized, you start to see the 
workforce develop. You start to see young people coming into 
these problems, joining the national labs, and that is very, 
very exciting.
    I am fortunate to be able to go to other countries on a 
scientist-to-scientist basis and talk to people, and they still 
look to the United States for leadership in areas around 
advanced fuel cycles for example, but they are investing 
heavily in their R&D in those countries. So we need to continue 
to do that here, both at the universities in terms of 
university programs, and also at the national laboratories. And 
that involves everything from people all the way to 
experimental facilities.
    Mr. Baird. Mr. Mowry.
    Mr. Mowry. Yeah. I would just like to add a few comments to 
those already made by Dr. Sanders. First, the comment about the 
application of large reactors and the ability to bring that 
manufacturing back into the U.S., I think we would generally 
agree with that. One of the promises of SMRs is the ability to 
export a completed reactor to the developing country market 
that is actually in the long term the largest market access.
    So SMRs, in addition to creating the potential for domestic 
jobs, also offers the promise of a new significant, high-
technology export product that the U.S. could get into, and 
this in and of itself would create significant new 
opportunities for domestic jobs to support that export market.
    I think it is our view that the workforce will follow a 
leadership role that government plays and industry plays in 
getting this SMR market off the ground. So if there is a 
demonstration project, if we enter into a cost-sharing 
partnership, young people will move into those fields that they 
see are being supported and endorsed by the Nation.
    Mr. Lipinski. Anyone else?
    Mr. Baird. Mr. Lipinski, I am going to go ahead and move--
--
    Mr. Lipinski. Okay. Go ahead.
    Mr. Baird. --because we may have a vote coming up at noon, 
and I want to make sure we get to----
    Mr. Lipinski. Okay.
    Mr. Baird. --have another chance.
    Mr. Lipinski. Thank you.
    Mr. Baird. Thank you. Mr. Rohrabacher or Mr. Smith.
    Mr. Rohrabacher. Mr. Chairman, I think Mr. Smith has an 
item on the floor he would like to go to, so why don't I----
    Mr. Baird. Mr. Smith next.

                         New Reactor Permitting

    Mr. Smith of Texas. Thank you, Mr. Chairman, and I want to 
thank the Ranking Member, Mr. Rohrabacher, for letting me ask 
my questions. I do have a suspension bill coming up next, so I 
need to get to the floor.
    Mr. Krellenstein, let me address my first question to you. 
You pointed out accurately that the permitting process slows 
down our efforts and makes the goals a little bit harder to 
achieve. In particular with regard to the small modular 
reactors, what do you specifically suggest that we do to 
expedite that permitting process?
    Mr. Krellenstein. I am not sure that we can dramatically 
change the basic fundamental permitting required for a large or 
small nuclear plant, but I think something that we could do to 
expedite it would be to locate the SMRs at existing or adjacent 
to nuclear facilities, so we would be doing what is called 
brownfield citing versus greenfield citing. The burden would be 
to add a third or fourth unit, and because they are incremental 
in size, it would be far easier for many utilities that are 
uncertain about their future load gross or the financial 
commitment involved in building a large gigawatt-sized unit.
    Mr. Smith of Texas. Okay. Thank you, and Dr. Sanders, you 
suggested that Congress give the Department of Energy some 
additional tools to accelerate the deployment of next 
generation reactors. Would you, too, be a little bit more 
specific as to what you would recommend?
    Dr. Sanders. I would recommend linking the R&D roadmap to 
what is going on in this chamber today, I believe, which is the 
competitiveness initiative.
    Mr. Smith of Texas. COMPETES Act.
    Dr. Sanders. COMPETES Act. I think that is an opportunity 
to accelerate some of the deployment of some of these 
activities because, as said by other members of the panel, 
numerous jobs are going to be created to support an export 
market that is very significant in size.

                  How DOE Can Support New Developments

    Mr. Smith of Texas. Okay. Thank you, Dr. Sanders, and Mr. 
Krellenstein, back to you for my last question. I would like to 
know what you might recommend beside the loan guarantees that 
have been proposed by the Administration. Do you think that the 
right posse approach, or do you think we ought to be looking at 
more direct subsidies? What is the best way, again, to get to 
the goal?
    Mr. Krellenstein. I think depending on the individual 
issuer and the needs of the utility or power company. A 
portfolio approach would probably be better. Loan guarantees 
would be one way. There is a program available right now in the 
municipal market called BABS, or Build America Bonds. That 
might be another option to be considered. Favorable tax 
treatment would be another way, accelerated price depression.
    Because there are so many different situations at various 
companies interested in building, I think there is no one 
single best option to do but a group of options would be 
available.
    Mr. Smith of Texas. Do you think the Administration has 
done enough? Their loan guarantee program is relatively small. 
I don't know what we are going to do on tax credits that you 
just suggested.
    Do you think we ought to be doing more than we are or more 
than the Administration has proposed?
    Mr. Krellenstein. If we are serious about pursuing a 
nuclear renaissance, yes. I am afraid that what we have is a 
good start. It is probably not sufficient to provide the level 
that we need.
    Mr. Smith of Texas. Okay. Thank you. Thank you, Mr. 
Chairman. I yield back.
    Mr. Baird. Thank you, Mr. Smith.

                   Financing and Cost Competitiveness

    I want to follow up with a financing question. Mr. Mowry, I 
noted with interest you specifically suggested even without 
carbon price that you felt that SMRs might be competitive. Walk 
us through that. And are there any government subsidies and is 
it the full cycle of fuel costs from mining to disposal or 
storage? How does that work out? Because that is somewhat 
different than what I have been reading.
    Mr. Mowry. Well, two things. First, yes, it would include 
the entire cost of ownership, the life cycle cost of 
electricity, ownership when we are looking at this. We believe 
that that has to be the goal of the SMR initiative. If you want 
to create a viable, market-based solution long term, it cannot 
require government subsidy in the long term.
    So the technology approach that you select fundamentally 
needs to be competitive, and our goal at B&W is to make this 
solution competitive with $5 gas. That is the goal. In a 
brownfield application, that was discussed. When you apply this 
incrementally in a brownfield application, you want to have 
this competitive with $5 gas. There are----
    Mr. Baird. Natural gas.
    Mr. Mowry. Yes.
    Mr. Baird. Not with coal though?
    Mr. Mowry. Well, if it competes with $5 gas, it also 
competes in total, with our expected prices and goes forward in 
that area.
    The other aspect of this thing is what innovations you are 
going to apply to this and what incremental infrastructure the 
SMR is going to require, and that is why we believe that in the 
near term SMRs need to be light water reactor based 
technologies that use what has been proven in industry over the 
past 30 years. The issue with the nuclear industry today is not 
fundamentally a technology issue. It is an affordability issue, 
and it has to do with how you finance the reactors and get the 
projects built with cost certainty and schedule certainty.
    In the long term there is promise with fourth generation 
technologies, and therefore, R&D should be expended to develop 
these technologies, but in the near term that is not what the 
challenge is out there. We need to innovate on how light water 
reactors are made smaller and more cost effective so that they 
can compete with this.
    Mr. Baird. I understand that the goal--and I want to refer 
to Mr. Krellenstein here, I understand the goal would be that. 
That would be an obvious goal with price competitiveness. I 
don't think we are even close to anything demonstrated in 
actual practice that has met that metric of actual producing at 
$5 gas level. And I am interested in how that relates--
basically financing is making a bet here. They are betting how 
cost competitive will the electricity produced by this approach 
will be.
    What are your analyses of this, Mr. Krellenstein?
    Mr. Krellenstein. It is true that for a large number of 
investors, the expectation that there will be some type of 
restriction on emissions of carbon-based fuels is a factor, and 
they are viewing this as a viable economical alternative. There 
is the potential for modular units being manufactured partially 
in a factory and at a high rate to bring the cost down to a 
point where they may be able to compete directly.
    The biggest challenge we see right now is actually that 
natural gas, which has far lower carbon emissions, is very 
plentiful, and seems to be becoming more plentiful with each 
passing day, and is a very strong competitor for any power 
generation technology where environmental considerations are 
paramount.
    So nuclear really has to compete with gas rather than coal.

             A Skilled Workforce and Domestic Manufacturing

    Mr. Baird. Okay. Dr. Sanders, I was intrigued by your 
observation about the human resource and the technological 
resource. My understanding is that, first of all, I appreciate 
the shout out to America COMPETES. We hope to pass it this time 
through, and I think your point is well taken that we are going 
to have to have more engineers and scientists to--if we are 
going to bring this nuclear renaissance to reality, we have got 
to have the expertise.
    What about domestic manufacturing? I understand that, for 
example, if you to build a large-scale nuclear plant, just 
getting the steel for the containment vessel is a challenge. 
How do we promote Buy America-type approaches for--and I think 
to some extent the modularity might help us there because we 
just assembly. How do we do that?
    Dr. Sanders. Well, like I stated, we do have a national 
security infrastructure that does that today, and I think what 
has to be recognized is that our international security 
interests require that we maintain certain infrastructures for 
competitive advantage on the global marketplace, particularly 
if that competitive advantage promotes our national security 
interests like liberation and risk management through a major 
position on the global marketplace as the supplier.
    That never gets factored in the decisions relative to 
nuclear energy versus national security--at least they haven't 
been since the Atoms for Peace Initiative, for example. What 
has been factored into competitiveness of our nuclear industry 
is issues related to proliferation. We stopped reprocessing 
because of the belief that if we did, everybody else would, and 
that didn't happen. We have made other decisions relative to 
trade barriers and expert controls that have limited our 
ability. In fact, these decisions resulted in reasons for 
Westinghouse and others to move offshore.
    Anybody on the panel can correct me if I am a little bit 
off base on some of this, but the reality is we have got to 
look at our nuclear industry like we look at our submarine 
manufacturing industry. We have got to look at it from the 
perspective of, it has got to promote our national interests 
relative to the national security parts that it plays. And in 
the past we have burdened commercial industry with basically 
promoting our national security interests, and we have either 
put barriers in place or removed the enablers that allowed them 
to do it in the beginning of the nuclear age, the first nuclear 
age.
    And that is a difficult thing to get your arms around, but 
I think it is necessary in the future. I think the America 
COMPETES Act is probably a step forward in that area that at 
least recognizes there is certain areas of our domestic 
enterprise where we have to be able to compete. If we have to 
develop our aluminum, steel, and concrete resources. We have to 
recognize that in 2004, China imported half the world's cement 
in the world. We have got to be able to compete on that level 
also. We have got to be able to compete and start redeveloping 
some of our own resources.
    Mr. Baird. Thank you, Dr. Sanders.
    Mr. Rohrabacher.

                     Submarine Reactors and mPower

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just note that after Three Mile Island the hysteria created by 
that incident caused huge regulatory costs and extra road 
blocks that were put in the way of this industry because our 
regulators were responding to the hysteria along with the 
population. So there was a huge cost, and it wasn't just 
penciled out in terms of what they--what it would do for 
economics because quite often these decisions are affected by 
things that are not just economics, not just what the bottom 
line is.
    Let me ask about some of these various things. Now, why--we 
have submarines, we have ships, but submarines with nuclear 
reactors on it. How are those reactors different than the new 
reactor that you are suggesting, because that--are they light 
water reactors as well on the submarines?
    Mr. Mowry. Well, the mPower reactor that B&W is developing, 
its heritage comes from commercial nuclear ships because you 
are trying to solve a different problem here. You are trying to 
create an economically-viable product that can plug into the 
industry base, you know, that it--so it is a totally 
different----
    Mr. Rohrabacher. But we already are producing small nuclear 
reactors. Has to be if we have nuclear submarines. I mean, 
these are not----
    Mr. Mowry. Well, B&W has a distinct advantage that we have 
existing infrastructure in terms of facilities, manufacturing, 
infrastructure, engineers, manufacturing engineers that can be 
redeployed from the work we do with the government to this 
application.
    Mr. Rohrabacher. Yeah.
    Mr. Mowry. But, again, this gets back to the cost 
effectiveness. We need to focus on a cost-effective solution, 
and that is a different problem that you are trying to solve 
than the problem you are trying to solve when you do work for 
the government in these other areas that you mentioned.
    Mr. Rohrabacher. Do you have--with your small reactor, now, 
I have studied this--the one that General Atomics has put 
before me, and is the one that you are advocating--is your 
configuration, does it have leftover plutonium and reprocessing 
requirements? Or is that----
    Mr. Mowry. It uses the conventional fuel infrastructure and 
fuel supply chain that is out there today because that is a 
requirement of industry for any near-term deployment of SMRs.

                           Fission vs. Fusion

    Mr. Rohrabacher. Got it. Now, yours is much further down 
the line obviously, and the General Atomics small reactor is 
supposedly not going to have the proliferation problems, left 
over plutonium, or require word processing, but they are not--
you seem to be ready. They are a few years down the line.
    It would be--if we permit the Chinese to become the 
nuclear, the builders of nuclear power reactors, we are going 
to have both safety problems but also major proliferation 
problems. So had better address these issues that are being 
raised right now, and let me ask, do any of you know--now, we 
are all talking about fission. All of these small reactors that 
we are talking about, whether it is a gas-cooled reactor or the 
reactor that you are talking about, are fission reactors. Is 
that right?
    Well, how much--have we been putting the necessary research 
dollars or Department of Energy into fission as compared to 
fusion? What--do any of you know that answer?
    Yes.
    Dr. Sanders. I am the non-technical one here, but I will 
try to answer. The best we can see is that fusion reactors from 
an economical point of view because of the inherently difficult 
technology are at least a generation away or further, and I am 
not sure that putting in dramatically more research dollars 
into right now would accelerate that dramatically.
    Mr. Rohrabacher. Oh, I agree with you, but as we are 
spending the money now, we are spending a lot of money on 
fusion research. Are we spending money on fission research as 
well?
    Dr. Peters. Maybe I can take a shot at that----
    Mr. Rohrabacher. Yes.
    Dr. Peters. --Congressman. So the fission-related research 
is what we have been talking about, what Dr. Miller talked 
about.
    Mr. Rohrabacher. Right.
    Dr. Peters. So in Department of Energy it is funded 
primarily by the Office of Nuclear Energy. There is fusion 
research going on in the Department of Energy that is primarily 
funded by the Office of Science.
    Mr. Rohrabacher. Okay.
    Dr. Peters. And so that includes participation in ITER.
    Mr. Rohrabacher. I am just thinking in terms of overall 
spending.
    Dr. Peters. Right.
    Mr. Rohrabacher. It seems to me that what we are talking 
about is something that has a potential, as we have a company 
here who has got a potential right now, and other companies 
that are stepping forward and saying we have got potential in a 
couple of years down the line as compared to fusion which I 
have never met a scientist who has told me that we are going to 
be able--we can guarantee you that we are going to be able to 
build one of these plants ten years from now, and we will have 
fusion.
    So thus it would seem to me that it would be--we should 
be--research dollars should be focused on what we can actually 
accomplish rather than what potentially we can't accomplish.
    Dr. Peters. Certainly in the applied programs but I would 
argue there is fundamental science that one needs to do that 
the Department of Energy's Office of Science focuses----
    Mr. Rohrabacher. Uh-huh.
    Dr. Peters. --around fusion that is important. People still 
talk about the promise of fusion. There is a lot of barriers 
that involve materials and other barriers that we have to 
tackle and that requires science. So I would argue there is 
still need for investment, but the timelines for fusion versus 
fission are much different.
    Mr. Rohrabacher. Yes. That is correct. Well, I am going to 
look into that myself. In fact, I will be asking for the record 
to find out exactly how much money we are spending on fission 
research that would help the small modular reactors as compared 
to money that we are spending on fusion research that may never 
be put into practice.

                   Expediting Technology Development

    We--one of the factors that seems to be coming up here and 
when we are talking about the activities, research activities, 
are we talking about research activities that is developing new 
technology or research activities that will permit us to set 
standards and have--and help along the permitting process? What 
are we talking about here?
    Dr. Peters. In fact, I would say the answer is probably 
yes. It is both. If you look at the roadmap, some components of 
it would include providing technical basis to the regulatory 
framework, for example, and the NRC themselves actually invest 
research dollars in this to do this as well.
    But then a lot of what I was talking about with the fuel 
cycles really ultimately focused on technology development and 
commercialization.
    Mr. Rohrabacher. Well, isn't it time that we should be 
making up our mind and moving forward and I like this idea 
where we had some ideas about putting this on existing sites so 
we could move forward quicker without having to go through ten 
years of the regulatory process, perhaps on military bases as 
well could offer that, Mr. Sanders?
    Dr. Sanders. Well, in fact, I think you are exactly right. 
The issue here is the Valley of Death between good research and 
commercial applications in a lot of these activities. I would 
like to remind everybody we operated liquid metal cool fast 
reactors for 40 years in this country and never have taken the 
opportunity to transfer that technology to the commercial 
sector.
    So there is this Valley of Death issue between good 
research and commercial applications, and our recommendation to 
DOE is to figure out how to do that. Basically it is a public-
private partnership with the public side assuming more of the 
risk in the beginning of the phase, and the private side taking 
over the situation when the risk has been reduced through good 
technology development.
    Mr. Rohrabacher. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Baird. Chairman Gordon has joined us. Mr. Chairman, did 
you have any questions you want to ask at this point?
    Chairman Gordon. No. I think you should go ahead.
    Mr. Baird. Okay. I will briefly make--we have had a chance 
to go through all the Members, but I will--I have one or two 
quick questions.
    On the economic side, you know, in the realm of other 
alternative energies, one of the things we hear about is things 
like feed-in tariffs or guaranteed marketplace, et cetera. None 
of you have talked about that kind of approach as a methodology 
for stimulating the development of plants. We talk about loan 
guarantees, et cetera, but what about marketing, you know, some 
form of assurance that X--that maybe the government will buy X 
amount of energy produced by one of these plants.
    Any thoughts on that?
    Dr. Sanders. Yes, if I could. I think the issue is nuclear 
is once the unit is up and running and the power produces on a 
variable basis, it is very competitive with energy sources and 
really doesn't require feed-in tariffs. That is not the case 
for some of the sustainable resources that we are looking at 
right now that require feed-in tariffs. Our principle objective 
is to get the capital together to build the nuclear plant. Once 
it is up and running, its variable cost is relatively low and 
very competitive. The initial capital cost is very high and has 
been a major detriment in its development.
    Mr. Baird. And that is why the loan guarantees and things 
of that sort come in.
    Dr. Sanders. Correct.

                        Maintaining Competition

    Mr. Baird. One of the other questions is, you know, we have 
got a number of potential manufacturers. B&W is one, there are 
others, one actually, coincidentally, in Oregon, and several 
others. You know we are loathe to try to pick winners and 
losers, but at the same time stimulating competition can make 
sense.
    How do we do that? How do we make sure that different 
models, both perhaps the technological model of how the plant 
functions, but also the competitive business model, how do we 
find a way to make sure that the taxpayer dollars that go out 
to try to promote the industry in general create a healthy 
competition so there are multiple approaches, each of which may 
win in some fashion?
    Mr. Mowry, I would appreciate your thoughts on that.
    Mr. Mowry. Well, I think first of all, and I think you are 
right on in terms of what the ultimate goal is. You want to 
have an investment that ultimately yields success, and I think 
you need to let the marketplace vote. So we would advocate that 
this public, private partnership, a program that Dr. Miller 
talked about earlier today, the partnership on the industry 
side needs to be not just with a supplier like ourselves, but 
it needs to be with a group of utilities that will ultimately 
deploy that technology after the demonstration plant has been 
built, because unless you have that type of assurance that 
there is committed interest by ultimate users, you will never 
have assurance that the demonstration plant and the 
demonstration of that technology just won't end after the 
demonstration.
    So a partnership has to include the ultimate users in the 
marketplace.
    Mr. Baird. Does that then put the manufacturers of the SMRs 
in some relationship of--you are then trying to sell your 
partnership with the utility as would some of your competitors? 
In other words----
    Mr. Mowry. It would be incumbent upon each technology 
developer such as ourselves to convince the user marketplace 
that our technology, if demonstrated in a partnership, is 
something that they would want to deploy in a market-based 
environment. Otherwise you are spending money on something that 
may not ultimately help the Nation in terms of electric 
generation.
    Mr. Baird. Other comments on that?
    Dr. Sanders. Yes. I would have to disagree with Mr. Mowry 
on this in that one of the major problems for investors in the 
'80s and '70s was the multiplicity of designs and their 
inability to determine what was better overall. We actually 
need some sort of a bake off done by the government and the 
standardization so that investors are not constantly trying to 
rediscover technologies that they are not comfortable with and 
invest in multiple different uses of small nuclear 
technologies, each one requiring a new learning curve, making 
it more difficult for them to invest their money into.
    Mr. Rohrabacher. Mark Twain--thank you, Mr. Chairman. Mark 
Twain once said, ``Put all of your eggs in one basket and then 
watch that basket,'' and so there are several different 
approaches to that, and I am not sure Mark Twain really knew 
what he was talking about, but I do remember the quote.
    Mr. Baird. Dr. Sanders.
    Dr. Sanders. Well, I would like to point out, though, that 
there are different goals and different markets. If you are 
promoting a particular technology in the national interest that 
wants to eliminate the need to refuel, you may go with a 
different technology, and that is driven by a different market. 
It is driven by a market that is looking out for national 
security interest for export, for example.
    That is just one example. If it is for DOD applications for 
bases or, you know, to assure energy independence on a DOD 
base, either forward or local or in Guam, for example, there is 
different requirements that might drive you to a different type 
of technology.
    So I don't like to close the package, the basket. I like 
more eggs in that basket because there is no single egg that 
can accomplish all of those objectives when you look at them 
across the board.
    Mr. Baird. Would it make sense, though, I think these are 
excellent points. Would it make sense then, though, as we are 
looking at this--as we look at any form of government subsidy 
to in some way--and then perhaps I missed it. I don't know that 
this does address that that well.
    But does it make sense to perhaps categorize some of the 
potential types of applications and then make the competition 
within those categories. Take the DOT. If you look at what it 
costs us to ship fuel into Afghanistan, it is a horrifying 
number. It is breaking our bank and dangerous as all heck.
    A modular nuclear system that could somehow power the city 
and power our forced there might be one application. Export 
applications that don't have--does it make sense then as we 
look at subsidies to--maybe there is one group that is for 
domestics, augmentation of existing power supplies. Would that 
makes sense to categorize that in some fashion?
    Dr. Sanders. Absolutely. Absolutely, and you are 
categorizing according to different markets----
    Mr. Baird. Right.
    Dr. Sanders. --basically.
    Mr. Baird. And different applications.
    Dr. Sanders. Different applications. Applications--we spend 
a lot of money on summary and reactors. No doubt, but they have 
a different performance requirement. No doubt. They are a 
combat situation, and you would never put one of those in a 
domestic application then force civilian nuclear industry to 
pick that egg out of the basket. You could never compete, and 
we need to recognize that.
    For exports to developing nations, we maybe want to 
something different, something we don't have to refuel but 
every 10 or 20 years. They can sit there for awhile. If we want 
to solve the solution and make energy out of Army garbage in 
Kabul or Baghdad, you are going to go to a high temperature 
system, very high temperature system able to convert that 
garbage at some price. It will never compete with gasoline at 
$4 but $150 a gallon, which is what I think a gallon of gas 
costs in Baghdad, you have got a different market situation.
    Mr. Baird. I want to make sure we recognize the Chairman. 
The buzzers you heard, we are both being called. Before I 
recognize the Chairman, though, I just have to engage in a 
brief conversation with my friend, Mr. Rohrabacher, who is a 
dear friend, quite sincerely.
    Mr. Rohrabacher. I am about to be refuted again.
    Mr. Baird. No, no. What I will just observe that several 
months ago on the Energy and Environment Subcommittee, we had a 
lengthy hearing about the role of social and behavioral 
sciences in our energy system, and just for the record I would 
observe that multiple occasions today Mr. Rohrabacher has 
talked about hysteria causing increased costs in our energy 
approach to nuclear power. Hysteria is a psychological 
diagnosis. So maybe Mr. Rohrabacher has become a convert to the 
importance of social and behavioral sciences in our energy 
picture.
    I recognize the Chairman, Mr. Gordon.
    Chairman Gordon. Thank you, Chairman Baird, for a good 
hearing today. I am looking forward to reviewing it on our 
website. I know that Mr. Rohrabacher wants to run over to the 
capitol and vote for the America COMPETES bill, so I don't want 
to take up much time.
    I would like to ask the witnesses this in all seriousness. 
We are going to get out a reauthorization. We want to get out a 
good reauthorization. This record will remain open for a few 
days. I would hope that you would get back to us any 
recommendations concerning that reauthorization, areas that you 
think that should be covered and research concerning design, 
reprocessing, storage, or other areas. I hope you would do 
that.
    The other area that I would be interested in knowing, this 
is expensive, and I know that we have got some international 
efforts going on with the G4 nuclear reactor. I would like to 
get your thoughts on how you think that is going, and anything 
that we might need to do to encourage it to go a different way. 
So, again, thank you for your time. Thanks for the good 
hearing, and I yield back the balance of my time.
    Mr. Baird. Thank the Chairman and as soon as I find the 
appropriate closing remarks--essentially what I would like to 
say is thank you to the gentlemen for their testimony, and the 
record customarily will be open for I believe it is two weeks 
for additional comments, and with that the hearing stands 
adjourned and with gratitude to our witnesses.
    [Whereupon, at 12:17 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Warren P. Miller, Assistant Secretary, Office of 
        Nuclear Energy, U.S. Department of Energy

Questions submitted by Chairman Bart Gordon

Q1.  One of the more exciting policy provisions in the Roadmap is the 
heavy emphasis on Small Modular Reactors (SMR) technology. Your 
testimony indicates that SMRs could achieve both lower capital costs 
and simplify the construction process.

        a.  Should the Federal government conduct a Federal 
        demonstration program for SMR technology?

        b.  What is the appropriate scale for a demonstration program 
        to prove small modular reactor technology, reduce the 
        technology risk, and encourage mobilization of private capital?

A1a. The Office of Nuclear Energy (NE) is formulating an SMR program in 
FY 2011 that will be informed by a workshop that was held in June 2010. 
Light water reactor-based SMR technology is familiar and well 
characterized, and the safety systems and regulatory framework are well 
understood by the Nuclear Regulatory Commission (NRC); we see no need 
for a near-term federally-funded demonstration project.
    As we evaluate opportunities and determine the most appropriate 
activities for the program in the context of the most effective and 
appropriate federal role, we will be considering the research and 
development needs, particularly of advanced SMR designs like metal and 
gas-cooled fast reactor technologies. Because these designs are less 
well characterized and have little or no domestic commercial history, 
there are a range of research and development activities that would 
likely be appropriate for NE to support. We will not be undertaking a 
demonstration project in the near-term for these advanced designs and 
future activities, if any, related to advanced SMRs will be evaluated 
and reviewed along with all other priorities in future budget 
development processes.

A1b. As noted above, proven and commercialized LWR technology does not 
require a demonstration program. Advanced, non-LWR technologies are 
still in the R&D phase and no demonstrations are planned.

Q2.  Should the United States be reprocessing nuclear waste using 
current methods or should we focus on developing more advanced methods 
first? Is the Administration's Roadmap consistent with your 
recommendation?

A2. The Fuel Cycle Research and Development program is focusing on 
developing more advanced methods of reprocessing used nuclear fuel. 
Current methods, which are employed overseas, are expensive and have 
proliferation concerns, and it is likely that new technologies can 
reduce costs. It is also possible eventually to employ new technologies 
that would improve the environmental, safety, and nonproliferation 
impacts of current reprocessing methods. Since used nuclear fuel in the 
U.S. is currently being stored safely and can be for decades to come, 
we have ample time to conduct research and development on improved 
reprocessing technologies. We have no need to reprocess now using 
current methods.
    The Administration's Nuclear Energy Research & Development Roadmap 
is consistent with this approach. Objective 3, ``Develop Sustainable 
Nuclear Fuel Cycles,'' seeks to ``develop a suite of options that will 
enable future decision makers to make informed choices about how best 
to manage the used fuel from reactors'' (page 27). This approach will 
work to understand what can be accomplished and then to develop the 
most promising technologies (page 29).

Q3.  There is indication that the non-Federal cost share has presented 
a high hurdle for private involvement in the Next Generation Nuclear 
Plant Project. Could you please give a brief overview of the issues 
currently complicating smooth development of this program and plant?

A3. The Department of Energy has actively engaged with industry from 
the inception of the Next Generation Nuclear Plant (NGNP) Project to 
ensure that this technology will be aligned with commercial needs. Our 
research and development activities as well as development of licensing 
requirements are progressing. Results are expected to be reviewed by 
the Nuclear Energy Advisory Committee, and the Committee will advise 
the Secretary on whether to proceed with Phase 2. Phase 2 challenges, 
as identified by various vendors and potential end-users, pertain to 
the high level of cost and economic risk associated with the deployment 
of gas reactor technology. Specific areas of concern that have been 
raised by industry include the value of constructing the reactor at the 
Idaho National Laboratory versus at an actual industrial location and 
the importance of having the design and licensing process result in a 
certified design for use at multiple locations. Industry also has 
stated that the government should fund the upfront demonstration costs. 
Their proposal is in conflict with cost-share requirements and does not 
reflect the proper federal role in this project.

Q4.  How seamless is the integration between the Office of Nuclear 
Energy and the Office of Science on related issues? For example, what 
steps will be taken to coordinate efforts between programs on such 
issues as advanced nuclear materials and reactor design and simulation 
and what role will the Nuclear Energy Enabling Technologies program 
play in this coordination?

A4. There is a seamless integration of information between the Office 
of Nuclear Energy (NE) and the Office of Science (SC) in a variety of 
areas. Coordination efforts between the two programs in the areas of 
advanced nuclear materials, reactor design, and modeling and simulation 
include:

        <bullet>  Advanced Nuclear Materials: SC's three Energy 
        Frontier Research Centers addressing materials performance 
        under irradiation are directly connected to NE-funded materials 
        research.

        <bullet>  Reactor Design: NE-funded researchers use the Argonne 
        National Laboratory computer to simulate the neutronics of a 
        full fast reactor core, making extensive use of SC and National 
        Nuclear Security Administration (NNSA)-developed software.

        <bullet>  Modeling and Simulation: Strategically, NE's Modeling 
        and Simulation Hub for Nuclear Reactors demonstrates the high 
        level of cooperation between the two programs. The Department's 
        Hubs are large, multidisciplinary, highly-collaborative teams 
        of scientists and engineers working over a long time frame to 
        achieve a specific high-priority goal, such as developing fuels 
        from sunlight in an economical way and making buildings more 
        energy efficient. SC provides capabilities that NE leverages 
        within the NE Hub for R&D funded by other parts of the 
        Department.

        <bullet>  The role of the Nuclear Energy Enabling Technologies 
        (NEET) program, which is proposed for fiscal year 2011, would 
        be to serve as a focal point for coordinating stakeholder input 
        of commonly-themed R&D across the DOE complex. A core aspect of 
        the NEET program would be successful collaboration with NNSA 
        and SC through peer-to-peer discussions, joint meetings, review 
        of research proposals, and sharing of scientific and 
        engineering resources at the national laboratories. As the NEET 
        program progressed, NE would expect to increase the 
        opportunities for collaboration with the Office of Science and 
        other DOE offices.

Q5.  The Roadmap mentions thorium as a possible fuel source. Given our 
national stockpiles of depleted uranium and our limited thorium 
resources, why should we be examining thorium?

A5. Objective 3 of the Nuclear Energy Research and Development Roadmap, 
``Develop Sustainable Nuclear Fuel Cycles,'' seeks to ``develop a suite 
of options that will enable future decision makers to make informed 
choices about how best to manage the used fuel from reactors'' (page 
27). The Fuel Cycle Research and Development program is examining 
thorium because it may prove to be part of a sustainable fuel cycle 
option in the long term. While we agree that there is a significant 
uranium resource available and there is no foreseeable need for 
thorium, we believe a limited review of thorium options would help 
provide a more complete examination of fuel cycle technologies and 
options. Thorium research will be a small portion of the overall 
portfolio.
    Although depleted uranium stockpiles are abundant and more readily 
available, the United States also has large natural reserves of 
thorium. In addition to fuel resource availability considerations, 
advanced thorium fuels could provide improved fuel performance and 
increased resource utilization using thermal spectrum reactor systems. 
The benefits, along with the challenges, associated with the use of 
thorium will be taken into account as we evaluate particular 
technologies and integrated fuel cycle system options within our Fuel 
Cycle Research and Development program.

Questions submitted by Representative Ralph M. Hall

Q1.  The Committee received written testimony from NuScale Power 
stating that a Federally-funded small, modular reactor (SMR) 
demonstration project was not necessary to advance SMR licensing and 
commercialization and Federal funds should instead be focused on 
assisting in support for first-of-a-kind applications for design 
certification, construction, and operating licenses.

        a.  Please provide DOE's position regarding the necessity of a 
        Federally-supported SMR demonstration project. Is DOE planning 
        to support such a demonstration project?

        b.  If so, what would it cost, and what does DOE propose should 
        be the appropriate Federal/industry cost share?

A1a. For the SMR reactor technologies that are closest to 
commercialization, specifically the light water-based reactor 
technologies, the Department agrees with NuScale that a Federally 
funded demonstration project is not necessary for proving the 
technology. These designs are relatively mature and are well-
characterized with respect to the existing NRC regulatory framework as 
the light water-based designs are very similar to the existing fleet of 
commercial reactors. The Department is not planning to support a 
demonstration project for these technologies. The more advanced reactor 
designs such as liquid metal, liquid salt, and gas-cooled fast reactor 
technologies are less well characterized and have little or no domestic 
commercial history and therefore more research and development is 
needed.

A1b. No demonstration projects are envisioned. All demonstrations would 
subject to the cost-share requirements in section 988 of the 2005 
Energy Policy Act. Projects would be funded by DOE at no more than 50 
percent of the total cost.

Q2.  What is your reaction to concerns that an SMR demonstration could 
result in the Federal government ``picking winners and losers'' among 
competing technologies, resulting in reduced incentives for private 
sector investments in ``losing'' technologies and designs?

A2. In general, the future electricity needs will be met with a mix of 
technologies and this mix will be determined by industry based on a 
variety of factors. Any demonstration project inherently gives the 
chosen technology some type of advantage over its competitors. However, 
DOE's SMR efforts will be designed and executed in a manner that works 
within existing market mechanisms and there are no plans for SMR 
demonstration projects.

Q3.  It was noted during the hearing that the cost-competitiveness of 
nuclear energy would suffer in the absence of regulations to increase 
the cost of carbon-based electricity and given expected sustained low 
prices for natural gas.


        <bullet>  How might industry and Federal priorities--
        particularly with respect to research and development--change 
        if both of these barriers remain in place over an extended 
        period of time?

A3. The absence of a carbon policy and the expectation of low natural 
gas prices could impact long-term R&D priorities for nuclear energy. 
However, the portfolio of nuclear R&D planned in the FY 2011 Budget 
strikes an appropriate balance to help provide the flexibility and 
information needed to inform future decisions and resource 
prioritization. Such future decisions will be made considering an array 
of factors, including economic and technical concerns as well as public 
benefit, federal role, and cost considerations.

Questions submitted by Representative Judy Biggert

Q1.  How do SMRs compare to other types of advanced reactor designs 
being contemplated and pursued in the private sector, both in terms of 
economic potential as well as technical advantages and disadvantages?

A1. The near-term, light water reactor-based technologies being 
initially pursued by the industry and the Department are fundamentally 
the same as their larger counterparts in the current fleet of 
commercial reactors, and even closer in functional characteristics to 
the newly-designed Generation III+ reactors (e.g., AP1000, ABWR and 
ESBWR). The primary difference is the scale, which may lead to several 
operational and economic advantages. Realization of these advantages is 
not a given and will be dependent on a variety of factors.
    Compared with the Gen III reactors currently operating in the U.S., 
the SMR technologies being developed by industry today:

        <bullet>  Are smaller and, based on initial assumptions and 
        modeling done by industry, may be safer with much lower 
        predicted core damage frequency;

        <bullet>  May require no active response systems in post-
        accident conditions;

        <bullet>  May be less expensive to construct, operate and 
        maintain;

        <bullet>  May be able to be transported to the deployment site 
        by truck, rail or barge;

        <bullet>  Have the potential to supply remote areas with 
        appropriate electrical capacity; depending on market needs and 
        industry decisions; or

        <bullet>  Could be used to add new electrical capacity in 
        smaller increments to match demand growth depending on ultimate 
        cost, siting, market and other factors.

    Projected benefits for SMRs have not been proven, such as whether 
smaller plants can overcome the benefits of economies of scale. They of 
course still generate used nuclear fuel the same as existing plants. 
Certain elements of the electric output and the economics of SMRs could 
be considered to be disadvantages, depending on a specific utility's 
needs. For example, SMRs may not be cost-competitive as a replacement 
for large baseload capacity. They provide the same greenhouse gas 
avoidance as existing nuclear technologies, so there is not a net 
advantage in that respect.
    Some utilities and merchants have shown interest in SMRs, both 
domestically and internationally, as a potential solution for their 
energy requirements. Issues such as water limits and using nuclear as a 
low-carbon option for replacing aging fossil plants help make SMRs an 
increasingly attractive option.
    The advanced metal, gas, and molten-salt cooled SMR designs are 
also similar to the advanced sodium and gas-cooled designs being 
pursued under Nuclear Energy programs such as the GEN IV and Next 
Generation Nuclear Plant (NGNP), and may offer some of the same 
technical and economic advantages discussed above.
    These advanced SMR designs are, however, much farther from 
deployment readiness.

Q2.  Given that the market and regulatory system can support only a 
limited number of reactor design types, is there any concern that going 
forward with SMR demonstration and licensing impact the viability of 
other advanced reactor types?

A2. Future electricity demand will be met by a mix of technologies. 
That mix will be determined by industry based on a variety of factors 
and nuclear, regardless of the design, will have to compete in that 
mix. Any demonstration project inherently gives the chosen technology 
some type of advantage over its competitors. There are no demonstration 
projects planned for LWR or advanced SMR designs.
    In order to be successful SMRs would need to have their own 
commercial niche that would be borne out as customers emerge to partner 
with SMR vendors to meet specific technical, economic, and electrical 
load growth needs. For example, SMRs may allow the nuclear power option 
to be viable for customers or applications with power requirements or 
financial constraints that preclude the use of the larger plants. 
Larger nuclear plants are expected to maintain their market niche, 
particularly where there is a need for baseload power and where the 
grid and water resources can accommodate a large plant. We also 
recognize that, in the future, it could be possible to deploy several 
SMRs at a single site to create the equivalent output of a larger 
plant.
                   Answers to Post-Hearing Questions
Responses by Mr. Christofer Mowry, President and CEO, Babcock & Wilcox 
        Nuclear Energy, Inc.

Questions submitted by Chairman Bart Gordon

Q1.  You indicated that your SMR design would be manufactured in the 
United States and supported by a ``North American supply chain 
including all forgings.''

     How will SMR technology be able to keep the supply chain entirely 
domestic if we have been unable to do so with large reactors?

     Could SMRs become a new American export?

A1. The B&W mPower<SUP>TM</SUP> reactor design is specifically designed 
to use a North American supply chain, and to be manufactured at 
existing B&W nuclear manufacturing facilities in Ohio, Indiana, 
Virginia, Tennessee, and Ontario, Canada. Large, gigawatt-sized 
reactors are unable to be 100% domestically sourced because they 
require ultra-heavy (>350 tons) forgings which are currently not 
available in the United States. Due to the size and modularity of the 
B&W mPower reactor, it does not require ultra-heavy forgings and can 
therefore be sourced from existing forging suppliers in the United 
States and manufactured at B&W facilities.
    SMRs represent significant potential for American exports, once a 
first-of-a-kind plant is certified, licensed and deployed in the United 
States. The B&W mPower module is designed to be factory assembled and 
shipped to a plant site via rail as a finished unit. Due to this 
modularity and shippability, as well as the reactor's North American 
supply chain and air-cooled plant design, there is ongoing interest in 
international markets. This is particularly relevant in countries where 
cost, accessibility, water availability and grid capacity make larger 
reactors impractical.

Q2.  NuScale Power in its testimony suggested that a federally funded 
``demonstration facility'' is not necessary. Should the Federal 
Government conduct a Federal demonstration program for SMR technology? 
What is the appropriate scale for a demonstration program to prove 
small reactor technology, reduce the technology risk, and encourage 
mobilization of private capital? Could you please provide comment on 
private interest you are aware of in a demonstration plant?

A2. B&W supports a demonstration program to support near-term 
development and deployment of SMR technology through public-private 
partnership to share the costs of design, design certification, site 
licensing and final engineering. However, Federal Government funding of 
construction of a facility is not expected or necessary. While light 
water SMRs take advantage of proven technology and decades of 
operational experience, unique risks are inherent in being a technology 
``first-mover''. Government cooperation through cost-sharing is 
essential to realistically address the licensing and schedule risks 
inherent in such first-of-a-kind projects. A public-private partnership 
between government and industry would share the risks and benefits of 
deploying a ``first-of-class'' practical SMR before the end of this 
decade. It would provide a realistic mechanism to accomplish the 
following broader set of National objectives for the U.S. energy 
infrastructure:

        <bullet>  Regain U.S. leadership position in the global 
        commercial nuclear power industry,

        <bullet>  Create significant high-quality U.S. manufacturing, 
        construction and engineering jobs,

        <bullet>  Provide carbon-free power generation, and

        <bullet>  Provide a practical baseload clean-power option for 
        DOD applications, aging fossil plant sites, and remote or 
        isolated locations.

    In 1957, the first commercial nuclear power plant at Shippingport, 
PA achieved full power operation, the result of a partnership between 
the Atomic Energy Commission and Duquesne Light Company. This 
cooperation between industry and government set in motion the 
development of the U.S. commercial nuclear industry. Our government's 
investment in this first-of-a-kind technology more than 50 years ago 
provided lasting and significant value to the Nation. A new public-
private partnership to share the costs of design, design certification, 
site licensing and final engineering will enable the U.S. to 
demonstrate the promise which SMR technology holds for our energy 
industry by the end of this decade.
    To this end, the estimated total funding requirements for a single 
SMR reactor are:

        <bullet>  To complete design work and obtain design 
        certification--$320M

        <bullet>  To obtain a combined operating license--$80M

        <bullet>  To complete detailed final design to prepare an 
        Engineering, Procurement, and Construction contract for the 
        initial SMR deployment--$325M

    We believe the appropriate Federal/industry cost-share for these 
activities would be 50%/50%.
    It is essential that the utility industry be fully engaged in such 
a program to ensure that the result is an SMR plant that utilities are 
likely to construct and operate in quantity, and that can achieve 
commercial financial viability without long-term Federal support. This 
first-of-a-kind plant should therefore be developed in partnership with 
the Federal Government and constructed, owned and operated by a U.S. 
utility, with construction costs borne by the utility customer, rather 
than by the U.S. government. In this way, government and industry can 
share the risks and benefits of developing the first SMR plants for 
deployment by the end of this decade.
    We have developed a B&W mPower Consortium made up of B&W and 
leading U.S. utilities, including the Tennessee Valley Authority, First 
Energy and Oglethorpe Power Corporation. The Consortium is dedicated to 
addressing the proper regulatory framework, design requirements, and 
licensing infrastructure necessary to support the commercialization of 
the B&W mPower reactor. The ultimate goal of the Consortium is to 
deploy one or more demonstration plants in the U.S. by 2020, if not 
earlier.

Questions submitted by Representative Ralph M. Hall

Q1.  You recommend in your testimony that DOE increase its support for 
design certification and long-term R&D from $39 million to $55 million 
in fiscal year 2011. What specific activities do you believe the 
additional $16 million should support?

A1. The DOE's Fiscal Year (FY) 2011 budget request includes $39 million 
for the SMR program, of which approximately half is expected to be 
dedicated to a cost-sharing program for design certification of up to 
two light water SMR designs, with the remaining half used for R&D 
activities for longer-term, non-light water technologies. While this 
budget request is on the right track, it is not aggressive enough to 
support the deployment of SMRs by the end of the decade. To meet this 
goal, we recommend that the funding for the SMR program be increased to 
$55 million in FY 2011, with $35 million dedicated to the cost-sharing 
program for up to 2 light water SMR designs. This funding would be used 
for cost-sharing of development and design activities leading to design 
certification no later that 2016, to help support deployment by 2020.

Q2.  The Committee received written testimony from NuScale Power 
stating that a federally funded small, modular reactor (SMR) 
demonstration project was not necessary to advance SMR licensing and 
commercialization and Federal funds should instead be focused on 
assisting in support for first of a kind applications for design 
certification, construction and operating licenses.

     Please provide B& W's reaction to this position regarding the 
necessity of a federally-supported SMR demonstration project.

     If such a demonstration project were to go forward, what would it 
cost, and what would be the appropriate Federal/industry cost-share?

A2. B&W supports a demonstration program to support near-term 
development and deployment of SMR technology through public-private 
partnership to share the costs of design, design certification, site 
licensing and final engineering. However, Federal Government funding of 
construction of a facility is not expected or necessary. While light 
water SMRs take advantage of proven technology and decades of 
operational experience, unique risks are inherent in being a technology 
``first-mover''. Government cooperation through cost-sharing is 
essential to realistically address the licensing and schedule risks 
inherent in such first-of-a-kind projects. A public-private partnership 
between government and industry would share the risks and benefits of 
deploying a ``first-of-class'' practical SMR before the end of this 
decade. It would provide a realistic mechanism to accomplish the 
following broader set of National objectives for the U.S. energy 
infrastructure:

        <bullet>  Regain U.S. leadership position in the global 
        commercial nuclear power industry,

        <bullet>  Create significant high-quality U.S. manufacturing, 
        construction and engineering jobs,

        <bullet>  Provide carbon-free power generation, and

        <bullet>  Provide a practical baseload clean-power option for 
        DOD applications, aging fossil plant sites, and remote or 
        isolated locations.

    In 1957, the first commercial nuclear power plant at Shippingport, 
PA achieved full power operation, the result of a partnership between 
the Atomic Energy Commission and Duquesne Light Company. This 
cooperation between industry and government set in motion the 
development of the U.S. commercial nuclear industry. Our government's 
investment in this first-of-a-kind technology more than 50 years ago 
provided lasting and significant value to the Nation. A new public-
private partnership to share the costs of design, design certification, 
site licensing and final engineering will enable the U.S. to 
demonstrate the promise which SMR technology holds for our energy 
industry by the end of this decade.
    To this end, the estimated total funding requirements for a single 
SMR reactor are:

        <bullet>  To complete design work and obtain design 
        certification--$320M

        <bullet>  To obtain a combined operating license--$80M

        <bullet>  To complete detailed final design to prepare an 
        Engineering, Procurement, and Construction contract for the 
        initial SMR deployment--$325M

    We believe the appropriate Federal/industry cost-share for these 
activities would be 50%/50%.
    It is essential that the utility industry be fully engaged in such 
a program to ensure that the result is an SMR plant that utilities are 
likely to construct and operate in quantity, and that can achieve 
commercial financial viability without long-term Federal support. This 
first-of-a-kind plant should therefore be developed in partnership with 
the Federal Government and constructed, owned and operated by a U.S. 
utility, with construction costs borne by the utility customer, rather 
than by the U.S. government. In this way, government and industry can 
share the risks and benefits of developing the first SMR plants for 
deployment by the end of this decade.
                   Answers to Post-Hearing Questions
Responses by Dr. Charles Ferguson, President, Federation of American 
        Scientists

Questions submitted by Chairman Bart Gordon

Q1.  Dr. Ferguson, your testimony notes the advantage that India and 
China currently have in the Small Modular Reactor market and that they 
are preparing to sell reactors to foreign nations and into developing 
markets. You also mention the technology that those nations seek to 
export may be more prone to proliferation and use for a weapons 
program.

        a.  Would you suggest this is a reason to develop SMR 
        technology in the U.S.?

A1a. I think the United States should encourage further international 
competition in SMR technology, including development within the United 
States. While China is moving ahead with selling two more medium power 
reactors to Pakistan, it is important to recognize that this action 
likely stems from China trying to support its traditional ally Pakistan 
and bring back into balance the relationship Pakistan has with India in 
response to the U.S.-India civilian nuclear deal. The proliferation 
concern is that China is rewarding Pakistan, a country that has a 
history of not being able to control of nuclear technologies, in 
particular, A. Q. Khan's nuclear black market. The Chinese reactors 
themselves are not necessarily proliferation-prone as long as adequate 
safeguards are in place. Aside from China's deal with Pakistan, it 
remains uncertain that China will sell more small or medium sized 
reactors. Similarly, while India's nuclear industry has expressed some 
interest in selling small pressurized heavy water reactors, which are 
proliferation prone, India may not be ready to make such sells in the 
near term because it is focused on its domestic nuclear power 
development. Thus, the United States and other potential suppliers of 
more proliferation-resistant SMRs may have the opportunity to compete 
successfully with China and India.

        b.  Would U.S. development of SMR technology set a safety 
        standard by which all others competitors are measured or would 
        cheaper options likely be developed and deployed 
        internationally?

A1b. Setting a safety and security (including proliferation-resistance) 
standard for SMR technology would appear to require: (1) demonstration 
of one or more SMR designs with enhanced safety and security features, 
(2) U.S. leadership within the International Atomic Energy Agency for 
an assessment of all small and medium power reactor designs on the 
basis of safety and security, and (3) U.S. leadership within the 
Nuclear Suppliers Group to encourage suppliers to only supply reactors 
with enhanced safety and security features. Under the theme of 
leadership by example, the United States can and should take the lead 
in demonstrating SMR technology. Concerning the cost of safe and secure 
SMRs versus competitors' designs, many factors determine cost. While a 
less safe and secure reactor may appear cheaper in terms of initial 
capital costs, a safer and more secure reactor may in the long term 
offer advantages in that (1) the much lower probability of an accident 
would lower costs related to the consequences of an accident, (2) more 
proliferation-resistant fuels would likely be more fuel efficient and 
thus save money, and (3) more proliferation-resistant SMRS would likely 
require fewer refueling or provide a lifetime core and thus likely 
result in lower costs in terms of transportation of fuel and reactor 
downtime.

Q2.  Should the Federal Government conduct a Federal demonstration 
program for SMR technology? What is the appropriate scale for a 
demonstration program to prove small modular reactor technology, reduce 
the technology risk, and encourage mobilization of private capital?

A2. Yes, I think the time is ripe for the Federal Government to conduct 
a demonstration program. Utilities may be reluctant to purchase an SMR 
without seeing one demonstrated because the dominant paradigm is for 
large reactors. One demo option is for the Defense Department to 
purchase an SMR. While that would show the reactor in operation, such a 
plan may not satisfy the need to encourage mobilization of private 
capital. Another option is to demonstrate one or more SMRs in a 
location where the Federal Government has authority but also where the 
states and the commercial sectors have jurisdiction. One location that 
comes to mind is the Tennessee Valley Authority, which has a defense 
mission in its charter. The Oak Ridge National Laboratory with 
expertise in nuclear energy technologies may be the natural partner 
with TVA to demonstrate SMRs. The SMRs could provide electrical power 
to ORNL as well as the local communities. ORNL and the communities 
could share costs in paying for the electricity generated.

Q3.  You mention that small markets like Alaska and Hawaii may benefit 
most from SMRs and that this technology would be attractive to small 
markets with weak grids. But other panelists here suggest that SMRs and 
their ability to be ``stacked'' or used in tandem would make them a 
logical choice for scaled deployment of nuclear generation across the 
board. What is your response?

A3. I think this is not an either/or choice. As indicated in my written 
testimony, there may be considerable merit in stacking or building 
sequentially several SMRs at one location as long as there are economic 
advantages. The International Atomic Energy Agency study that I cited 
in the testimony suggests that four SMRs at one location could be 
stacked in such a way to be very cost competitive with one large power 
reactor with the equivalent amount of power of the four SMRs.
    Concerning communities in Alaska and Hawaii, the electricity 
markets at those locations are relatively small and thus may not be 
able to handle a large power reactor or several SMRs in a stacked 
configuration. Nonetheless, as long as one SMR is cost competitive with 
alternative energy choices, then those communities may find value in 
purchasing an SMR. Both Alaska and Hawaii rely significantly on fossil 
fuels for electricity generation. So, nuclear power could serve to 
reduce reliance on these greenhouse gas generating sources. Concerning 
reliance on oil for electricity generation, Hawaii has the highest 
dependency in the United States. Consequently, alternative electricity 
generation sources would help alleviate this dependency. In addition to 
considering nuclear power in the form of SMRs, Hawaii should examine 
increased use of geothermal and solar sources, which are ideal in 
Hawaii's location. A systems analysis would be useful for Hawaii in 
determining what combination of geothermal, nuclear, and solar sources 
are environmentally sound and cost competitive with fossil fuels.
                   Answers to Post-Hearing Questions
Responses by Dr. Mark Peters, Deputy Director for Programs, Argonne 
        National Lab

Questions submitted by Chairman Bart Gordon

Q1.  Dr. Peters, you have indicated that there are problems with the 
PUREX process of recycling currently available today, such as 
proliferation risks and an inability to perform multiple cycles and 
fully use nuclear fuel.

     Does the Roadmap as presented provide the resources necessary to 
research and develop the advanced reprocessing methods you list and 
potentially mitigate many of the problems with nuclear waste?

A1. The DOE Nuclear Energy R&D Roadmap provides a comprehensive vision 
for the research and development needed for advanced reprocessing and 
recycling technology development that will ultimately mitigate many of 
the challenges of nuclear waste management. The research and 
development approach described in the Roadmap, in particular the 
synergistic use of experiment, theory, and modeling and simulation, is 
a sound approach to enabling the required technologies.
    This said, the Roadmap needs a greater emphasis on coupling the 
science-based approach for system development with an active design and 
technology demonstration effort that would guide and appropriately 
focus research and development in this next decade to allow for 
advanced reprocessing and recycling technology demonstrations at 
engineering scale beginning circa 2020. These efforts would allow for 
fuel cycle demonstration in a timeframe that could influence the course 
of fuel cycle technology commercialization on a global basis.
    With an additional emphasis on timely demonstration of advanced 
technologies, the objectives of the Roadmap can be met in a reasonable 
time frame if the appropriate priorities are identified and sufficient 
funding is provided to allow acceleration of high priority areas. 
Current resources are not adequate to implement the required program 
through robust public-private partnerships involving the Department of 
Energy, its national laboratories, universities, and industry. The R&D 
and demonstration program needs sufficient resources and should be 
conducted with a sense of urgency and purpose consistent with the U.S. 
retaining its intellectual capital and leadership in the international 
nuclear energy community.
                   Answers to Post-Hearing Questions
Responses by Mr. Gary M. Krellenstein, Managing Director, Tax Exempt 
        Capital Markets, JP Morgan Chase & Co.

Questions submitted by Chairman Bart Gordon


Q1.  One of the concerns raised about SMR technology is that building 
out the necessary infrastructure will be too costly to justify 
deployment of an SMR. For instance, if a customer were to want to use a 
single 100 MW reactor and then slowly scale up to ten 100 MW reactors, 
they would still be required to build all of the surrounding 
infrastructure for the full complement of SMRs from the outset.

     Could you comment on this argument?

    When we build combustion turbine unit plants, which typically come 
in 50-150 MWe sizes, we usually start with one or two units and then 
add additional units as needed. If planned and sited correctly for 
potential additional generating expansion, only incremental 
improvements are likely to be needed for the remaining units since most 
of the infrastructure is needed for the first unit constructed. The 
capital costs for the first unit or two are often higher since items 
such as the road, switchyard, transmission and piping are often 
allocated to those units. The incremental units added to the site do 
not require these facilities or ``right-of-ways,'' and usually just 
require upgrades of relatively low cost.

Q2.  Are there any other technology or research pathways that you think 
should be explored by this Committee that could reduce the capital 
costs for nuclear power?

A2. Yes. Most likely we would use a water moderated nuclear reactor for 
the SMR. However, several other technologies are suitable for that size 
and should be reviewed before a decision is made to proceed with a 
scale model. That would include gas-cooled, pebble bed, liquid sodium 
moderated, and several other designs. Investors would probably be most 
comfortable with water-moderated reactors because they are an extension 
of the existing nuclear technology in use today. However, if 
significant cost and/or safety advantages could be demonstrated using 
alternative reactor designs, it would definitely garner investor 
interest.

Q3.  Should the Federal Government conduct a Federal demonstration 
program for SMR technology? What is the appropriate scale for a 
demonstration program to prove small modular reactor technology, reduce 
the technology risk, and encourage mobilization of private capital?

A3. If sufficient types of Federal or other types of guarantees could 
be provided, it might not be necessary, but investors have become 
skeptical and confused by many the ``subsidies'' and guarantees that 
have been provided to other energy technologies. In my opinion, the 
construction of a full (150 MWe) scale SMR would probably be the most 
effective way to mitigate investor (and safety) concerns over a new 
reactor technology.

Questions submitted by Representative Ralph M. Hall

Q1.  The Committee received written testimony from Nuscale Power 
stating that a federally-funded small, modular reactor (SMR) 
demonstration project was not necessary to advance SMR licensing and 
commercialization and Federal funds should instead be focused on 
assisting in support for first of a kind applications for design 
certification, construction, and operating licenses.

     Do you agree or disagree, and why? If such a project were to go 
forward, what would be the approximate overall cost and appropriate 
Federal/industry cost-share?

A1. See response to question 3 above.

Q2.  What is your reaction to concerns that an SMR demonstration 
project could result in the Federal Government ``picking winners and 
losers'' among competing technologies, resulting in reduced incentives 
for private sector investment in ``losing'' nuclear technologies and 
designs?

A2. This is a legitimate concern with no easy answer. To minimize the 
risk of picking the ``wrong'' technology, extensive analysis by an 
independent group of the various designs should be conducted to 
determine which reactor configuration looks most promising from both a 
technological and economical (including financing) perspective before 
selecting a potential ``winning'' design. The relatively small number 
of SMRs that would most likely be built in the first few years is 
unlikely to justify multiple prototypes being constructed. Clearly, the 
multiplicity of different reactor designs that were used in the 1960s-
1980s was a detriment to the industry and a standard design, while not 
a perfect solution, would represent a significant improvement of the 
experience of the 1960s-1980s.

Q3.  It was noted during the hearing that the cost competitiveness of 
nuclear energy would suffer in the absence of regulations to increase 
the cost of carbon-based electricity and given expected sustained low 
prices for natural gas.

     How might industry and Federal priorities--particularly with 
respect to research and development--change if both of these barriers 
remain in place over an extended period of time?

A3. If no carbon tax is imposed and/or natural gas prices remain low, 
the Federal Government will have to increase subsidies and incentives 
to the nuclear industry for it to remain competitive. Clearly, there 
are significant externalities associated with carbon based fuels that 
are not reflected in their current ``market'' prices and the need for 
energy diversification using a domestic, non-carbon emitting source is 
compelling.
                   Answers to Post-Hearing Questions
Responses by Dr. Thomas L. Sanders, President, American Nuclear Society

Questions submitted by Chairman Bart Gordon

Q1.  Is our workforce prepared to operate, manufacture and evaluate SMR 
technology?

A1. The short answer is yes and no. The U.S. retains significant core 
experience in the manufacture, operation, and evaluation of SMR 
technology through its involvement with the U.S. Naval nuclear 
propulsion program, including fuel fabrication, reactor design, reactor 
operation, modular fabrication techniques and transportation of used 
nuclear fuel. Furthermore, graduate and undergraduate enrollments in 
nuclear engineering and related disciplines have increased sharply in 
the last few years. (Total enrollments are now approaching 3000 
students from a low of roughly 200 students in the 1990s.) Many of 
these students have chosen to focus on SMR related technology as part 
of their educational programs. However, I remain concerned that the 
U.S. will experience significant knowledge gaps in certain technical 
areas, especially as they relate to fast and liquid metal reactors, 
which many in the field expect to play a significant role in SMR 
development in the medium term. While we have nearly 40 years of 
operating experience with sodium cooled fast reactors, many of the 
scientists and engineers that were involved in its development and 
implementation are reaching retirement age. It is critically important 
that we capture and preserve their collective knowledge of sodium 
cooled/fast reactor technology so that we may employ it in the design 
and implementation of SMR's in the future.

Q2.  Should the Federal Government conduct a Federal demonstration 
program for SMR technology? What is the appropriate scale for a 
demonstration program to prove small modular reactor technology, reduce 
the technology risk, and encourage mobilization of private capital?

A2. Given the significant political and financial uncertainties 
surrounding the development and deployment of SMR technology by U.S. 
vendors, it is critical that the Federal Government take an active role 
in SMR technology incubation, demonstration, and implementation both in 
the U.S. and worldwide. As I suspect you are aware, you can divide SMR 
technology into three broad buckets:
    advanced light water, high temperature gas cooled, and liquid metal 
cooled fast designs. Each of these technologies differs in their needs 
for Federal support and partnership. We have a fairly advanced 
understanding of the major technical issues related to light water 
SMRs, given our experience in Naval nuclear propulsion program and 
their big cousins in the U.S. commercial nuclear fleet. As such, 
Federal support should focus on the acceleration of design 
certification and licensing for first of a kind systems combined with 
financial support perhaps to be provided through a DOE loan guarantee. 
Congress should also consider the notion of having the Federal 
Government become a ``lead customer'' perhaps on a military base or 
some other Federal facility.
    For high temperature gas reactors, I'm reasonably confident that 
the current legislative mandate and regulatory plans for the Next 
Generation Nuclear Plant (NGNP) provide a reasonable implementation 
pathway, assuming it is aggressively funded by the Federal Government. 
Liquid metal cooled SMR designs require additional research and 
development activities, including perhaps one or more small engineering 
demonstrations to address key technical issues, for which the Federal 
Government should take an active role in partnership with U.S. 
industry. While these reactors will certainly take longer to implement 
them their light water counterparts, they have certain safety, waste 
minimization and nonproliferation characteristics that would make them 
uniquely attractive.

Questions submitted by Representative Ralph M. Hall


Q1.  The Committee received written testimony from Nuscale Power 
stating that a federally funded small modular reactor demonstration 
project was not necessary to advance SMR licensing and 
commercialization and Federal funds should instead be focused on 
assisting in support for first of a kind applications for design 
certification, construction, and operating licenses. Do you agree or 
disagree, and why? If such a project were to go forward, what would be 
the appropriate Federal/industry cost share?

A1. It is difficult to say for certain whether a particular SMR 
demonstration project would be appropriate for Federal investment, 
without understanding the detailed mechanics of the proposal. 
Furthermore, it is important to recognize that at least two companies 
are developing light water SMRs technologies which are, in my 
understanding, generally similar in design although they vary in power 
output. The Federal Government should be extremely careful that in 
developing and implementing its mechanisms for SMR support, so that it 
does not inadvertently favor one vendor over the other.
    That said however, my personal opinion is that the Federal 
Government should consider all avenues it has at its disposal, 
including the possibility of a technology demonstration program, to 
ensure the deployment of this technology, so critical to both our 
energy security and national security objectives, is implemented in an 
expeditious manner. As for the specific percentages of a Federal/
industry cost share, I would hope that the government share would be 
less than 50% of the total project cost.

Q2.  It was noted during the hearing that the cost competitiveness of 
nuclear energy would suffer in the absence of regulations to increase 
the cost of carbon-based electricity and given expected sustained low 
prices for natural gas. How might industry and Federal policies--
particularly with respect to research and development--change if both 
of these barriers remain in place over an extended period of time?

A2. There is no doubt that the combination of low natural gas prices 
and the absence of binding carbon constraints will reduce the financial 
incentives for private industry to invest in the development and 
appointment of SMR technology. However, Federal investment in SMR 
technology should not be judged solely on the basis of its role in U.S. 
energy supplies. Around the world, over 60 countries are constructing 
or actively exploring adding nuclear generation capacity to their 
energy portfolios. Many of these countries, approaching 80%, do not 
have an electrical grid large enough to absorb the power generated by a 
1 GW nuclear plant, and therefore SMR technology is there only 
reasonable option. Other nations such as Russia and China are moving 
forward aggressively to develop export--oriented SMR technology to 
serve these markets. Clearly, the profit and job creation possibilities 
are compelling to these nations. If the U.S. is not actively involved 
in developing and exporting SMR technologies, other countries will reap 
the benefits of the global nuclear renaissance, while the U.S. watches 
from the sidelines with little role in influencing global safety and 
nonproliferation norms.
    In short, this is a U.S. national security issue, therefore, the 
Federal role in developing and deploying SMR technologies should be 
strong and consistent regardless of the U.S. domestic market.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


 Summary and Table of Contents, Department of Energy Nuclear Research 
                  and Development Roadmap, April 2010

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

A Sustainable Energy Future: The Essential Role of Nuclear Energy, from 
                 DOE Directors of National Laboratories

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Additional Testimony from Marvin S. Fertel, President and Chief 
              Executive Officer, Nuclear Energy Institute
June 3, 2010

    The Nuclear Energy Institute is the industry's policy organization, 
whose broad mission is to foster the beneficial use of commercial 
nuclear technology. NEI has more than 350 corporate members 
representing 17 countries include every U.S. electric utility that 
operates a nuclear power plant; international electric utilities; 
nuclear plant designers; architect and engineering firms; uranium 
mining and milling companies; nuclear service providers; universities; 
manufacturers of radiopharmaceuticals; labor unions; and law firms. NEI 
is responsible for establishing unified nuclear industry policy on 
technical, regulatory and legislative policy issues affecting the 
industry.
    My testimony will address four areas:

        1.  nuclear energy industry interest in the Department of 
        Energy's research and development roadmap

        2.  the DOE R&D roadmap as a guidance document for reactor 
        research

        3.  how the DOE R&D roadmap will impact used nuclear fuel 
        management and nonproliferation

        4.  additional elements needed for an effective R&D strategy 
        for commercial nuclear technologies

    The U.S. nuclear energy industry's top priority is, and always will 
be, the safe and reliable operation of our facilities. America's 
nuclear power plants have sustained exemplary levels of safety and 
operational performance, and this safe, reliable operation drives 
public and policymaker confidence in the industry. Nuclear energy has 
had an electric sector-leading average capacity factor of 90 percent or 
higher over the last decade. In 2009, the nation's 104 reactors 
produced nearly 800 billion kilowatt-hours of electricity--enough for 
about 80 million homes--at production costs lower than coal and natural 
gas-fired power plants. Nuclear power plants in 31 states generate 72 
percent of electricity that comes from carbon-free sources.

Why Is NEI Interested in the Nuclear Energy R&D Roadmap?

    NEI appreciates this committee's recognition of the strategic 
importance of increased Federal funding for nuclear energy research and 
development. Increases in nuclear energy R&D investment will be 
necessary in the years ahead to help create a sustainable, reliable and 
low-carbon electric supply infrastructure. Unfortunately, recent trends 
are in the opposite direction. In a 2007 analysis, the Government 
Accountability Office found that DOE's budget authority for renewable, 
fossil and nuclear energy R&D declined by more than 85 percent (in 
inflation-adjusted terms) between 1978 and 2005. Over that period, the 
need for new technologies to address critical energy needs has not 
diminished; rather, it has increased with the advent of climate change 
concerns.
    A robust research and development program is necessary if nuclear 
energy is to realize its full potential in the nation's low-carbon 
energy portfolio. In 2008, directors of the 10 DOE national 
laboratories, including now-Secretary of Energy Steven Chu, published a 
report recognizing that ``nuclear energy must play a significant and 
growing role in our nation's . . . energy portfolio . . . in the 
context of broader global energy, environmental, and security issues. 
The national laboratories, working in collaboration with industry, 
academia and the international community, are committed to leading and 
providing the research and technologies required to support the global 
expansion of nuclear energy.''
    The national laboratory directors pointed out that the U.S. 
leadership position in the global nuclear enterprise is at stake. 
Participation in the development of advanced nuclear energy 
technologies will allow the United States to influence energy 
technology choices around the world. This participation also could help 
assure that objective and viable nonproliferation controls are in place 
as other countries develop commercial nuclear capabilities. Therefore, 
technical leadership and increased R&D funding should be a strategic 
and economic imperative of the administration, Congress and the 
industry.
    The 2008 report identified areas of research that have been 
incorporated into a comprehensive strategy for nuclear energy R&D 
developed by the Electric Power Research Institute and the Idaho 
National Laboratory. NEI supports the R&D priorities listed in that 
strategy:

        <bullet>  Maintaining the high performance of existing light 
        water reactors and extending potential operation of these 
        facilities from 60 years to 80 years. Research and development 
        programs are needed to develop improved advanced diagnostic and 
        maintenance techniques, extend component life, introduce new 
        technologies, and enhance uranium fuel reliability and 
        performance.

        <bullet>  Significantly expand the number of light water 
        reactors, including small reactor designs. Building new U.S.-
        designed reactors internationally will provide global 
        leadership in safe nuclear plant operation while meeting 
        stringent nonproliferation objectives.

        <bullet>  Developing fast reactor designs and more 
        proliferation-resistant reprocessing technologies will enable a 
        higher percentage of the uranium fuel to be used before 
        reprocessing or disposal. Reprocessing also could reduce the 
        volume and toxicity of the uranium fuel byproduct that requires 
        safe permanent disposal in a geologic repository.

        <bullet>  Developing high-temperature reactors for electricity 
        generation and use in other applications, such as a heat source 
        for industrial processes. High-temperature reactors can reduce 
        greenhouse gas emissions from large-scale process heat 
        operations in the petroleum and chemical industries. This 
        technology could economically produce hydrogen for fuel-cells 
        and other industrial applications.

    In February, NEI convened the 7th Nuclear Energy R&D Summit, 
bringing together industry, academia and DOE national laboratory 
officials to discuss the industry's R&D portfolio. Nearly 400 
participants developed a statement of principles (attached), which 
recommends seven focus areas for nuclear energy R&D:

        1.  Maintain a consistent long-term plan for nuclear energy 
        programs, including an integrated R&D strategy that supports 
        basic research that is goal-oriented.

        2.  Select a limited number of cost-shared projects for 
        development of reactor and fuel management technologies.

        3.  Support development of reactor technologies that qualify 
        for DOE's Loan Guarantee Program.

        4.  Encourage the restoration and expansion of the domestic 
        manufacturing supply chain to build new nuclear facilities.

        5.  Research, demonstrate and deploy technology innovations for 
        continued safe operation of current reactors.

        6.  Support work force education and training through 
        congressional appropriations for university programs, 
        investment in the industry-endorsed uniform curriculum at 
        community colleges and tax credits for worker training.

        7.  Fund the development of reactors to ensure a domestic 
        supply of medical and industrial isotopes.

    NEI believes the DOE R&D roadmap can bring these recommendations to 
fruition as it engages industry in implementation of the objectives 
outlined in the document.

NEI's Impression of the Nuclear Energy R&D Roadmap

    Overall, the roadmap makes a strong case for a continued robust DOE 
nuclear energy program to help meet the nation's energy and 
environmental goals. Existing and new nuclear plants will help the 
United States meet its future electricity demand and climate change 
objectives. Various independent assessments of how to reduce electric 
sector CO<INF>2</INF> emissions--including those by the International 
Energy Agency, McKinsey and Company, National Academy of Sciences, 
Cambridge Energy Research Associates, Pacific Northwest National 
Laboratory, the Energy Information Administration and the Environmental 
Protection Agency--show that there is no single technology that can 
slow and reverse increases in CO<INF>2</INF> emissions. A portfolio of 
technologies and approaches will be required, and that portfolio must 
include more nuclear energy as well as an aggressive pursuit of energy 
efficiency and expansion of renewable energy, advanced coal-based 
technologies, plug-in hybrid electric vehicles and distributed energy 
resources. Removing any technology from the portfolio places untenable 
pressure on those options that remain.
    NEI estimates that approximately 28,000 megawatts of new nuclear 
energy capacity (22 new reactors) must be built by 2030 to maintain 
nuclear energy's 20 percent share of the U.S. electricity supply. To 
increase nuclear energy's contribution to achieve greenhouse gas 
reduction goals, the amount of new nuclear energy capacity must be 
substantially higher. EPRI's PRISM analysis, a study of potential low-
carbon emission energy deployment over the next 20 years, shows that to 
provide a high degree of confidence that America's long-term climate 
change goals can be achieved, 45 new reactors must be operational by 
2030, with others under construction or in the licensing process.
    The DOE roadmap achieves this goal by creating a sustained program 
for license extension for current reactors to 80 years and enabling new 
standardized reactor designs to be licensed and built more efficiently. 
Any program that is developed under the auspices of the roadmap must 
adhere to the DOE's principle described on page 16 of the roadmap: ``In 
laying out the activities in each of the R&D objectives described 
below, we must remain goal-oriented to avoid falling into the trap of 
doing a great deal of work that, while interesting, fails to address 
the challenges to the deployment of nuclear energy.''
    NEI supports the proposed Light Water Reactor Sustainability 
program and the Nuclear Energy Modeling and Simulation Hub. Both 
programs will contribute significantly to maintaining safe operation of 
existing reactors and improving the efficiency of new reactor 
development. The modeling and simulation hub also will help to reduce 
the time to market for innovative reactor designs. The industry 
supports an expedited program plan over what DOE includes in the key 
activities table on page 21 of the roadmap. The industry also 
encourages DOE to continue its efforts to bring advanced light water 
reactors and small modular reactors to the market place in an expedited 
manner.
    NEI strongly encourages DOE to continue the funding of advanced 
fuel cycle programs that will improve uranium fuel resource use, 
maximize generation, reduce the volume of used fuel that has to be 
disposed of in a deep geologic repository and limit proliferation risk.
    Domestic facilities are expanding the capacity for uranium fuel 
supply. This week, LES opened the first U.S. centrifuge uranium 
enrichment plant in Lea County, New Mexico. The plant is currently 
awaiting final NRC approval to commence commercial operations, which is 
expected shortly. At full capacity, the facility can produce enriched 
uranium for nuclear fuel to provide as much as ten percent of America's 
electricity needs. Last month, the Energy Department offered a $2 
billion conditional loan guarantee commitment to AREVA for its planned 
uranium enrichment facility in Idaho. The project will use advanced 
centrifuge technology and could create as many as 4,800 direct and 
indirect jobs. USEC and the Department of Energy announced an agreement 
in March to provide $45 million in funding to USEC to fund ongoing 
American Centrifuge enrichment technology demonstration and 
manufacturing activities. USEC will match the DOE funding on a 50-50 
cost-share basis. Other companies also are investigating advanced 
facilities for uranium enrichment, including GE Hitachi Nuclear Energy, 
which is developing the Global Laser Enrichment. This is a new method 
for enriching uranium that could benefit from DOE support.

How the R&D Roadmap Will Impact Waste Management and Nonproliferation 
                    Programs

    Used nuclear fuel is managed safely and securely at nuclear plant 
sites and can be done so for an extended period of time. Used nuclear 
fuel does not represent an impediment to new reactor development in the 
near term. It is, however, an issue that must be addressed for the long 
term.
    The nuclear industry's position on used fuel management is clear:

        <bullet>  The Nuclear Waste Policy Act establishes an 
        unequivocal Federal legal obligation to manage used nuclear 
        fuel. Until that law is changed, the nuclear industry believes 
        the NRC's review of the Yucca Mountain repository license 
        application should continue.

        <bullet>  A credible and effective program to manage used 
        nuclear fuel must include three integrated components: storage 
        of used nuclear fuel at nuclear plant sites and at centralized 
        locations; technology development necessary to demonstrate the 
        technical and business case for advanced fuel treatment, 
        including recycling; and, ultimately, operation of a permanent 
        disposal facility.

    DOE's activities in Objective 3 of the roadmap are limited to fuel 
cycle research until the Blue Ribbon Commission on America's Nuclear 
Future reports its findings to the secretary of energy. NEI supports 
the inclusion of a modified open fuel cycle to determine if there is an 
opportunity for new waste forms that could reduce the costs of a 
national repository program. Here too, the DOE principle stated on page 
16 of the roadmap is relevant: ``In laying out the activities in each 
of the R&D objectives described below, we must remain goal-oriented to 
avoid falling into the trap of doing a great deal of work that, while 
interesting, fails to address the challenges to the deployment of 
nuclear energy.'' Any program that expends taxpayer funds to pursue 
research must be directly linked to an R&D goal.
    Nonproliferation issues impact the commercial nuclear industry 
worldwide. The U.S. industry works closely with Federal, state and 
local governments to ensure safe operation and security at commercial 
reactors and fuel facilities. In addition, the nuclear industry 
complies with current export control laws and protocols. NEI recently 
hosted a Nuclear Security Conference that brought together more than 
200 industry leaders from 29 countries to discuss the appropriate role 
for industry in securing nuclear materials. Subsequently, the industry 
formed a task force of industry executives to develop recommendations 
for taking additional steps in securing nuclear materials used in 
commercial nuclear applications. As the DOE Office of Nuclear Energy 
works to minimize the risk of nuclear proliferation, the industry looks 
forward to continued constructive engagement in this area.
    NEI supports the inclusion of $3 million for international nuclear 
energy cooperation in the FY 2011 budget that will allow DOE's Office 
of Nuclear Energy to participate more fully in discussions and 
negotiations on a range of international nuclear energy concerns. The 
Institute encourages DOE to engage with the nuclear energy industry as 
it pursues international nuclear energy cooperation to leverage these 
interactions and support the export of U.S. products and services.

What Are the Missing Elements of an Effective R&D Strategy for Nuclear 
                    Technologies?

Supply Chain
    The domestic commercial nuclear manufacturing industry has immense 
prospects for growth and job creation, yet R&D on manufacturing is 
essential to achieve the objective of supplying components for new and 
existing U.S. nuclear plants. Failure to conduct targeted R&D in this 
area may inhibit American workers from fully realizing the benefits of 
global growth in commercial nuclear energy, estimated to be in excess 
of $1.6 trillion over the next 20 years.
    Research and development for nuclear manufacturing falls into three 
categories: fabrication technology; education and training; and codes 
and standards. An integrated approach that focuses on each of these 
areas will enable the industry to better leverage development in these 
areas and more effectively meet the industry's objective--supplying new 
nuclear projects from domestic manufacturers.
    The industry, with the help of organizations such as the Nuclear 
Fabrication Consortium, has started to focus on education and training 
as well as the development of new or updated codes and standards for 
manufacturing and materials. A specific R&D focus on fabrication 
technologies would dramatically expand the North American manufacturing 
base for nuclear energy components. A targeted emphasis on high-cost, 
high-benefit manufacturing should be in the area of technology 
investment. Areas of immediate need and opportunity include:

        <bullet>  Real-time Quality Monitoring and Control. This would 
        enable manufacturers to find fabrication-related defects in the 
        manufacturing process sooner or eliminate them altogether. The 
        technology would offer the unique benefit of being deployable 
        across virtually all fabricated component systems and being 
        incorporated directly into the fabrication equipment (machining 
        centers, inspection systems and welding equipment). When 
        standardized, these improved processes, practices and 
        technologies would enable a more rapid use throughout the 
        American fabrication industry.

        <bullet>  Thick Section Welding Technology. Many nuclear 
        facility components are large and have heavy section 
        thicknesses. Even when forgings are used, numerous thick 
        section welds are required. By further developing and 
        validating technologies that other industries are using (such 
        as laser welding, Laser-Gas Metal Arc Hybrid Welding, Tandem 
        Gas Metal Arc Welding, and inertia-based welding processes), 
        production costs could be reduced while improving quality and 
        lowering the residual welding stress.

        <bullet>  Machining Technology. Apart from advances in 
        computer-aided machinery, machining techniques and equipment 
        have remained relatively unchanged for the last half century. 
        The development of new technologies, such as enhanced 
        ultrasonic machining, will enable substantial increases in 
        productivity while maintaining product and machine tool 
        quality.

        <bullet>  Forming. Improved forming technologies, beyond those 
        associated with ultra-large forgings, could have a dramatic 
        impact on the nuclear manufacturing industry. Improved 
        techniques and technologies could reduce or eliminate welds; 
        produce formed components that have an initial geometry that 
        could be machined to a final design instead of welding multiple 
        pieces together; and enable multi-material components and 
        systems to be formed together as a unit rather than formed 
        individually, then combined.

        <bullet>  Materials Development. The nuclear industry uses a 
        cadre of specialized materials ranging from polymers to high-
        alloy metallics. Much of what is known about these materials is 
        the result of research to maintain safety at existing reactors. 
        The development of new materials or assessment of materials 
        being used in other industries, along with the associated 
        manufacturing techniques, could reduce manufacturing and 
        component costs while improving reliability and component life-
        cycle estimates.

Isotope Production
    Nuclear medicine offers procedures that are essential in many 
medical specialties, from pediatrics to cardiology to psychiatry. New 
and innovative nuclear medicine treatments that target and pinpoint 
molecular levels within the body are revolutionizing our understanding 
of, and approach to, a range of diseases and conditions. However, the 
domestic supply of medical isotopes has virtually disappeared. Leading 
companies that provide products for medical diagnostic and therapeutic 
applications obtain supplies from Canada and other nations. This year, 
supplies of essential medical isotopes and equipment from Canada and 
Europe were interrupted, leading to disruption of critical health 
services for patients. Despite warnings from industry and the medical 
community, DOE has not supported U.S. reactor development in time to 
forestall this shortage. Similarly, the DOE laboratory facilities 
providing isotopes for industrial purposes cut production, without 
warning, for Californium-252, which is a key element in starting new 
reactors. Prompt government action is required to develop U.S. reactors 
for the production of medical isotopes.
    The fact that there is no mention of isotope production in the 
roadmap indicates that the government continues to ignore this vital 
part of the nation's health care infrastructure. NEI supports continued 
funding of isotope production reactors by NNSA but believes that the 
Office of Nuclear Energy is responsible for establishing a roadmap 
objective ensuring the availability of isotopes for nuclear medicine. 
Equally, the Office of Nuclear Energy roadmap is incomplete without 
objectives for uranium supply and enrichment.

Work Force
    A highly educated and well-qualified work force is a critical 
element in the development of nuclear technologies. The nuclear 
industry commends DOE's Office of Nuclear Energy for its longstanding 
commitment to nuclear work force development for both the government 
and commercial sectors. This commitment, in conjunction with the 
support of other Federal agencies, has resulted in growing enrollments 
in nuclear engineering programs and the development of nuclear 
technician programs.
    Based upon this success, NEI encourages the continued support of 
universities to carry out R&D. These programs support the R&D 
objectives of the Energy Department and provide support for the 
development of future nuclear scientists and engineers as they pursue 
advanced degrees. Further, NEI encourages the continued support of the 
integrated university program and additional funding of community 
college and other programs that will support the development and 
training of technicians and skilled craft, the most critical area in 
regard to work force development for the commercial nuclear industry. 
Finally, NEI encourages greater coordination of existing DOE energy 
education and workforce development programs through initiatives such 
as Re-Energyse.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Additional Testimony from Paul Lorenzini, Chief Executive Officer, 
                             NuScale Power

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Additional Testimony from Dr. Travis W. Knight, Assistant Professor and 
 Director, Nuclear Engineering Program, University of South Carolina, 
                 submitted by Representative Bob Inglis

Statement by Representative Bob Inglis on Dr. Travis W. Knight and 
                    Testimony

    I am pleased to be able to offer the Committee additional testimony 
by Dr. Travis W. Knight of the University of South Carolina. Dr. Knight 
received his training in nuclear engineering at the University of 
Florida, and joined USC on the faculty of the Nuclear Engineering 
Program in the Mechanical Engineering Department in the fall of 2004. 
He is currently serving as the Acting Director of the program, and 
recently added a new research laboratory for the study of advanced 
nuclear fuels. He has more than ten years of experience in the research 
field, and focuses on advanced fuels, fuel cycle analysis, and nuclear 
safeguards.
    Dr. Knight is a young and promising professor, offering promise of 
a successful nuclear renaissance in the United States lead by homegrown 
talent and intellect. He is a great asset to USC and to the State, and 
Dr. Knight is one of the reasons I believe that the road to energy 
independence runs through South Carolina.
    I would like to offer his written testimony for the record and 
encourage the Committee to rely on Dr. Knight's expertise into the 
future.

Comments on DOE Nuclear Energy Research and Development Roadmap

Travis W. Knight
26 May 2010

    I should begin by saying that I applaud the DOE in its effort to 
layout a roadmap for the development of advances in nuclear energy. I 
believe it very carefully outlines the range of technological concerns 
and areas for development. It should prove important in giving 
direction to academia and industry for making investments in personnel 
and infrastructure to be able to be responsive and partner with DOE. 
This partnership should advance the technology to make our nation more 
secure both economically and strategically and at the same time protect 
our environment and promote the health and welfare of our people by 
reducing pollution and GHG.
    However, no plan is perfect. So I should focus my comments on areas 
where I observe a need/gap exists to advance the aforementioned goals 
and enable nuclear power to play a larger role.
    My chief concern is over what may be a sense of timidity for 
pursuing larger demonstration facilities to advance the technology as 
evidenced in the language that is repeated several times in the 
roadmap:

           ``Although some smaller component or process 
        ``demonstration'' activities are mentioned, these are largely 
        field tests and other actions to provide proof or validation of 
        system elements. They are not costly, large-scale 
        demonstrations like NGNP [Next Generation Nuclear Plant]. Any 
        consideration to embark on such large-scale demonstrations will 
        be the result of decision-making and budget development 
        processes.''

    My concern is that this could represent a belief that government 
has limited or no role in advanced demonstration facilities. I submit 
that public investment and government leadership is needed to recapture 
the U.S. position in this critical technology area that impacts both 
our energy and national security. The truth is that there is a dearth 
of infrastructure and advanced demonstration facilities to support the 
advances needed. In particular, the U.S. has

        <bullet>  no fast reactor to study the destruction of high-
        level waste,

        <bullet>  no high temperature reactor to study the production 
        of other energy products such as synthetic fuels or hydrogen to 
        reduce our dependence on foreign energy sources and cut GHG 
        emissions,

        <bullet>  and no recycling plant to address the long-term 
        sustainability of nuclear power and waste minimization.

    This is true while such facilities exist at either the 
demonstration or commercial scale in places like China, India, Russia, 
France, Japan, etc.
    We should not down play the significance of larger demonstration 
facilities to provide the critical understanding of the problems that 
can exist in larger facilities and issues that arise in bringing to 
commercialization technologies developed earlier at the laboratory 
scale. Additionally, some demonstration facilities provide useful 
research tools in and of themselves such as a fast reactor which is 
necessary to study the transmutation (destruction) of high-level waste. 
In other instances, government leadership and investment may be needed 
to allay concerns over stability of regulation and national policy. 
This is perhaps best evidenced in the history of reprocessing/recycling 
where changes in U.S. policy in the 1970s led to the abandonment of 
commercial facilities constructed for this purpose and worth several 
hundred million dollars. These changes in policy did not achieve their 
purpose of encouraging other nations to not pursue recycling but did 
result in the loss of U.S. leadership in this technology. By originally 
abandoning this technology earlier, we are now licensing a more 
advanced form developed in subsequent years by the French for our 
recycling of excess nuclear warheads, which I may add is a very 
worthwhile and important effort.
    Without a doubt, there is great need to conduct research at a 
laboratory scale to develop the most advanced and robust technologies. 
However, resisting the need to develop demonstration facilities 
threatens significant delay in implementing these advanced technologies 
due to the practical knowledge gained in operating a production 
facility and understanding the issues involved in scale up. Timeliness 
is further complicated by the long lead times involved in designing and 
constructing such facilities where none exist today. If the urgency is 
real to address GHG emissions for climate change and reduce dependence 
on fossil fuels, then time is of a greater issue. Only by building the 
necessary pilot or demonstration facilities in the next decade can we 
reliably progress down a path of larger implementation to meet our 
needs on a commercial scale. Only follow on commercial-scale 
implementation can truly provide the impact to the larger economy and 
provide the necessary energy security and independence.
    Still, these first steps are not only necessary to provide 
incentive and assurance to the commercial sector to pursue investments 
but these larger efforts are also needed to provide assurance to 
educational institutions to invest in new hires, new programs, and new 
curricula and to provide assurances to students that jobs will exist in 
these areas upon graduation. Here I can relate my own experience as a 
student. In 1994, I was in route to a summer internship at what is now 
part of the Idaho National Laboratory when the order came down to 
cancel the EBR-II reactor. When I arrived after driving for four days 
and having leased an apartment, I was told that I could turn around and 
go home or I could stay and work on the paperwork to close out the Fuel 
Cycle Facility. I decided to stay and now I can say that I am glad that 
I did. Our nation faces a shortage of scientists and engineers and the 
situation will only get worse as the current generation that developed 
this technology moves to retirement. We cannot expect to inspire and 
educate a new generation of engineers and scientists without an 
accelerated investment in infrastructure and partnering with industry 
to ramp up the development of advanced technologies to meet targets in 
waste reduction, GHG reductions, and sustainability.
    In my humble opinion, the U.S. should aggressively pursue the NGNP 
project to demonstrate the planned improvements in the high temperature 
reactor technology. The DOE should implement the major components of 
the DOE Global Nuclear Energy Partnership including the Consolidated 
Fuel Treatment Center (CFTC) based on the most advanced, proven 
technology for the recycling of used nuclear fuel. The Advanced 
Recycling Reactor (ARR) should be constructed to demonstrate the closed 
fuel cycle through the recycle of used fuel and to ensure the long-term 
sustainability of nuclear power and our nation's energy security. Here 
research should be focused on ways to make these fast reactors cost 
competitive with current technology to enable their larger 
implementation in coming decades.
    The construction of these larger, demonstration facilities carries 
the added stimulus of many good jobs at all levels from skilled craft 
to the most advanced research positions. By proving the advances in 
technology through these demonstration facilities, a lasting stimulus 
is provided leading to the commercialization and deployment on a large 
enough scale for sustainable, secure energy production.
    All of these investments should not come at the expense of current 
and planned efforts to provide loan guarantees to commercial entities 
for the construction of new light-water reactor (LWR) plants and fuel 
cycle facilities. These guarantees are needed to jump start the U.S. 
industry to prevent even longer delays in starting construction. 
Indeed, the currently proposed new reactors are only sufficient for the 
U.S. to maintain the current nuclear power contribution of about 20% to 
our electricity generation. If we are to make serious cuts in GHG 
emissions and contribute to energy independence through the use of 
nuclear electricity in the transportation sector (i.e. plug-in 
hybrids), we must do all we can to encourage even larger numbers of new 
plants.
    So in summary, the benefits one should derive from investments in 
larger scale research and demonstration facilities should be:

        <bullet>  The recapture U.S. leadership in this critical area,

        <bullet>  Training and education of a new generation of 
        engineers and scientists,

        <bullet>  Lay the foundation in R&D for commercialization of 
        technologies that will provide energy security/independence, 
        environmental stewardship, and sustainability,

        <bullet>  Provide a lasting stimulus in well paying jobs at all 
        levels from skilled craft to advanced research positions.

                                   

</pre></body></html>
